<html>
<title> - TRANSPORTATION CHALLENGES AND CYBERSECURITY POST-9/11</title>
<body><pre>[Senate Hearing 111-516]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-516

                       TRANSPORTATION CHALLENGES 
                      AND CYBERSECURITY POST-9/11

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 2, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
55-979 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
                  Nick Rossi, Republican Chief Counsel
             Brian M. Hendricks, Republican General Counsel












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 2, 2009.................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Hutchison...................................     4
    Prepared statement...........................................     5
Statement of Senator Lautenberg..................................    19
Statement of Senator Isakson.....................................    21
Statement of Senator Pryor.......................................    23
Statement of Senator DeMint......................................    24
Statement of Senator Warner......................................    26
Statement of Senator Brownback...................................    27
Statement of Senator Snowe.......................................    29
Statement of Senator Cantwell....................................    36
Statement of Senator Klobuchar...................................    38
Statement of Senator Udall.......................................    47
Statement of Senator McCaskill...................................    57

                               Witnesses

Hon. Janet Napolitano, Secretary, U.S. Department of Homeland 
  Security.......................................................     5
    Prepared statement...........................................     7

                                Appendix

Robert A. Voltmann on Behalf of the Transportation Intermediaries 
  Association Concerning the Customs-Trade Partnership Against 
  Terrorism (C-TPAT), prepared statement.........................    59
Response to written questions submitted to Hon. Janet Napolitano 
  by:
    Hon. John D. Rockefeller IV..................................    61
    Hon. Byron L. Dorgan.........................................    68
    Hon. Maria Cantwell..........................................    68
    Hon. Frank R. Lautenberg.....................................    78
    Hon. Claire McCaskill........................................    82
    Hon. Tom Udall...............................................    86
    Hon. Mark Begich.............................................    88
    Hon. Kay Bailey Hutchison....................................    89
    Hon. Olympia J. Snowe........................................    95
    Hon. John Ensign.............................................    96
    Hon. Jim DeMint..............................................    97
    Hon. Roger F. Wicker.........................................   100
    Hon. Johnny Isakson..........................................   102
    Hon. David Vitter............................................   103

 
                       TRANSPORTATION CHALLENGES 
                      AND CYBERSECURITY POST-9/11

                              ----------                              


                      WEDNESDAY, DECEMBER 2, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Madam Secretary, people are coming, I 
promise. And it's just--every day is one of those days, right?
    Secretary Napolitano. I hear you.
    The Chairman. You know a little bit about that.
    Secretary Napolitano. I do, indeed.
    The Chairman. The--one of the things I wanted to make, 
which is not in my statement, that Commerce Committee is--we're 
really glad to have you here, and we do have jurisdiction over 
a bunch of things, like Coast Guard, TSA, and then there are a 
bunch of sub-other entities. And, in all, I think we have 49 
percent of your full-time employees come under our, quote, 
``jurisdiction,'' or ``oversight,'' whatever you--not 
``jurisdiction,'' but ``oversight,'' and 35 percent of your 
discretionary spending. So, it's a chunk, and I think it makes 
it--it's important that you're here, because they're extremely 
important subjects to discuss.
    Secretary Napolitano. Yes, sir.
    The Chairman. I welcome you, and I thank you again for 
joining us today.
    And since the creation of the Department of Homeland 
Security, 8 years ago, we have, in Congress, passed a lot of 
important pieces of legislation, to try to make our Nation more 
safe, more secure. As the former Chairman of the Senate 
Intelligence Committee, which really helps, actually, in this 
job, and now, as Chairman of this Committee, I sit at an 
intersection between economic and national security, in a very, 
very interesting way, and I have a deep appreciation of the 
many challenges that we face, that you face, and opportunities 
either lurking or simply on the horizon.
    I'm proud to say that the Commerce Committee and its 
members were deeply instrumental in developing all or part of 
every major piece of legislation that the Department Homeland 
Security is responsible for implementing, and we're very 
acutely aware of that.
    During that time, our Nation has made a lot of progress in 
transportation security, but obviously we have a lot of work 
that remains.
    A complex goal--global transportation network and supply 
chain--creates enormous security challenges for our Nation. For 
whatever reason, we seem to be slow to understand that, as a 
people. And as a government, I don't think we've done our due 
diligence in terms of supporting DHS, and giving you the money 
that you need. The Coast Guard's an incredible example of that, 
and then all of the harbor problems and everything that you--
you're struggling to--and doing well, but you've got money 
problems everywhere.
    We have porous borders, both land and sea; they create a 
lot of inherent risk. Over the last year, I've had the 
opportunity to discuss with--the state of maritime and port 
security with Admiral Allen, Commandant of the Coast Guard. I 
have an enormous regard for that man; I think he has terrific 
vision and perspective. And, you know, he's very worried--to, 
sort of, reinforce my concept on a lot of things, but one of 
them was just the concept of small vessels. There are so many 
small vessels out there; What do we do about small vessels? 
What does he do? What do you do? I'll be introducing 
legislation early next year on this issue, and I look forward, 
Madam Secretary, to working with you as we develop that.
    I also want to highlight that I remain deeply concerned 
about the state of aviation security, and especially general 
aviation security and aircargo security. In particular, we 
remain far too vulnerable in general aviation. I've always felt 
that. And it's a battle where nobody ever seems to advance the 
ball, particularly. But, I mean, whenever I've been out to 
Dulles Airport, I can never remember passing through any metal 
detector; I never remember having any check on anything. And 
that should not be. And it's sort of easy; it has--since we all 
experience that, we notice it, and other people would be 
inclined to notice that, too, and they may not--they may have 
ill intent.
    The--I think your predecessors shared that view--or, your 
predecessor--shared that view, and I look forward to hearing 
your views on this specific problem of the state of aviation 
security. Both Congress and the Administration must balance 
important but competing needs, maintaining an efficient flow of 
commerce while ensuring that no terrorists can enter our 
country by land, air, or sea. And they can. And we all know 
that. I understand this balance, and I'm committed that we in 
Congress do all we can to make sure that it's achieved, and 
work with you to help you to make sure that it's all achieved.
    I understand the GAO, the Government Accountability Office, 
is releasing a report for the Committee today about the 100-
percent-scanning mandate for maritime cargo. That's something 
that the House is really up on. I have my questions about 
whether that's doable, and I want to talk about that with you, 
because it's very--a very important subject, and you can 
increase your security, if we had all the machinery for it and 
could afford it, but you might slow down commerce, which I 
suppose could happen. But, when you're talking about all the 
ports around the world, it becomes pretty complex.
    The GAO highlights the enormous difficulty of meeting this 
mandate due to the global nature of supply chain logistics and 
simply a lack of technology, sufficient technology. That does 
not mean that we should not continue to strengthen our security 
protocols to prevent high-risk cargo from entering this 
country, whether by land, sea, or air. That's a big problem. We 
need to work harder to find ways to balance our security needs 
with our need to move goods and people efficiently. That's 
always the challenge. And they are not mutually exclusive. They 
don't have to be mutually exclusive.
    I--you know, I--the two DNIs, President Bush's and 
President Obama's, both, in an Intelligence hearing in the last 
Administration and this hearing that are sort of global 
threats, both of them flat out came and said that cybersecurity 
is the greatest threat to national security. They--everything 
else was after that. We hear that. It goes right through our 
head. We don't do that much about it. And--that various 
agencies do, and there are, you know, 50 Federal agencies 
claiming jurisdiction, and 20 Congressional committees 
claiming--or subcommittees--claiming jurisdiction. So, it's a 
mess, but it's a mess which stands as our major national 
security threat.
    To date, Congress has not spent as much time on 
cybersecurity as transportation security. And that has to 
change. That's our fault. I'm committed to making cybersecurity 
a focus for this committee and for this Congress; want to work 
with you on that. The interconnectedness between government and 
private industry on this critical issue cannot be ignored in 
the 21st Century. And again, it's the number-one threat. Two 
different people, 2 years apart, said exactly the same thing--
two different Administrations, two points of view.
    Along with Senator Snowe, I've been working on legislation 
that aims to address the threats that we face from 
cyberterrorists who intend to wreak havoc on our 
infrastructure. Madam Secretary, as you and I have discussed, 
I've called the White House to develop a national security 
strategy, coordinate new roles, renew responsibilities across 
all boundaries. And the Congress and the White House and every 
government agency has to be a part of that solution. And that's 
very easy to say and extremely tough to get people to acquire 
the necessary discipline to focus. We call for somebody who 
reports to the President. Well, that becomes controversial: Is 
that a czar? And I, sort of, don't worry about that. If people 
say it's the number-one national security threat, to me that's 
about all you need to know.
    Anyway, we have enormous respect for you. I respect you 
very much. Over the last 8 years, your Department has 
experienced a lot of growing pains. I know you're the right 
person to move the agency forward. I'm totally confident of 
that. I look forward to being your partner--I think we all do--
in solving top security challenges.
    And I turn now to the distinguished Ranking Member, Senator 
Hutchison, from the State of Texas.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you very much, Senator 
Rockefeller, for calling this meeting.
    Welcome, Madam Secretary.
    I want to start by saying, securing our transportation 
network and infrastructure is essential for our national 
defense as well as our economic prosperity. Texas is home to 29 
ports, including the Port of Houston, which is one of the 
busiest ports in the world. It ranks first in the United States 
in foreign water-borne tonnage, and is home to one of the 
world's largest petrochemical complexes, as well as the U.S. 
Strategic Petroleum Reserve. A terrorist incident at a major 
U.S. port could cause a devastating loss of life and deliver a 
huge blow to our economy.
    For years, I've worked with my colleagues on both sides of 
the aisle to strengthen our Nation's port security and our 
transportation network. And, while we have made great strides 
since 9/11, the Department of Homeland Security faces ever-
evolving threats and still must meet numerous challenges.
    I want to address the transportation security officers, the 
screeners at airports and other places--in some places--and 
talk about collective bargaining. While Federal law, of course, 
prohibits screeners from striking, allowing screeners to 
collectively bargain through a union could have serious 
consequences on the Transportation Security Administration's 
fundamental security mission. I hope that you will talk about 
that issue and how you intend to address it, because I think it 
is very important for us to know that our screeners will not 
able to strike and will not have bargaining that causes work 
slowdowns and shortages and all of the things that are just 
short of a strike.
    Second--and this is something with which you have much 
familiarity, I know--is the movement of goods across our land 
borders. This is an integral aspect of our economy, and must be 
conducted in a secure, and also efficient, manner. 
Unfortunately, the wait times at many of our border crossings 
have increased, while the flow of goods has decreased.
    During the floor debate on the SAFE Port Act, I secured an 
amendment that increased the number of U.S. Customs and Border 
Protection officers by 275. Now, this is an issue on our land 
ports. It's also an issue on our water ports, where, in some 
cases, we are having to share a screener or a transportation 
Border Patrol person with a port and an airport in the same 
area. And that's not a good situation.
    I welcome your views on how we can meet our resource needs 
along the Nation's land borders, water borders, and airports, 
because I think these are the key issues that we must address.
    I will ask questions. I will not go further in my 
statement. But, I do also have questions about the screening of 
cargo at both our airports and our water ports, as well as, of 
course, the land ports and the technology for that.
    So, you have a huge job, and we know that. That agency is 
young, and it is an amalgamation of many of our security 
agencies. But, your responsibility is also critical. So, I 
welcome you and look forward to asking you questions and 
hearing what you have to say.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Thank you, Senator Rockefeller, for holding this hearing on 
transportation security. Securing our transportation network and 
infrastructure is vital for our national defense and our economic 
prosperity.
    Texas is home to 29 ports, including the Port of Houston, which is 
one of the busiest ports in the world. It ranks first in the United 
States in foreign waterborne tonnage and is home to one of the world's 
largest petrochemical complexes, as well as the U.S. Strategic 
Petroleum Reserve.
    A terrorist incident at a major U.S. port could cause a devastating 
loss of life and deliver a huge blow to our economy.
    For years, I have worked with my colleagues on both sides of the 
aisle to strengthen our Nation's port security and transportation 
network. While we have made great strides since 9/11 in improving 
transportation security, the Department of Homeland Security faces 
ever-evolving threats and still must meet numerous challenges.
    First, is the issue of allowing transportation security officers 
(TSOs), or screeners, to collectively bargain for compensation. While 
Federal law does prohibit screeners from striking, allowing the 
screeners to collectively bargain through a union could have dire 
consequences on the Transportation Security Administration (TSA)'s 
fundamental security mission.
    Since the inception of TSA, it has been critical that the agency 
has a nimble and flexible workforce which can react to emerging threats 
at a moment's notice. How you intend to address this issue, Madame 
Secretary, will be of great interest to me and many others on this 
Committee, as well as the traveling public at large.
    Second, the movement of goods across our land borders is an 
integral aspect of our economy and must be conducted in a secure and 
efficient manner. Unfortunately, the wait times at many of our border 
crossings have increased while the flow of goods has decreased.
    During the floor debate on the SAFE Port Act, I secured an 
amendment that increased the number of U.S. Customs and Border 
Protection (CBP) Officers by 275, and I remain committed to ensuring 
that CBP has the resources available to carry out a mission that is 
critical to our Nation's economic and national security.
    I welcome Secretary Napolitano's views on how the Department and 
the Administration intend to best meet the resource needs along our 
Nation's borders. We simply must have a renewed commitment to tackling 
the pressing issues along our southern border, challenges that I know 
the Secretary understands very well.
    Again, thank you, Mr. Chairman, for holding today's hearing. I look 
forward to hearing from Secretary Napolitano on these very important 
issues.

    The Chairman. Madam Secretary--I should say to my 
colleagues, that--it may be both parties, but, I know, our 
party--we're having a Healthcare Caucus--I think is our 1,733rd 
Healthcare Caucus--at 11:30. And so, what I want to do is, with 
apology to colleagues on both sides, is to head directly to 
you, so you can make your statement, and then we'll ask you all 
kinds of questions.
    Secretary Napolitano. Great.
    Senator Lautenberg. Mr. Chairman----
    The Chairman. We'd be--they're all entered as an--
automatically into the record, but the timing--this is--Senator 
Lautenberg, this is not unusual; this is the way we usually do 
it. When we're not pressed, we don't do it; but we do do it 
usually.
    Please proceed.

        STATEMENT OF HON. JANET NAPOLITANO, SECRETARY, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Secretary Napolitano. Well, thank you, Mr. Chairman, 
Senator Hutchison, Members of the Committee, for the 
opportunity to testify on the many actions that the Department 
is taking to secure our country and, at the same time, helping 
to strengthen the foundation of our economic prosperity.
    In the interest of time, I have submitted a longer written 
statement, and ask that it be included in the record.
    But, I would like to focus my opening remarks today on one 
particular issue, and that is the security of containerized 
maritime cargo.
    For years, the Department of Homeland Security and other 
Federal agencies have been working to mitigate the threat, 
particularly, of a nuclear device being brought into the 
country. That was the intent behind Congress's mandate that the 
Department scan 100 percent of maritime cargo headed into the 
United States by the year 2012.
    Now, when the Department looks to mitigate any threat, we 
look to two guiding principles: first, a multi-layered approach 
to security, making us more safe than relying on any single 
layer; and second, risk management as the best way to make sure 
that our actions are prioritized and that our resources are 
focused correctly.
    Now, for various reasons, it is difficult to measure, in 
absolute terms, the risk of a threat of a nuclear device being 
brought into the United States. But, when we look at our 
vulnerabilities to this threat, it's clear that we are 
vulnerable across a number of pathways, and one of these 
pathways is maritime shipping containers. But, there are 
others. Private airplanes, as you mentioned, Senator, small 
boats, as you also mentioned, overland smuggling, are just some 
examples.
    So, when we think about securing the borders of the United 
States, one useful analogy is that of a home. A house has a 
front door, but it also has a number of other possible 
entryways--other doors, the windows, even the chimney. Now, 
here security has definitely improved at the front door; in 
this case, the maritime cargo pathway. But, other possible 
entryways also merit our attention.
    So, therefore, we have been building a layered approach to 
maritime cargo security. We collect advance information on 
cargo entering the United States--who has it, where it's going, 
who may have had access to it--so that we can focus on higher-
risk cargo. We work with partners in the shipping industry to 
improve their security. Once we ensure that a company has put 
strong security measures in place, we focus on higher-risk 
shipments.
    DHS personnel right now are located at 58 ports in 44 other 
countries working with foreign officials to help ensure the 
security of U.S.-bound cargo. And on top of these measures, 
there is the 100-percent-scanning requirement being advanced by 
pilot projects at five foreign ports.
    Now, DHS learned a great deal from these pilots, but it has 
also encountered a number of steep challenges. Some of these 
issues relate to the limits on current technology. Technology 
doesn't exist, right now, to effectively and automatically 
detect suspicious anomalies in cargo. This makes scanning 
difficult and time-consuming.
    Available technologies are also limited in their ability to 
see accurately through very dense cargo. And density often can 
be the measure of something being disguised.
    Other challenges are logistical. Many ports do not have a 
single point through which most of the cargo passes, which 
means that 100-percent scanning would either severely slow 
trade or require a redesign of the port. And, on that note, the 
costs of 100-percent scanning are very steep, especially in a 
down economy. DHS equipment costs, alone, would be about $8 
million for every one of the 2,100 shipping lanes at the more 
than 700 ports that ship to the United States. So, therefore, 
DHS is compelled to seek the time extensions, authorized by 
law, with respect to the scanning provision.
    But, the scanning provision has served and is serving its 
purpose, allowing DHS to focus on this important issue and to 
gain expertise in it. And so, in the view of the Department, 
while we need to continue the current efforts, we need to 
address the security of maritime cargo through a wider lens, 
how to mitigate the threat against all potential pathways, 
including, metaphorically, the other doors, the windows, and 
the chimney.
    I look forward to working with you and the Congress on an 
approach to secure all vulnerable pathways that could be used 
to smuggle a nuclear device into our country.
    Let me, if I might, just briefly mention other actions we 
are taking to help secure some of the other pathways into our 
country. These include significant strides in ensuring the 
security of air cargo. These efforts include work by the Coast 
Guard to collaborate with our partners at other ports, and with 
the small-boat community, to identify potential dangers and 
identify a small-boat strategy. Our efforts also include work 
with the general aviation community to devise rules to help 
secure the country from a dangerous weapon being smuggled here 
via private aircraft.
    So, as you can see, we are taking action, but much work 
remains.
    So, I look forward to working with this Committee and with 
this Congress on addressing this and other threats.
    I thank you again for the opportunity to testify. I look 
forward to addressing some of the issues that you have raised 
in your own statements and to answering, to the best of my 
ability, the questions that you might have.
    Thank you.
    [The prepared statement of Secretary Napolitano follows:]

        Prepared Statement of Hon. Janet Napolitano, Secretary, 
             United States Department of Homeland Security
    Chairman Rockefeller, Senator Hutchison, and members of the 
Committee: Thank you for this opportunity to testify on the efforts of 
the Department of Homeland Security to improve security for land, sea, 
and air transportation, and for cargo, while facilitating travel and 
trade.
    Ensuring our security and facilitating economic activity are 
mutually beneficial, not mutually exclusive. A safe and secure homeland 
requires that we maintain effective control of our air, land, and sea 
borders. Secure, well-managed borders must not only protect the United 
States from threats from abroad--they must also permit the expeditious 
and safe flow of lawful travel and commerce. We are pursuing both of 
these objectives through a broad array of programs in areas of special 
interest to this Committee. Today I would like to highlight some 
particular actions we are taking to address our security challenges, 
and how we working to develop multi-level, risk-based strategies that 
strengthen our security to the greatest extent possible.
Security Challenges in the Global Supply Chain
    The Department has focused on securing the United States from the 
threat of a nuclear device being brought into this country. Because the 
potential consequences of such an event would be so grave, we need the 
best possible strategy to prevent it from occurring.
    We know that al Qaeda has expressed interest in obtaining the 
materials necessary to perpetrate this kind of attack. To combat this 
threat regardless of who the malicious actor might be, the U.S. 
Government has put in place a series of programs and initiatives. These 
include: gathering intelligence on the intent and capability of 
terrorists or other adversaries; controlling and securing nuclear 
material at its source; interdicting illicit acquisition of nuclear 
material; detecting and preventing smuggling into the United States; 
and preparing to respond to attacks. The detection and smuggling 
portions of these programs are the predicate for Congress' requirement 
to scan 100 percent of cargo headed to U.S. ports, and are one part of 
this overall strategic effort, addressing only one possible pathway 
through which nuclear material or a device might be smuggled.
    We believe that as we look at all the pathways in which nuclear 
material or a nuclear device might be smuggled, our Nation's security 
programs should be organized around two fundamental guiding principles: 
First, that a ``defense in depth,'' or layered, approach is more 
effective than a single point of security; and second, that efficient 
and effective risk management is the optimum way to prioritize our 
actions and allocate our resources.
    Assessing the risk of a nuclear device being brought into this 
country presents some difficulties. When considering ``risk,'' we 
measure threat and the intent, capabilities, resources, and activities 
of possible threat actors; we look at our vulnerability to the threat; 
and we look at the consequences if that threat materializes. In the 
case of a nuclear device, the potential consequences are great, but the 
likelihood of an attack is difficult to determine. We know that 
terrorist organizations aspire to attack us in this way, but because 
there is little evidence our adversaries have made a significant 
advancement toward that goal, and because the threat environment is 
constantly changing, we are limited in our ability to assess the 
likelihood of the threat based on available intelligence.
    At the same time, it is clear that we could be vulnerable to this 
threat across a number of potential pathways. One of these pathways is 
through commercial shipping containers that arrive at our seaports. But 
there are others: General aviation, small boats, and over-land 
smuggling are examples of some of these vulnerabilities. When 
protecting against the threat of a nuclear device being smuggled into 
this country, we must keep in mind that we are dealing with complex 
systems that have many points of vulnerability. The matter is not as 
simple as guarding against a threat at a single entryway or other focal 
point.
The Status of Securing Maritime Cargo
    DHS and Congress--through both the SAFE Port Act of 2006 and the 
Implementing Recommendations of the 9/11 Commission Act of 2007 (``9/11 
Act'')--have made significant progress in securing maritime shipping 
containers from being used to smuggle a nuclear device into the United 
States. Congress imposed multiple requirements--including a mandate to 
scan 100 percent of containerized maritime cargo \1\--because it saw a 
vulnerability that needed to be addressed. Because of this mandate, the 
Department has gained critical knowledge and experience in securing 
this pathway and has made important progress through a number of 
initiatives, which are all different layers in our security approach.
---------------------------------------------------------------------------
    \1\ There are important differences between scanning and screening 
of maritime cargo, as defined by the SAFE Port Act. ``Scanning'' means 
utilizing non-intrusive imaging equipment, radiation detection 
equipment, or both, to capture data, including images of a container. 
``Screening,'' on the other hand, means a visual or automated review of 
information about goods, including manifest or entry documentation 
accompanying a shipment being imported into the United States, to 
determine the presence of misdeclared, restricted, or prohibited items 
and assess the level of threat posed by such cargo. I am using these 
definitions for these terms for the purposes of discussing maritime 
cargo.
---------------------------------------------------------------------------
    First, DHS collects advance information on all containerized cargo 
entering the United States in order to help assess the threat that each 
shipment could pose. This process provides critical guidance on where 
we need to dedicate our security resources. In January 2009, the 
interim final rule in the marine environment for Importer Security 
Filing--known as ``10+2''--went into effect. This provides DHS with 
greater visibility into a container's movements and the parties that 
may have had access to it. DHS then puts this information through 
sophisticated, automated analytic systems that identify the shipments 
that pose the highest relative threats. Progress on 10+2 has been very 
positive--industry participation has been very strong, and we have 
already received more than 2.8 million filings representing more than 
90,000 importers. We anticipate moving forward with a final rule either 
soon. Through the Customs-Trade Partnership Against Terrorism (C-TPAT), 
DHS works with the trade community to encourage them to adopt tighter 
security measures throughout their supply chains. Once we can certify 
that these measures are in place, DHS expedites the inspection of goods 
from these partners. This allows safer cargo to move more quickly and 
enables DHS to focus on higher-risk shipments. C-TPAT currently has 
more than 9,300 industry partners.
    Under the Container Security Initiative (CSI), DHS works with 44 
foreign customs administrations to jointly identify and inspect high-
risk cargo containers at 58 ports before they are shipped to the United 
States. This provides DHS critical ``boots on the ground'' at these 
ports. Importantly, these ports represent about 86 percent of all 
shipping into the United States.
The 100% Scanning Issue
    In advancing the goal of 100 percent scanning, the Secure Freight 
Initiative (SFI) deploys networks of radiation detection and imaging 
equipment at five overseas pilot ports.\2\ This advanced pilot has 
encountered a number of serious challenges to implementing the 100 
percent scanning mandate.
---------------------------------------------------------------------------
    \2\ These locations are Southampton, United Kingdom; Qasim, 
Pakistan; Puerto Cortes, Honduras; Busan, South Korea; and Salalah, 
Oman.
---------------------------------------------------------------------------
    Certain challenges are logistical. Many ports simply do not have 
one area through which all the cargo passes; there are multiple points 
of entry, and cargo is ``transshipped,'' meaning it is moved 
immediately from vessel to vessel within the port. These ports are not 
configured to put in place detection equipment or to provide space for 
secondary inspections. At these ports, scanning 100 percent of cargo 
with current systems is currently unworkable without seriously 
hindering the flow of shipments or redesigning the ports themselves, 
which would require huge capital investment.
    Other challenges are the limitations that are inherent in available 
technology. DHS currently uses both passive radiation detection and 
active x-ray scanning to look for radioactive material in cargo. An 
important obstacle is the absence of technology which can effectively 
and automatically detect suspicious anomalies within cargo containers 
that should trigger additional inspection. Currently, DHS personnel 
visually inspect screens for possible anomalies, but the scale and the 
variety of container cargo make this process challenging and time-
consuming. In addition, current x-ray systems have limited penetration 
capability; this can limit their ability to find a device in very dense 
cargo. While DHS is pursuing technological solutions to these problems, 
expanding screening with available technology would slow the flow of 
commerce and drive up costs to consumers without bringing significant 
security benefits.
    Finally, and on that note, the costs of 100 percent scanning pose a 
great challenge, particularly in a struggling economy. Deploying SFI-
type scanning equipment would cost about $8 million per lane for the 
more than 2,100 shipping lanes at more than 700 ports around the world 
that ship to the United States. On top of these initial costs, 
operating costs would be very high. These include only DHS expenses, 
not the huge costs that would have to be borne by foreign governments 
or industry. It is also important to keep in mind that about 86 percent 
of the cargo shipped to the United States is sent from only 58 of those 
more than 700 ports. Installing equipment and placing personnel at all 
of these ports--even the tiny ones--would strain government resources 
without a guarantee of results.
The Path Forward
    Thus, in order to implement the 100 percent scanning requirement by 
the 2012 deadline, DHS would need significant resources for greater 
manpower and technology, technologies that do not currently exist, and 
the redesign of many ports. These are all prohibitive challenges that 
will require the Department to seek the time extensions authorized by 
law.
    At the same time, it is imperative that we approach the threat of a 
nuclear device being smuggled into the United States by addressing all 
possible pathways. The 100 percent scanning mandate has enabled DHS to 
focus on this issue, adopt the important tool of cargo scanning, and 
determine how we can best act to mitigate the threat of a nuclear 
device being smuggled into the United States. In the view of the 
Department, however, we need to address this issue through a wider 
lens: how to mitigate this threat across all potential pathways. I look 
forward to continuing to work with Congress to address this threat in 
such a way.
    Similarly, DHS has been taking action to address our other 
vulnerabilities to the smuggling of a nuclear device. As I explain 
later in this statement, we are making important progress in securing 
air cargo. The Coast Guard and our partners at ports of entry are 
working with the maritime community and with owners of small boats in 
order to identify potential threats. The Transportation Worker 
Identification Credential (TWIC) program is helping to ensure personnel 
security at our own ports. DHS is continuing to work with the general 
aviation community to develop rules that address the risk of bringing a 
nuclear device being brought into the United States by private 
aircraft.
    All of these efforts are a work in progress. Thus, it is essential 
that we look at security in a comprehensive manner and allocate our 
resources according to a strategy that makes the most sense. We cannot 
define ``security'' as being able to flip a switch between two options, 
safe and not safe. Instead, we must evaluate all points of risk and 
vulnerability, comprehensively across a complex system. Everyone 
understands the importance of getting it right when it comes to our 
approach to cargo security. It has long-term and lasting implications 
for our domestic security, our economy, and our trade relations. I look 
forward to working with Congress to develop and implement a solution 
that allocates our resources in a manner that better protects the 
homeland.
Actions and Challenges in Aviation and Surface Transportation Security
    The Transportation Security Administration (TSA) has made great 
strides this year in addressing key issues in transportation security, 
a sector critical both to our country's safety and economic prosperity. 
In the face of an ever-changing threat environment, TSA is dedicated to 
adopting new procedures and technologies that will protect the public 
while respecting individual privacy rights and facilitating travel and 
commerce. Today I will highlight a few important areas in which TSA has 
been particularly active.
    Before I do that, however, I want to express my appreciation to the 
Committee for supporting the nomination of President Obama's choice to 
head TSA, Erroll Southers. When he is confirmed, Erroll will bring 
outstanding leadership to TSA as the agency continues its critical 
work.
Development of a Dedicated, Effective TSA Workforce
    The effectiveness of TSA's security efforts depends first and 
foremost upon its people. The TSA workforce is the agency's most 
valuable asset in preventing, detecting, and deterring threats to our 
transportation sector. Building the TSA workforce is a major priority, 
and TSA has initiated innovative programs to attract and retain a 
motivated and a well-trained work force, including a career progression 
program for Transportation Security Officers (TSOs) and creative pay 
incentives for part-time TSOs, such as a split shift differential, 
Sunday premium pay, and full-time health benefits.
    TSA has also created programs to address employee concerns. The 
National Advisory Council (NAC) is a committee of management and TSO 
representatives from various airports that acts as the liaison for the 
workforce in presenting to senior leadership new ideas as well concerns 
relating to existing practices and policies. The Model Workplace 
program brings staff and leadership together to create a cohesive work 
environment through local employee councils and training in conflict 
resolution.
    These programs also include an award-winning workers' compensation 
program that has resulted in significant cost savings, an estimated 
$19.4 million from FY 2007 to FY 2010. This program includes an 
innovative nurse case management element that ensures affected 
employees are receiving proper treatment, medication, and related 
therapy to facilitate their return to duty after injury, thus reducing 
time off the job. It also includes a review of all cases on the long 
term workers compensation roles, which has resulted in the resolution 
of 67 percent of the cases in existence when the review began in 2007. 
Immigration and Customs Enforcement (ICE) is working to create a 
similar program, and we moving to implement this program Department-
wide.
Technology Development
    The Department is also aggressively moving to improve our 
technological capabilities in order to address evolving threats to our 
Nation's security in the air environment. Utilizing the latest 
technologies allows DHS to more effectively perform its law enforcement 
and security duties while at the same time facilitating legal travel 
and trade and expediting security procedures for the traveling public. 
Aviation security will focus on new technology at airport checkpoints 
to screen passengers for concealed weapons, explosives, and other 
prohibited items that might not be detected by a metal detector-
providing the capabilities necessary to combat the evolving threats 
that our intelligence activities have revealed. TSA has gone to great 
lengths to balance privacy with security in its screening processes, 
and continues to work on technology enhancements that will offer even 
greater privacy protections in the future.
Pilot Results for a Biometric Exit Program
    At the recommendation of the 9/11 Commission and the requirement of 
Congress, since the inception of the US-VISIT program, DHS has 
prioritized the development of an automated capability to record when 
visitors leave the United States. This is an important tool to 
addressing visa overstays. By adding biometrics to the current 
biographic-based system of recording departures, DHS will be able to 
more accurately and efficiently determine whether foreign citizens have 
departed the United States.
    From May 28 to July 2, 2009, US-VISIT tested biometric air exit 
procedures at two airports, Detroit Metropolitan Wayne County Airport 
and Hartsfield Jackson Atlanta International Airport, in accordance 
with a Congressional requirement that additional biometric collection 
testing be done prior to publishing a final rule on the topic.\3\ In 
Detroit, Customs and Border Protection (CBP) officers collected 
passengers' biometrics at the boarding gate. In Atlanta, passengers' 
biometrics were collected at a TSA checkpoint.
---------------------------------------------------------------------------
    \3\ Previously, DHS had proposed a rule in 2008 that commercial air 
carriers and vessel carriers collect and transmit the biometric 
information of international visitors to DHS within 24 hours of their 
departure from the United States. Congress asked DHS to test additional 
biometric collection before finalizing this rule to ensure that the 
best available procedures are implemented.
---------------------------------------------------------------------------
    The Department has submitted an evaluation of these pilots to the 
Senate and House Appropriations Committees and to the Government 
Accountability Office. The results of the pilot evaluation, combined 
with the review of a completed public comment period, will inform the 
final rule that the Department will issue to cover both airports and 
seaports.
Secure Flight
    One of the 9/11 Commission's key recommendations was for the 
Federal Government to check passengers traveling on commercial airline 
flights against terrorist watch lists, a responsibility that was 
previously held by the airlines. In January 2009, Secure Flight became 
operational, prescreening passenger name, date of birth and gender 
against government watch lists for domestic and international flights. 
The program makes travel safer and easier by helping to keep known or 
suspected terrorists from obtaining a boarding pass and preventing the 
misidentification of passengers who have names similar to individuals 
on government watch lists. To date, 18 air carriers have successfully 
switched to Secure Flight, including one international carrier. Testing 
is underway with an additional 27 air carriers. Implementation for all 
covered air carriers is scheduled to be completed by the end of 2010. I 
would like to thank this Committee for your strong support for the 
Secure Flight program since its inception and the Government 
Accountability Office (GAO) for its constructive collaboration during 
its audit of this important program.
Foreign Repair Stations Rule
    TSA is also making progress strengthening aircraft security. On 
November 18, 2009, TSA published a Notice of Proposed Rule Making in 
the Federal Register on Aircraft Repair Station security. The proposed 
rule would establish security requirements for maintenance and repair 
work conducted on aircraft and aircraft components at domestic and 
foreign repair stations that are certificated by the Federal Aviation 
Administration (FAA). It also requires FAA-certificated foreign and 
domestic repair stations to adopt and carry out a standard TSA security 
program to safeguard the security of the repair station, the repair 
work conducted, and all aircraft and aircraft components at the 
station. The program will require stations to implement strict access 
controls, provide security awareness training, and allow for DHS 
inspections.
    After 60 days of public comment, we look forward to responding to 
comments, finalizing the rule and moving forward with the required 
security audits that to date have been conducted with the voluntary 
cooperation of many foreign partners.
Large Aircraft Security Program (LASP)
    General Aviation (GA) remains a concern to the Department because 
of its ability to circumvent some of our layers of security and its 
potential to deliver dangerous people or weapons to the United States. 
Addressing this concern while maintaining a robust GA sector is one of 
the purposes of the Large Aircraft Security Program.
    TSA has sought out input from GA stakeholders throughout its 
rulemaking process for LASP, receiving 8,000 comments in response to 
the initial NPRM, conducting five public meetings and holding 
additional comment outreach sessions with impacted stakeholders to gain 
further input and feedback. TSA plans to issue a Supplemental Notice of 
Proposed Rulemaking before the end of 2010 that incorporates this input 
and addresses some of the concerns of GA stakeholders.
Air Cargo Screening \4\
---------------------------------------------------------------------------
    \4\ The definition of ``screening'' contained in the portions of 
the 9/11 Act that cover air cargo differs from the definition in the 
SAFE Port Act. In this context, screening means ``a physical 
examination or non-intrusive methods of assessing whether cargo poses a 
threat to transportation security. Methods of screening include x-ray 
systems, explosives detection systems, explosives trace detection, 
explosives detection canine teams certified by the Transportation 
Security Administration, or a physical search together with manifest 
verification. . . .'' I am using this definition when discussing air 
cargo.
---------------------------------------------------------------------------
    Excellent progress continues when it comes to screening air cargo: 
More than 50 percent of air cargo is now undergoing screening. More 
than 95 percent of passenger flights fly each day carrying fully 
screened cargo on board. TSA is moving forward with its Certified Cargo 
Screening Program (CCSP), but the program will need greater 
participation from the air cargo industry in order to meet the August 
2010 deadline for 100 percent screening of all cargo that is borne on 
passenger aircraft for flights originating in the United States. To 
that end, an industry-wide conference will occur in mid-December to 
encourage participants in the air cargo supply chain to join the CCSP.
    Meeting the 100 percent screening requirement for cargo inbound to 
the United States from foreign countries continues to present 
challenges. TSA is taking a layered approach to securing this cargo: 
TSA is increasing security requirements for cargo acceptance, handling, 
and screening of cargo transported into the U.S. on passenger aircraft. 
It is strengthening global security standards through collaboration 
with the International Civil Aviation Organization (ICAO) and through 
agreements on information sharing and standardization of security with 
foreign partners. TSA is also working with U.S. Customs and Border 
Protection (CBP) to examine the feasibility of adapting CBP's automated 
targeting system (ATS) to provide risk screening on every shipment of 
cargo.
Improvements in Threat Assessments
    The Department is also making progress in preparing a proposed rule 
to standardize background checks, standards for redress, and fees among 
all transportation workers who have access to secure areas of the 
Nation's transportation system in order to reduce redundant background 
checks and establish consistent standards across the country. This 
future rule (Universal Security Threat Assessment/Fee Rule) will cover 
several existing background check programs, such as the Transportation 
Worker Identification Credential (TWIC) as well as Hazmat drivers, air 
cargo, airport and airline personnel, and new populations we are 
required to vet under the 9/11 Act, such as frontline rail and transit 
workers.
Federal Air Marshal Service
    I want to recognize the accomplishments of TSA's Federal Air 
Marshals Service. In the past 4 years, TSA's highly trained Federal Air 
Marshals have flown millions of missions worldwide and participated in 
over 4,000 Visible Intermodal Prevention and Response operations 
(VIPRs)--45 percent in aviation, and 55 percent in surface 
transportation.
Surface Transportation
    DHS, and in particular TSA, continues to enhance surface 
transportation security by working with other Federal departments and 
transportation providers. This will be a major priority of mine during 
my tenure as Secretary.
    Nothing is more important to security across all modes of 
transportation than well-trained employees. The familiarity of 
employees with the facilities and operating environments of their 
specific modes and transportation systems put them in an ideal position 
to identify and prevent threats. Targeted security training for key 
employees is one of the most effective measures that we can take to 
enhance security. To pursue this goal, TSA is drafting an NPRM that 
will institute employee security training program requirements across 
all surface modes of transportation: freight railroad carriers; public 
transportation agencies (including rail mass transit and bus systems); 
passenger railroad carriers; over-the-road bus operators; and motor 
carriers transporting highway security-sensitive materials. Training 
elements for these programs will address security awareness, terrorist 
behavior recognition, and threat and incident prevention and response.
Actions and Challenges in Maritime Security
    In addition to aviation security, maritime security continues to be 
a major priority for the Department in its overall mission to secure 
the Nation.
Piracy
    The United States is committed to combating piracy, and DHS plays 
an essential role in this effort. Currently, U.S. Coast Guard personnel 
augment Central Command's Combined Task Force 151 as part of a U.S. and 
international force operating in areas prone to piracy.
    Because vessel owners and operators have primary responsibility for 
the security of their vessels and the best defense against piracy is 
preparedness, DHS has worked with Federal partners to develop guidance 
for the maritime industry. For example, the Maritime Security (MARSEC) 
Directive on Vessel Security Measures for High Risk Waters (HRW), which 
was issued under the authority of the Coast Guard in May 2009 and 
requires U.S.-flagged vessels to evaluate risk and determine 
appropriate self protection measures for the vessel when operating in 
high-risk waters.
    This directive requires U.S.-flagged vessels to use security teams 
(armed or unarmed) in the high risk waters, and we will continue to 
work with the commercial shipping industry to develop and implement 
preventative measures to combat piracy. Pirates have proven versatile 
in adapting their methods so we will continue to provide guidance based 
on how this threat evolves.
Small Vessel Security
    DHS has identified small vessels (those under 300 gross tons) as 
tools that could be used by terrorists to smuggle either weapons or 
people, as attack platforms, or as waterborne improvised explosive 
devices. Last year's attacks in Mumbai and the attack on the U.S.S. 
Cole in 2000 demonstrate how small vessels can be used in terrorist 
operations. Accordingly, DHS has reenergized the Department Small 
Vessel Security Strategy, and we are nearing completion on an 
implementation plan. This implementation plan encompasses programs and 
actions across Federal agencies, and forms a broad doctrine for 
reducing this risk.
    At the same time, we continue to move forward in other important 
areas of small vessel security. Many of these programs focus on 
involving the American boating public in helping to ensure our security 
from potential attacks that can use small vessels.
    For instance, the Coast Guard America's Waterway Watch program 
provides a way for the recreational boating public to report suspicious 
and unusual activity when observed on the Nation's waterways. The Coast 
Guard is also exploring initiatives such as the Citizen's Action 
Network to improve communications with the boating public.
    Our Domestic Nuclear Detection Office (DNDO) has been working on a 
radiological/nuclear detection pilot program in both the Puget Sound 
and the San Diego area to strengthen security through existing 
technology and partnerships with the local maritime community in order 
to detect vessels which might pose a threat. These steps are greatly 
expanding detection opportunities and clarifying response roles and 
options.
    The path forward on small vessel security is clear: we will 
continue to establish and strengthen our partnerships with the small 
vessel community, engage with our international partners, and develop 
and implement technologies to reduce the potential threats from small 
vessels. We anticipate these efforts will lead to enhanced counter-
narcotics operations, greater safety for both small and large vessels, 
and reductions in maritime crimes.
Interagency Operations Centers/SeaHawk
    The Interagency Operations Centers (IOC) Project--initiated in 
response to the requirements of the Security and Accountability for 
Every (SAFE) Port Act of 2006--has tremendous potential to ensure that 
our ports are both efficient and secure, and dovetails with one of my 
major priorities as Secretary: facilitating productive partnerships 
with state and local government.
    DHS plans to deploy the first piece of the IOC project, information 
integration and management software known as WatchKeeper, Segment 1, to 
all locations by the second quarter of Fiscal Year 2011. This time-
frame that allows for the improvement of the project through more 
operational testing and refinement.
    As scheduled, on October 1, 2009, the Department of Justice pilot 
``Project SeaHawk'' in Charleston, South Carolina was transferred to 
DHS. The President's FY 2010 Budget provides funding to support the 
continued operation of IOC Charleston.
    SeaHawk provides a collaborative, unified command-based work 
environment to coordinate vessel and intermodal transportation 
screening targeting in the Port of Charleston. This successful program 
has received important support from local jurisdictions as well as from 
Congress. Using SeaHawk as an example, the construction of an IOC in 
San Francisco is already underway, and plans are under development to 
expand the model to New Orleans and Houston-Galveston in the future.
    We are also bolstering efforts among DHS components in order to 
facilitate this interagency model. In March 2009, Customs and Border 
Protection (CBP) and the Coast Guard entered into a formal agreement to 
cooperate on the development and deployment of all aspects of the IOC 
Project and the Secure Border Initiative (SBI). In addition, Coast 
Guard Sector Los Angeles/Long Beach is being used as a test site to 
collaborate with DHS Science and Technology to provide mature 
technology to the IOC Project.
Transportation Worker Identification Credential (TWIC) Program
    The successful rollout of the Transportation Worker Identification 
Credential (TWIC) at Maritime Transportation Security Act (MTSA)-
regulated facilities and vessels across the country is a direct result 
of tremendous coordination and preparation by the maritime community 
with the Department, the Coast Guard, and TSA.
    DHS components are working every day to implement the TWIC program 
in a number of ways: To date, DHS has conducted checks for and issued 
over 1.3 million TWICs nationwide. Today, all credentialed merchant 
mariners and transportation workers who are seeking unescorted access 
to secure areas of MTSA-regulated vessels and facilities are required 
to undergo a security threat assessment and receive a TWIC. The Coast 
Guard is conducting visual TWIC verification checks as part of annual 
compliance exams and security spot checks and will soon deploy mobile 
handheld readers to its inspection field personnel.
    In addition to reader capabilities being tested by the Coast Guard, 
a comprehensive TWIC Pilot program is currently underway at various 
facilities and vessels operations around the country. Laboratory reader 
tests are largely complete, and 19 readers are approved for use in the 
pilot. We anticipate a ramp-up of reader installations and installation 
at all pilot ports January through July 2010, and we are also seeking 
to augment pilot data by including additional facilities outside those 
facilities designated as official pilot participants. It is clear that 
Congress intends for the TWIC Program to use electronic readers to 
further leverage the security benefits of the program; our goal is to 
maximize the information learned from the pilot and stakeholder 
involvement in the rulemaking process.
    The excellent cooperation among DHS components on TWIC has yielded 
significant efficiencies. The Coast Guard and TSA established an 
exchange process that validates whether workers hold a valid TWIC prior 
to being issued a Merchant Mariner Credential, yielding an estimated $9 
million in cost savings over 5 years, starting in FY 2010.
The U.S. Coast Guard
    Over the past year, the men and women of the U.S. Coast Guard have 
continued their exemplary service ensuring our waterways are secure, 
both in the interior and along the coasts of the United States and 
throughout the world. In order to ensure our Coast Guard personnel are 
able to continue this excellent service, we must procure safe, 
reliable, and capable equipment and infrastructure for them.
Fleet Modernization
    The Coast Guard's readiness is continually threatened by a reliance 
on assets, systems, and shore infrastructure that are outdated and 
rapidly becoming less reliable. The cost of operating major cutters is 
increasing, while the availability of these cutters continues to 
decline because of an aging fleet that continually needs repairs. This 
phenomenon has a direct impact on the Coast Guard's ability to execute 
its mission. Shortages of parts have caused aircraft availability to 
dip below the Coast Guard's 71 percent target. During the past 12 
months, major unexpected repairs for Coast Guard aircraft and cutters 
have cost the Coast Guard more than $60 million and resulted in a total 
loss of over three cutter-years of operational time. Long deferred 
maintenance backlogs also continue to grow. The Coast Guard has gotten 
the most out of its aging fleet, but is now being forced to make 
difficult financial and resource-management decisions to buy down risk 
in the most critical areas.
    To overcome these challenges, the Coast Guard must continue efforts 
to modernize assets and recapitalize its major cutter fleet. In 
particular, the National Security Cutter, a replacement for the High 
Endurance Cutter class, is pivotal to ensuring effective enforcement of 
immigration and narcotics laws. The Response Boats-Medium (RB-M), the 
replacement for the USCG's disparate collection of mid-size boats, is 
already underway and the Maritime Patrol Aircraft (MPA) is already 
proving its operational value on the Gulf Coast.
Acquisition Reform
    Improving acquisition across the Department is a major priority and 
in the years ahead. These changes will ultimately improve the 
efficiency and effectiveness of the Coast Guard and the Department.
    The Coast Guard, specifically, has consolidated acquisition 
activities and adopted a blueprint for acquisition reform that make the 
USCG better equipped to manage costs, schedules, and performance. 
Additionally, in the past year, Coast Guard established the Aviation 
Logistics Center, Surface Forces Logistics Center and Asset Project 
Office, all of which have improved critical support services to 
operational assets Coast Guard-wide. Moreover, the Coast Guard has 
endeavored to improve its recruitment, development, and retention of a 
highly qualified acquisition workforce to ensure we are maximizing the 
use of taxpayer dollars. Because the Department and Coast Guard have 
focused on ensuring the appropriate training, skills, and career 
progression for the USCG acquisition work force, we are seeing positive 
results. For example, all Coast Guard acquisition projects over $1 
billion are now led by DHS Level III-certified program managers (the 
highest level), a major change from only a few years ago. The Coast 
Guard's Human Capital Strategic Plan outlines further initiatives 
through which the USCG will continue to strengthen its acquisition work 
force.
DHS Efforts to Combat Cybercrime
    DHS continues to work extensively with other nations, Federal 
agencies, state and local law enforcement, the private sector, and our 
Nation's research and development infrastructure to secure America's 
cyber networks from a range of threats, including cybercrime. Let me be 
clear: cybercrime is an evolving and growing threat to our Nation right 
now, and the Department is working hard to protect the American public, 
our businesses, and our financial infrastructure from this threat.
Law Enforcement Actions and Partnerships Against Cyber-Crime
    Network intrusions can be devastating to both businesses and 
individuals. Data theft and loss of customer information to any size 
company can have serious effects to that business. More often than not, 
those who suffer the most severe consequences are small or medium-sized 
companies. These companies often lack the resources or expertise 
necessary to properly protect their networks and data. Our efforts must 
become more nimble, and law enforcement agencies must be able to adapt 
to emerging technologies and criminal methods.
    Cyber-criminals operate in a world without borders. They can 
traverse multi-national and multi-jurisdictional boundaries, and the 
nature of cybercrime cases is becoming more complex. Our response to 
the growth in cybercrimes and the increasing level of sophistication of 
this type of threat demands a fully collaborative approach.
    The U.S. Secret Service has adopted a multi-faceted approach to 
aggressively combat cyber and computer-related crimes. The Secret 
Service provides necessary computer-based training to enhance the 
investigative skills of special agents through the Electronic Crimes 
Special Agent Program and leads 28 Electronic Crimes Task Forces that 
collaborate with other law enforcement agencies, private industry, and 
academia. These approaches exemplify the integrated model that is 
necessary to combat this threat. The Secret Service works through its 
Criminal Intelligence Section to identify and locate cyber-criminals 
and provides state and local law enforcement partners with the 
necessary computer-based training, tools, and equipment to enhance 
their investigative skills through the National Computer Forensics 
Institute. Through international field offices, the USSS maximizes 
partnerships with international law enforcement, and it uses the US-
CERT Liaison Program at Carnegie Mellon University to maximize private-
sector support and public outreach.
Outreach to the Private Sector
    The mission of securing the Nation's cyber networks requires active 
dialogue, collaboration, and information sharing between the public and 
private sectors. Because so much of our Nation's critical 
infrastructure is in private hands--including our financial 
infrastructure--it is critical that private entities and the American 
public know what cybersecurity means for them.
    DHS has a number of cybersecurity partnerships underway with the 
private sector. The Department conducts many of its activities through 
the Critical Infrastructure Partnership Advisory Council (CIPAC) 
structure. CIPAC is organized under the National Infrastructure 
Protection Plan (NIPP) framework to facilitate effective coordination 
between government infrastructure protection programs and the 
infrastructure protection activities of the owners and operators of 
critical infrastructure and key resources (CIKR). To secure critical 
infrastructure, the NIPP relies on the sector partnership with the 
Federal Government. This includes Information Sharing and Analysis 
Centers, technology and service providers, Sector Coordination 
Councils, specific working groups, and partners from across the 18 CIKR 
sectors.
    Recent distributed denial-of-service (DDOS) attacks illustrated how 
government and industry work together to share information. During the 
attacks, the National Cyber Security Divisions (NCSD), United States 
Computer Emergency Readiness Team (US-CERT), the National 
Communications System (NCS), and the National Coordinating Center for 
Telecommunications (NCC) partnered very well across government and with 
the private sector to collect information, to understand what was 
happening, and to share that information with stakeholders--leading to 
a swift and effective response. The Department is developing a National 
Cyber Incident Response Plan. This is an interagency effort in 
cooperation with state, local, and private sector partners to define 
the cyber incident roles and responsibilities across all sectors. The 
Department has also launched the National Cybersecurity & 
Communications Integration Center (NCCIC), a consolidated 24-hour watch 
and warning center, to improve coordination between Federal and private 
sector operations centers. The NCCIC brings together interdependent 
missions of the NCS, NCSD, US-CERT, NCC, Office for Intelligence & 
Analysis (I&A), National Cybersecurity Center (NCSC) and the private 
sector to prepare for, respond to and recover from threats to the 
Nation's IT and communications infrastructure.
    Indeed, while DHS works closely with the private sector to share 
information and to respond to incidents, the private sector also plays 
another important role. It possesses a great deal of technology and 
expertise that can help the government in secure its own systems. A 
vital private-sector partnership can further the development of 
comprehensive, innovative solutions that improve and expand our 
Nation's capabilities and keep us ahead of emerging cyber threats. DHS 
is working with industry to find these solutions. Expanding these 
partnerships is one of my major priorities as the Department works to 
secure our Nation's networks from a range of cyber threats.
The Recovery Act and Strengthened DHS Efforts
    Finally, I would like to describe to the Committee how the American 
Recovery and Reinvestment Act has provided critical funds to DHS 
components that are strengthening our security efforts, facilitating 
travel and trade and stimulating the American economy.
    Congress appropriated $1 billion to TSA to procure and install 
explosives detection systems and checkpoint explosives detection 
equipment for checked baggage at airports. TSA will expend around $700 
million of these funds to accelerate the modification of existing 
checked-baggage inspection systems to ``in-line'' baggage handling 
systems. TSA will also use around $300 million for its Passenger 
Screening Program to install upgraded screening technologies at more 
passenger checkpoints.
    Furthermore, the Recovery Act provided $680 million to Customs and 
Border Protection and the General Services Administration for greatly 
needed improvements to aging infrastructure, and for the addition of 
new technology at our Nation's borders.\5\ These funds support a wide 
range of activities related to improving our antiquated port 
infrastructure: the planning, management, design, alteration, and 
construction of CBP-owned land ports of entry; procurement and 
deployment of non-intrusive inspection systems; expedited development 
and deployment of border security technology on the southwest border; 
and the procurement and deployment of tactical communications 
equipment.
---------------------------------------------------------------------------
    \5\ It is important to note that most of the CBP-owned ports of 
entry are on the northern border, while the General Services 
Administration controls the facilities of most of the ports on the 
southwest border. CBP owns 39 northern border ports and four southwest 
border ports.
---------------------------------------------------------------------------
    Finally, the Recovery Act provided $98 million to the Coast Guard 
in order to support shore facilities and aids to navigation, as well as 
to repair, renovate, assess and improve vessels. Of this funding, $88 
million will be used for the construction, renovation, and repair of 
vital Coast Guard shore facilities. The remaining $10 million will help 
address the needs of the aging High Endurance Cutters.
Conclusion
    As you can see, the Department of Homeland Security is moving 
forward in strong, strategic directions to improve the security of our 
Nation. Developing smart, strategic ways to secure our country will 
make our efforts more effective. Improving the security of our 
transportation sector--air, land, and sea--our supply chains, and our 
cyber networks will help ensure they continue to be engines for our 
Nation's economic prosperity.
    Chairman Rockefeller, Senator Hutchison, and members of the 
Committee: Thank you for this opportunity to testify today. I am happy 
to take your questions.

    The Chairman. Thank you very much, Madam Secretary.
    Let me start out with a relatively small thing, but which 
is--seems to be very fixable, and we can be a part of that. The 
drug trade is transporting enormous amounts of cash via vessels 
on the high seas since our money laundering laws were 
tightened, post-9/11. I understand, from the Department of 
Justice--and they had a big conference on this fairly recently, 
and there was a general agreement that we need to tighten up 
laws so that we can prosecute. We cannot prosecute, at this 
point. And so, what I'm asking is that--if you agree that 
existing laws are insufficient in order to prosecute these 
criminals, and have you evaluated the threat with the 
Department of Justice? And do you need additional authority, 
and can we help with additional authority, so that these 
criminals can be prosecuted?
    Secretary Napolitano. Mr. Chairman, I think that, in that 
connection, I would defer to the Department of Justice, who 
would have the actual prosecutorial responsibility.
    But, I would inform the Committee that we have seen an 
uptick in cash going, by sea, that is being used in the drug 
trade, proceeds of the drug trade; also, drugs coming in by 
sea. That may be an indicator that many of the measures we're 
taking at the land border, particularly the Southwest border, 
are having an impact, because we are now inspecting so much 
more of the southbound lanes than--way more than ever 
previously. And we have dog teams, in fact, down at the 
Southwest border, that are trained to sniff out bulk cash that 
would be going south into Mexico as the proceeds of the drug 
trade. So, if there's any good news there, it may be that we're 
forcing these drug cartels into the ocean.
    The Chairman. All right. Well, then----
    Secretary Napolitano. The answer is yes.
    The Chairman. --yes. That's what I wanted. Just one more, 
and then we'll proceed. Protecting the Nation from security 
risks posed by nearly 13 million small vessels. I just--I had 
no idea that there were 13 million small vessels that exist--
is, you know, an absolutely monumental task. There are parallel 
security threats in the general aviation sector, which I have 
mentioned, which has been long unaddressed as a matter of 
vulnerability in our aviation industry. So, I want you to 
respond to that. I understand that you and Admiral Allen are 
preparing a revised small-vessel security strategy. When will 
that be finished? That's one question. It's my understanding 
that DHS has a number of related, but not coordinated, programs 
to address small-vessel security. How will you integrate these 
multiple programs into one comprehensive, layered security 
approach?
    Secretary Napolitano. The answer to your question is, the 
small-vessel strategy--the revised strategy--will be available 
by the beginning of 2010, so we're well along. We've 
incorporated comments from the small-vessel community.
    We are integrating it into our strategy, in particular, for 
how we secure the ports. And, Senator Hutchison, you mentioned 
the ports in Texas and other ports. And again, we get to that 
theory of the layered-risk approach, measuring risk layering of 
various things. But, for example, having different checks and--
as vessels enter the ports, particularly some of our larger 
points--ports, are some of the mechanisms that we're now using.
    The Chairman. All right. And you have the American 
Waterways Watch. You have the Citizens Action Network, Pleasure 
Boat Reporting System. Is--and it's all voluntary, of course--
is that in any way helpful?
    Secretary Napolitano. Those are helpful, yes.
    The Chairman. But insufficient.
    Secretary Napolitano. I think we need an overall strategy, 
and we need to continue to work on the small-boat issue. I 
would not sit here today and tell you we have solved that 
problem.
    The Chairman. I thank you.
    And--Senator Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman.
    Let's start on the collective bargaining issue. What is 
your view about the effort to have collective bargaining among 
the Transportation Security Administration screeners and 
personnel?
    Secretary Napolitano. Thank you, Senator.
    I think that we can accomplish collective bargaining, and 
also do that in such a fashion that we never, at one moment, 
sacrifice any whit of security, that that can be built into any 
collective bargaining agreement.
    By the way, I'd like to thank the Committee for supporting 
the nomination of Erroll Southers to be the head of TSA. 
Obviously, he would have a point position on that particular 
issue.
    Senator Hutchison. And what would be the safeguards?
    Secretary Napolitano. Well, you can----
    Senator Hutchison. I mean, I mentioned earlier and 
addressed that the slowdowns, the sickouts, that sort of thing 
could have terrible consequences on our security. So, what 
would you do to protect the traveling public from this kind of 
diminishment of capability if there were collective bargaining?
    Secretary Napolitano. Senator, now--I speak now as a former 
Governor and a former State attorney general--there are 
examples, around the country, of collective bargaining 
agreements with law enforcement agencies that have similar 
responsibilities, where you have carve-outs, in effect, in the 
collective bargaining context, to make sure that those types of 
things are not part of the collective bargaining agreement. We 
would anticipate, in this context, with the TSOs, that we would 
be able to reach such an understanding. I will say, by the way, 
that I worked as a TSO screener last Wednesday, the busiest 
travel day of the year, and got a little bit of insight into 
what their life is like on the line. And I also saw a lot of 
different kinds of shoes.
    [Laughter.]
    Senator Hutchison. Well, let me say, Madam Secretary--I 
appreciate that--and I think they're doing a great job, 
because, of course, we all travel so much, and I--I think they 
are doing a great job.
    But, what about the need for flexibility? When there is a 
threat, a crisis, where you have to do something very quickly, 
is that on your agenda for protection, as well, if you're going 
to go into collective bargaining, where someone can be called, 
they can work more than the established number of hours? Do you 
have that kind of flexibility? And are you going to use it?
    Secretary Napolitano. Well, the answer is yes, but I would 
give you an example. Even without a collective bargaining 
agreement right now, our TSA employees have been very eager to, 
whenever we've had an emergency and we need to, for example, 
bring more people down to help staff an airport in a hurricane, 
when the people who work there have to stay home and work with 
their families because their house has been destroyed or 
whatever, and we have never had a problem, in my experience, 
with employees being willing to move to a place where a crisis 
is occurring.
    Senator Hutchison. Well, this is something that we will 
want to watch very carefully, because I think it has some 
pretty strong consequences if it's done, and if it's not done 
right.
    Let me ask one more question, and then I will be finished, 
for this round.
    Guantanamo Bay detainees being tried in New York, we all 
know that the decision has been made to do that. I have two 
questions.
    Number one, were you consulted about the security issues 
that would surround such a trial, before the Attorney General 
made that decision?
    And second, are you going to take extra measures, during 
that trial, to protect the traveling public while that is going 
on in New York?
    Secretary Napolitano. Well, the Department of Homeland 
Security is part of the review team that President Obama 
established in connection with closing the prison part of 
Gitmo--not all of Gitmo, but where the detainees are. And the 
answer is, that we have been working on a host of security 
issues, and I would anticipate we will be working, not just 
with DOJ, but also with the City of New York as they prepare 
for the trials.
    Senator Hutchison. So, were you consulted in the beginning, 
before the decision was made to bring them to New York for 
trial?
    Secretary Napolitano. I was not--not in the sense of being 
consulted as to whether security concerns would preclude the 
ability to try them in New York, but I'm very comfortable with 
the decision to try them in New York.
    Senator Hutchison. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hutchison.
    Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thank you.
    Secretary Napolitano, we are very comforted by the fact 
that you're in charge there. You come with a great record of 
public service, and you've shown a firm hand since you're here.
    So, with that, I ask--2 years ago, Congress acted to 
require 100-percent scanning of all shipping containers. Now, 
one of the things that we know is that the--our only threat is 
nuclear, obviously. The worst attack we've had on American 
shores was not nuclear, but it was devastating. So, we've got 
lots of places to look. Threats don't only exist in containers, 
as you have noted. Can--do we see any concrete improvements in 
cargo scanning that had been made since January of this year?
    Secretary Napolitano. Well, Senator, I would point to at 
least two. One is, is that at the end of January of this year, 
the so-called ``10-Plus-2'' interim rule went into effect. And 
I look forward to this January, where we will see even more 
compliance with that rule. This is a rule that really provides 
shippers to provide more advance information about what is in a 
container, who's had access to it, who's packed it, and the 
like, that we can then use and evaluate against a number of 
risk measures that CBP now has. And in addition, we have seen 
our ability now, with--particularly with ARRA money and some 
other of the monies that the Congress has supplied, an ability 
to buildup even more on some of our port security. And that has 
occurred since the beginning of the year.
    Senator Lautenberg. Let me ask you this. Since the task of 
securing 100-percent scanning is so monumental, is there a 
linear approach that says, ``Let's look to those ports that 
come under most concern,'' they're--I'm sure they're--that we 
have identified those, would we not? And--but, also, one of the 
things that I'm--I look at--I'm Chairman of the 
Transportation--Surface Transportation Subcommittee, and when 
we look at where we have to be concerned, we've got to look at 
mass transit, passenger rail, frequent targets of terrorist 
attacks. Last week, a terrorist bombing of a Russian train 
resulted in the loss of 26 lives. But, those threats have not 
influenced our transportation security efforts to the level 
that, frankly, I think ought to be required, in terms of 
balance. What steps are being taken now by the Administration 
to protect those millions of Americans who daily travel by mass 
transit or passenger rail service?
    Secretary Napolitano. Well, Senator, I'd like the 
opportunity to provide you with a more detailed answer in 
writing, because a number of steps have been and are being 
taken from the deployment of grant monies to localities that 
operate mass transit--buses, you know, those sorts of things, 
streetcars and light rail and the like. I think, in terms of 
grants, in 2010 Congress appropriated $300 million for that 
purpose, and then the Recovery Act added another $150 million 
in FY-2010 and those grant monies are being deployed.
    I think we are also deploying a number of portable 
monitors, more transit officers, in particularly in large 
transit hubs; in addition, we have deployed behavioral 
detection officers under the so-called SPOT program--to give 
you just an indication of a few of the things that are 
happening in the land transportation environment where 
passengers are involved.
    [The information referred to follows:]

    TSA has established a five-pronged strategic approach to surface 
transportation:

  <bullet> Protect High Risk Assets and Systems;

  <bullet> Elevate the Security Baseline;

  <bullet> Build Security Force Multipliers;

  <bullet> Assure Information Flow; and

  <bullet> Expand Partnerships for Security Enhancement.

    TSA is completing a comprehensive risk assessment for the rail 
sector, as required by Section 1511 of the 9/11 Commission Act, is 
being incorporated into TSA's Transportation System Security Risk 
Assessment (TSSRA), which considers a wide range of terrorist attack 
scenarios in each transportation mode and evaluates likelihood, 
vulnerability, and potential consequences. When complete, the TSSRA 
will provide the context for TSA to compare railroad risks with risks 
in other modes of transportation. The national strategies, also 
required by the 9/11 Commission Act, will be incorporated into the 
corresponding annexes of the upcoming update of the Transportation 
System Sector Security Plan (TSSSP). The TSSSP, a comprehensive 
unifying plan, will supersede separate interim strategies and plans for 
each mode of transportation. These two efforts are consistent with both 
the 9/11 Act requirement at section 1511 and a recommendation of the 
Government Accountability Office in its June 2009 report on mass 
transit and passenger rail security.
    TSA comprehensively assesses security in passenger rail through the 
Baseline Assessment for Security Enhancement (BASE) program, under 
which Surface Transportation Security Inspectors thoroughly reviews 
security posture against 17 Security and Emergency Management Action 
Items that are foundational to an effective security program. More than 
120 BASE assessments have been conducted to date. Their results inform 
development of risk mitigation priorities, security enhancement 
programs, and resource allocations, notably transit security grants, 
and enable production and dissemination of a compilation of Smart 
Security Practices throughout the passenger rail community.

    Senator Lautenberg. We're out of time, but obviously 
there's a lot to talk about, and I will take the liberty of 
inviting you in so that we can have a discussion of some of the 
issues. And I appreciate your----
    Secretary Napolitano. Right.
    Senator Lautenberg.--good service. Thank you.
    Secretary Napolitano. Yes. I look forward to that. Thank 
you, Senator.
    The Chairman. Thank you, Senator Lautenberg.
    Senator Isakson.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you very much, Mr. Chairman.
    Madam Secretary, first, two compliments. I want to thank 
you for the tremendous effort you and the Department and FEMA 
made in Georgia during the recent floods. I appreciate your 
flying down to Georgia and seeing firsthand--I have to tell 
you, the response of TSA has been--I mean, of FEMA's been 
fantastic, and we're very grateful. Second, we had an issue 
with approvals from your Department with regard to African 
landings by Delta Air Lines in a number of new locations which 
ran into a lot of difficulty, but, since that time, I want to 
thank you for the effort you've paid on that. I understand that 
things with regard to Angola and Liberia are moving along 
nicely.
    And there's another request that's coming--that's all the 
compliments; the next----
    Secretary Napolitano. OK.
    Senator Isakson.--things are the questions.
    Secretary Napolitano. OK, now I'm ready.
    [Laughter.]
    Senator Isakson. Delta has announced it wants to fly into 
Malabo at Equatorial Guinea on the west coast of Africa, which 
is a gateway location. Equatorial Guinea has already issued an 
advance approval and is doing everything that's been asked of 
them, but they need assistance, not in terms of money, but in 
terms of the Safe Skies for Africa Program from FAA and TSA. 
And in a recent meeting in Atlanta, a TSA official announced 
that three African countries would get that assistance. I just 
want to urge you to make sure Equatorial Guinea is one of the 
three that gets the Safe Skies Africa assistance so that that 
can, in fact, take place as soon as possible.
    Secretary Napolitano. Thank you.
    Senator Isakson. And second, we talked a little bit, on the 
plane going to Georgia, about AirTran and a preclearance 
request they'd made in Aruba. As you know, in a number of 
places it's important for preclearance by Customs and Border 
Patrol so that people transferring back into the United States 
are cleared when they leave so they can land at a regular 
terminal gate and leave without going through Customs and 
Border Patrol or at the point they leave. That request was 
rejected, which I have been told--and I don't know this to be a 
fact, so it's not an accusation, it's a rumor--but, that's the 
first time preclearance has been rejected by TSA.
    I would like to ask you--Aruba is a tremendous source of 
travel back and forth, primarily vacation travel. Atlanta's 
Hartsfield is a huge point they leave from. There are already 
20 to 24 flights on each Saturday, which is the big travel day 
for tourism, and it would require a little extra personnel, on 
behalf of the Department, to make the preclearance possible. 
But, you already have 20 to 24 flights leaving during a 5-hour 
window on Saturday anyway, so I'd really like for that 
application to be looked at again, and see if there's anything 
we can do to facilitate that.
    Secretary Napolitano. Senator, we'll be happy to review 
that application again.
    Senator Isakson. And last, a question. With the US-VISIT 
program, we require biometrics, primarily in the form of 
fingerprints, which are validated when someone comes into the 
United States by air. It's my understanding that it's the third 
phase of the program that's getting ready to be announced, 
which will also require, at airports--when leaving the 
country--a revalidation of the fingerprint to ensure the person 
leaving is the person, in fact, that is supposed to be leaving, 
but that that's not going to be required at our seaports or at 
our border crossings with Canada and Mexico, on the ground. And 
80 percent of the people that come to the United States come 
either by sea or by the Canadian border or the Mexican border, 
as I am told. Why would we not check at those borders, as well, 
when they leave, to validate that the person leaving is, in 
fact, the person we think they are?
    Secretary Napolitano. Senator, I'll get back to you, but 
let me just--my guess is--my educated guess is that, with 
respect to the Mexico and Canadian travelers, that the volume, 
in terms of number of passengers and number of lanes, is such 
that the logistics of employing that for the exiting visitors 
at those land ports would be prohibitive. And that's really the 
bulk of what we're talking about. So.
    Senator Isakson. Well, I appreciate the answer, and I 
appreciate your following up on both Equatorial Guinea as well 
as the Aruba AirTran flight.
    Thank you very much.
    Thank you, Mr.----
    Secretary Napolitano. You bet.
    The Chairman. Thank you, Senator Isakson.
    Senator Pryor.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman.
    And, Madam Secretary, thank you for being here today. It's 
always good to see you and be with you.
    Let me ask a few questions, one about trucking; 
specifically, trucking with Mexico. There has been some news 
reports recently that have been critical of the Border Patrol's 
Customs-Trade Partnership Against Terrorism Program. And the 
gist of these news reports is that some Mexican gun and drug 
smugglers are actually using this program because it allows the 
trucks to get through the border quicker and, I guess, with 
less security. Are you aware of that? Have you--are you aware 
of those news reports?
    Secretary Napolitano. I'm not aware of those news reports. 
I am familiar with the C-TPATs program, however.
    Senator Pryor. Well, there has been some that basically are 
saying now that the cartels down in Mexico have figured out 
that that's a way to get things in and out of Mexico, so I just 
wanted you to be aware of that and maybe talk to your folks 
about, you know, how valid that is and if there's anything that 
Homeland Security needs to do to make sure that we minimize 
that type of activity.
    Secretary Napolitano. Oh, absolutely, because those are the 
kinds of programs--again, we're always looking, you know, to 
improve security, but we also have the responsibility to help 
trade and commerce----
    Senator Pryor. Right.
    Secretary Napolitano.--move. And that is a particularly 
difficult balance to strike at our land ports. So, we will take 
a look at those news reports, Senator.
    Senator Pryor. Well, I agree--appreciate that. And I know 
that we have had some, you know, terrible news out of Russia in 
the last few days. And Senator Lautenberg asked about that. And 
it may be a little too early to have lessons learned, based on 
rail security and bombs on trains or on train tracks, but I 
would be interested to know, as you follow up with Senator 
Lautenberg, about, you know, what we can do better, and your 
assessment of how secure our rail system is in this country.
    Secretary Napolitano. Indeed.
    Senator Pryor. And another thing is, there has been some, 
let's see, DHS IG report that has looked at FEMA's use of four 
primary sourcing mechanisms: one is warehouse goods; two is 
mission assignments; three, interagency agreements, and four, 
contracts. And basically the DHS IG has said that FEMA does not 
have a clear overarching strategy that can guide decisionmaking 
on which of these sourcing mechanisms should be used to meet a 
particular need. Are you familiar with that DHS IG assessment?
    Secretary Napolitano. Senator, I'm familiar, generally. I 
have not read the IG report, but I can say with confidence that 
the current administrator of FEMA is addressing any and all 
concerns that have been raised by the IG, and he's doing it 
very rapidly.
    Senator Pryor. Yes, one of the concerns, I think, that's 
raised is that, in a disaster, we need to make sure that we can 
deliver the critical commodities needed in that locality. And I 
think it raises a question about that.
    And the other thing I had for you, generally, on that--in 
that same vein, is--I know one of the things that we've talked 
about in this committee previously, and in Homeland Security, 
as well, is trying to make sure that DHS and FEMA are working 
with local and State leaders, and doing a better job of 
coordinating with various industry groups, even like the 
trucking industry or the retailers, or whoever it may be, to 
try to make sure that we can all interconnect, when we need to, 
to get what we need done done at a critical moment. Are you 
comfortable, are you satisfied that we have been making 
progress there, and there's sufficient cooperation and 
communication?
    Secretary Napolitano. Senator, I think, and believe very 
strongly, that we have improved cooperation there quite 
substantially, both from FEMA itself and through the Office of 
Intergovernmental Programs. And it's everything from regular e-
mails, conference calls, and all the rest. And that kind of 
cooperation, that linkage up with State and locals, is 
absolutely key, not just on the crisis management kinds of 
issues that FEMA is concerned with, but also with the national 
and homeland security issues that we also need to be working 
closely with State and locals on. So----
    Senator Pryor. Right.
    Secretary Napolitano.--the answer is yes. And that 
continues to be a priority of ours.
    Senator Pryor. And, of course, that ties in with the H1N1 
and other, you know, pandemic threats out there, to make sure 
we have that coordination, that preparation on the front end.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Pryor.
    Senator DeMint.

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Chairman.
    And thank you, Madam Secretary, for your briefing and your 
service to our country.
    I want to focus just a few minutes on TSA workers, and just 
a few questions related to them that--I guess the group we're 
most exposed to, as Congressmen and Senators who fly all over 
the country; we're with them every week. But, do you believe 
the current labor policies of your agency adequately protects 
the rights and interests of TSA workers?
    Secretary Napolitano. Senator, we work hard with our 
employee workforce to address their issues and their interests. 
And so, we work hard with them on a whole host of things.
    Senator DeMint. Well, do you think an outside agency or 
group is needed at this point to help establish work 
requirements or staffing--standardize the staffing functions or 
actually help to prescribe how the workforce is managed?
    Secretary Napolitano. By ``outside groups,'' Senator, do 
you mean a union?
    Senator DeMint. Yes.
    Secretary Napolitano. Senator, as I mentioned to Senator 
Hutchison--and again, I go back to my experience as a Governor, 
as a State attorney general, my familiarity with----
    Senator DeMint. Right.
    Secretary Napolitano.--these issues. The answer is that 
oftentimes in the process of interaction with the union, there 
are issues raised that management didn't have prior knowledge 
of, but, in any event, all the security-type issues can and are 
addressed. And security, for an agency like TSA, would always 
come first.
    Senator DeMint. Well, that's good to hear. And I've 
certainly seen, the collective bargaining work at the local 
level, when there's a close working relationship, but we're 
talking around 50,000 people, here, all over the country. What 
I've seen since we've implemented the Department of Homeland 
Security--as you know, in the beginning it was very 
controversial about unionization, collective bargaining. In 
fact, we had to suspend all that because there was a belief 
that, with all the collective bargaining agreements, we could 
not pull all the agencies together and do all the changes that 
were necessary.
    One of the good aspects of TSA has been their flexibility, 
their ability to change constantly and use a continuous quality 
improvement model, step by step, making changes. When you see 
the variety of airports and the different carriers and the 
different routes all over the country, the need for flexibility 
at almost every airport is key. That is completely inconsistent 
with the collective bargaining idea, where you're going to 
standardize various aspects of work requirements and the 
functions. I mean, how can unionization and collective 
bargaining enhance security at our airports?
    Secretary Napolitano. Well, Senator, the answer is, 
collective bargaining and security are not mutually exclusive 
concepts, and they're done--these types of agreements are 
negotiated all the time, all over the United States. And, as I 
said before, security always is our number-one interest at----
    Senator DeMint. Well--but, the----
    Secretary Napolitano.--the Department.
    Senator DeMint.--concern is--it's easier for us, as a 
Congress, to start a new agency than to try to get another one 
to change--a lot of times, because of collective bargaining 
agreements. So, it's--there's really no example of--up here, 
that--of the flexibility that would be needed. The types of 
changes and flexibility that I see continuously going on with 
TSA is certainly going to change, to a degree, if there is a 
third party involved in the decisionmaking, which there will 
be. There's no reason for collective bargaining if there's not 
some standardization or requirement to appeal to that third 
party when changes are made.
    But, my question to you is not whether or not you've seen 
it work at a State or local level, but the whole point of 
Homeland Security, and particularly TSA, is the security of the 
passengers. And if, in the beginning, in our debate--and every 
previous administrator of TSA has said that collective 
bargaining is not consistent with the flexibility and the need 
to change--you are telling us that you're going to collectively 
bargain, even though there's apparently no reason to protect 
workers, that there's not any reason to standardize various 
work requirements. Why do we need to bring collective 
bargaining into this process, when we see TSA making the 
improvements that it needs to, to make our passengers more 
secure?
    Secretary Napolitano. Well, thank you, Senator for noting 
the improvements of TSA and the employee workforce we have 
there. But, again, I'd go back to the basic point, that I do 
not think security and collective bargaining are mutually 
exclusive, nor do I think that collective bargaining cannot be 
accomplished by an agency such as TSA, should the workers 
desire to be organized in such a fashion.
    Senator DeMint. OK. Thank you for answering my question.
    Secretary Napolitano. Thank you.
    Senator DeMint. Yield back.
    The Chairman. Thank you, Senator.
    And now Senator Warner.

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman. And thank you for 
holding this hearing.
    And it's great to see my former colleague, former 
gubernatorial colleague, Secretary Napolitano, and 
congratulations. And I'd echo some of my colleagues' earlier 
comments about the good job you're doing.
    I want to continue on another line of questioning with TSA. 
Circumstances happened in my State and, I believe, a number of 
other States, where airports, if they are going through 
renovations--in my particular State, the Richmond Airport went 
ahead, at the encouragement of TSA, when they were doing a 
renovation, and did a next-generation series of improvement of 
inline explosive detection equipment. And TSA said, ``Go for 
it. Do it.'' They went for it, did it, 3 or 4 years ago. TSA 
promised them a reimbursement of close to $4 billion--$4 
million. They're still hanging out, waiting for this 
reimbursement. And this is not the only airport that's fallen 
into this circumstance. And I raised this with Mr. Southers, 
when he came by before his--when he was going through--and is 
still going through--the confirmation process. But, I just want 
to raise it again at the secretarial level, that there are--and 
that Richmond Airport is not alone in this circumstance, where 
airports, at the instigation of TSA, are going through, putting 
in next-generation detection equipment, and then if TSA doesn't 
honor their commitment to do the reimbursement, airports, on a 
going forward basis, are not going to take this kind of step 
that I think is necessary. Richmond went beyond what was 
required, kind of went to next-generation; they did it in a 
much more extensive way. And I just would ask your office to 
look into this circumstance. And the more we can get these 
dollars out so that airports get these commitments honored, 
would be very, very helpful. I don't know if you're familiar 
with this or have heard from other airports who have raised 
this concern, but----
    Secretary Napolitano. No, Senator. No other airports have 
raised that concern, but I certainly will----
    Senator Warner. If you could----
    Secretary Napolitano.--look into it.
    Senator Warner.--look into it. It's--the Richmond 
circumstance has been now hanging out for a number of years. We 
found a series of other airports that--this was not a one-off 
circumstance, but it would be something I'd love to get some 
feedback on.
    Secondarily, I'm--again, on a parochial basis, and--but an 
airport that many of my colleagues fly in and out of, Dulles, 
where we went through an entire new passenger screening system, 
and put in that, but TSA staffing shortages still make it--we 
put in the new system; staffing shortages are there, so that 
folks are not being served in a timely manner. I don't know if 
that's kind of raised to your radar screen, as well, but I'd 
ask you to look into that circumstance, as well. When an 
airport goes ahead and upgrades their system, they've got to 
make sure they've got personnel to go along with that.
    Secretary Napolitano. Indeed. I'll be happy to look into 
that.
    Senator Warner. All right.
    One that--a final point I wanted to raise, and this is one 
that I know you would be--will be sensitive to, as a former 
Governor--perhaps not completely applicable, in terms of 
Arizona--but, one of the things, in terms of vessel escorts, 
you know, the Coast Guard has been successfully partnering for 
a number of years with State and local law enforcement to do 
vessel escorts as we've come into ports. I know, in our major 
port, in Port of Hampton Roads, the port down in Norfolk, 
literally 60 percent of the vessel escorts have not been 
provided by the Coast Guard, but have been provided by State 
and local law enforcement as transports come in. State and 
local governments are under enormous financial stress. And I'm 
just hoping that if this kind of ratio is maintained, not only 
at Norfolk, but at other ports around the country, that next 
year's financial budgets at most State levels are going to be 
even worse than the last couple of years, as you, I know, are 
well aware. My hope would be that there could be some level of 
financial support still given to the State and local areas that 
are clearly doing part of what would normally fall within the 
Coast Guard's responsibility, to make sure that this very 
successful Federal/local--Federal/State/local partnership, in 
terms of vessel escorting, is maintained.
    Secretary Napolitano. Senator, yes, I'll be happy to flag 
that, as well. That activity may already be covered under some 
of our existing grant programs, but I'll flag it as a concern.
    Senator Warner. We've heard concerns from, again, our local 
folks, that they may be concerned--that they're not sure, if 
they get cutbacks in their local and State budgets, that 
they're going to be able to maintain this kind of partnership. 
And that would be to the detriment of all of us. So, I 
appreciate your attention.
    And again, thanks, to the Chairman, for holding this 
hearing.
    The Chairman. Thank you, Senator Warner.
    And Senator Brownback.

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Thank you, Mr. Chairman.
    Secretary, welcome. Good to see you here. Look forward to 
continue working with you on the NBAF facility. Got through 
this year, and we'll be focusing on next year and continuing 
that program to build it and to get it up and running. It seems 
like, to me, the type of hearing that we're doing now lends 
itself to that much more credence for a program like that, 
where you're trying to protect domestic industry and do the 
research that's necessary to be able to protect against 
bioterrorism, agroterrorism, and some other facilities and 
things.
    I want to direct your attention to general aviation, if I 
could. It's one of the main legs of the Kansas economy. It's 
really been decimated lately, with this economy. Hopefully, 
it's starting to come back a little bit.
    The industry is very concerned about how it is, then, you 
regulate general aviation, and whether or not you're going to 
do it in such a fashion that it can no longer really provide 
the service that it needs to. GA flies all over--90 percent of 
the airports don't receive commercial flights; they only are 
reached by general aviation. And so, there's a real convenience 
factor, and there's a need; and yet, if it's over-regulated at 
a point that they can't provide that service in a small airport 
somewhere simply because of cost--it's cost prohibitive--it 
shuts it down and it makes it less viable.
    I know you're aware of this. In October 2008, there was a 
proposed rulemaking by TSA on the creation of a large aircraft 
security program intended to strengthen GA security. There was 
a strenuous reaction from general aviation on that. I think----
    Secretary Napolitano. That would be an accurate 
characterization.
    Senator Brownback. Good, I'm glad you got the message, 
because they were deeply concerned about it, at a time when, 
already, their sales and problems were mounting, and they 
constantly say to me, ``Just don't kill us. OK? I mean, yes, we 
need to address security--and we will work with you on common-
sense things we can do.''
    They've put forth, already, seven areas of suggested 
improvements for that rulemaking: identification of appropriate 
weight threshold is one that's key to them; possibility of a 
``trusted pilot'' card, if you can look at that and review in 
it; review of passenger watch lists matching procedures; and 
prohibited items--that's another one. They've got several 
others, but--the thing they need is to have balance.
    Security is the key thing, and we've got to provide the 
security, but if you do it in such a fashion that they just 
can't cost comply with it, you're just going to shut down a 
bunch of airport services, because they just don't have the 
ability to match the cost of the security with providing the 
service. There's only so much freight that it can carry. And I 
really hope you can work with the general aviation industry on 
this, because it's just--they view it as life and death to them 
on the industry in the United States, whether or not they're 
going to be able to continue to serve 90 percent of the markets 
that don't have commercial aviation.
    I don't know if you have any thought or response to that. I 
would appreciate your thoughts on it.
    Secretary Napolitano. Well, yes--and this was an area, 
actually, the Chairman pointed out in his opening comments--it 
has been, in a way--when we look at vulnerability, risk threat, 
general aviation is a concern that an aircraft could be 
weaponized or used to bring something into the country. In 
terms of that, the comments that we have received from GA have 
been very useful. We have been working very closely with that 
community. We've also been doing some reexamination of the 
modeling that was used, for example, on the weight threshold. 
The concern there, quite frankly, is, What is the weight by 
which, if an aircraft were to be flown again into a building, 
weaponized, how much fuel would be necessary to cause a 
building to implode, as we saw, tragically, on 9/11? So, 
they've been looking at remodeling on that, and taking into 
account some of the concerns or information brought forth by 
the GA community.
    Also, how do you regulate who gets to fly these aircraft 
around the country? Because of the possibility of bringing in 
material that would be of danger. So, I think that working with 
the GA community, taking into account their legitimate concerns 
about the industry and the airports and the transportation 
needs of the country, but also taking into account the very 
significant security issues, we're hoping to get to the right 
place.
    Senator Brownback. We need you to work with us, if you can, 
because it's an industry that's very dependent upon sensible 
regulations that can work, but still let the industry be able 
to fly.
    Secretary Napolitano. Indeed.
    Senator Brownback. Thanks.
    Thanks, Chairman.
    The Chairman. Thank you, Senator Brownback.
    Senator Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman.
    And welcome, Secretary Napolitano. In fact, one of my staff 
people witnessed your work at TSA firsthand, as a screener. 
They said you did an excellent job.
    Secretary Napolitano. Thank you very much.
    [Laughter.]
    Senator Snowe. I would like to address the issue of air 
cargo screening. I know that the deadline for reaching 100 
percent of screening of air cargo is scheduled for August of 
2010. And I'd like to have your reaction to the report issued 
last week by the Department's Inspector General concerning air 
cargo screening, because raises some significant issues, 
particularly with respect to securing air cargo.
    At this point, your Department has said that more than 50 
percent of air cargo has been screened. Is that correct? Is 
that the figure being screened?
    Secretary Napolitano. That is correct.
    Senator Snowe. Because it wasn't clear in the Inspector 
General's report as to whether or not that had reached the 50-
percent level. They also talked about the fact that there are 
insufficient, or lack of, background checks or training with 
respect to the personnel handling or accessing that cargo. The 
report also indicated--but didn't give the number of--drivers 
were handling or transporting air cargo without the required 
background checks; the IG also reviewed the drivers' records 
and identified that 23 percent did not satisfy the required 
training and testing requirements.
    So, have you had a chance to review this report?
    Secretary Napolitano. I have not personally read the entire 
report. I've read the summary of the report. I've met with TSA 
about the report, as well as other members of my staff. Many of 
the recommendations, or many of the concerns, raised in it are 
things that we are working on right now. And I'll be happy to 
provide you with kind of a progress report as to where we 
stand, Senator.
    [The information referred to follows:]

Department of Homeland Security--Office of Inspector General
Security of Air Cargo During Ground Transportation (Redacted)--November 
        2009
          Appendix B--Management Comments to the Draft Report
                      U.S. Department of Homeland Security,
                    Transportation Security Administration,
                                     Arlington, VA, October 5, 2009
                              INFORMATION
MEMORANDUM FOR: Richard Skinner
Inspector General
Department of Homeland Security

FROM: Gale D. Rossides Acting Administrator
SUBJECT: Draft Report: ``Security of Air Cargo during Ground 
            Transportation,'' July 2009
Purpose
    This memorandum constitutes the Transportation Security 
Administration's (TSA) formal agency response to the Department of 
Homeland Security (DHS) Office of Inspector General (OIG) draft report; 
``Security of Air Cargo during Ground Transportation'' dated July 2009.
Background
    The Office of the Inspector General conducted this investigation to 
evaluate the effectiveness of TSA's efforts to secure cargo while it is 
handled or transported on the ground, prior to being shipped on 
passenger aircraft. OIG found that TSA's inspection process has focused 
on quantity rather than outcomes and ensuring corrective actions. 
Automated tools to assist inspectors in analyzing results and focusing 
their oversight efforts on high-risk areas in air cargo security were 
not adequate. OIG makes six recommendations to strengthen the security 
of air cargo ground transportation.
Discussion
    The Implementing the Recommendations of the 9/11 Commission Act of 
2007 requires TSA to establish a system for industry to screen 100 
percent of cargo transported on passenger aircraft in the United States 
to provide a level of security that is commensurate with the level of 
security for the screening of passenger baggage. The legislation also 
set an interim milestone of 50 percent screening to be reached by 
February 2009. By August 2010, cargo not screened in accordance with 
TSA-approved processes and procedures cannot be uplifted to a passenger 
aircraft in the United States.
    This is an extensive requirement and, TSA understands there is 
simply not sufficient capacity or space in airports to meet its demands 
without carrier delays, cargo logjams, and increased transit times. 
Therefore, TSA has established a multi-dimensional strategy to 
reconcile the requirements of the mandate, the security needs of 
passengers, and the needs of a U.S. economy reliant upon the air cargo 
industry.
    In addition to TSA's existing security regime, we have established 
three programs to assist in meeting the 100 percent screening mandate 
and have made excellent progress:

  <bullet> 100 Percent Narrow-Body Screening--100 percent of cargo 
        uplifted on narrow-body passenger aircraft has been screened 
        since October 2008. This program accounts for 96 percent of 
        passenger flights originating in the U.S. and its territories, 
        and covers approximately 25 percent of the cargo uplifted in 
        the US.

  <bullet> The Certified Cargo Screening Program (CCSP)--A voluntary 
        program designed to enable certain vetted, validated, and 
        certified facilities to screen cargo prior to delivering the 
        cargo to the air carrier. To date, the majority of air cargo 
        screening is done by air carriers through CCSP.

    <ctr-circle> TSA has certified 477 cargo screening facilities 
            through the program.

    <ctr-circle> An interim final rule to accelerate the deployment of 
            the program was published in the Federal Register on 
            September 16, 2009, and will take effect on November 16, 
            2009. During initial deployment of CCSP, the onsite 
            facility assessment has been performed by a TSA Field Team 
            staff. TSA expects that during full rollout, assessments 
            will be performed by a TSA-approved validation firm.

  <bullet> Indirect Air Carrier (IAC) Screening Technology Pilot--an 
        initiative established to test screening technology in a live 
        environment.

    <ctr-circle> Participants in this program are working directly with 
            TSA to provide information and data on cargo, commodity-
            types, and a certain cargo screening technology. 
            Information collected from this pilot will impact future 
            TSA decisions on acceptable screening technologies.

    <ctr-circle> There are 91 participating locations receiving 
            approximately $40.6 million in technology assistance.

  <bullet> TSA Explosives Detection Canine Programs--TSA certified 
        explosives detection canine teams are available to screen cargo 
        throughout the network.

    <ctr-circle> 465 law enforcement partner canine teams devote a part 
            of their time to screening cargo; 6 additional teams will 
            graduate in Fiscal Year (FY) 2009.

    <ctr-circle> 84 TSA proprietary canine teams are fully dedicated to 
            screening cargo. 36 more teams are authorized and planned 
            for deployment in FY 2010, 19 of which have been hired and 
            are currently in training.

    TSA agrees that access control is a vital part of air cargo 
security. In addition to our operational oversight, we will continue to 
work to address access control vulnerabilities through clear policy 
requirements for securing air cargo while it is being stored, sorted, 
screened, and transported. We are in agreement that the concerns that 
have been identified with the agency's security threat assessment 
process should be addressed, and we are providing more guidance and 
tools to standardize training. TSA's Office of Security Operations 
(OSO) FY 2010 Regulatory Activities Plan (RAP) incorporates a risk-
based approach to inspections. In FY 2009, OSO Air Cargo Compliance has 
continued to perform Quality Control (QC) and review audits of 
Performance and Results Information System (PARIS) entries submitted by 
field elements. Last, TSA will provide cargo inspectors with automated 
tools that will allow them to dedicate more time with regulated 
entities.
    Overall, we believe that the recommendations contained in the 
report will provide additional benefit to TSA. TSA has already begun to 
formulate plans to implement the recommendations contained in the 
report. Our specific response to each recommendation follows.
    Recommendation #1: Mitigate access control vulnerabilities by:

        a. Requiring more tests for access vulnerabilities and provide 
        corrective actions to the regulated entities;

        b. Placing more focus on entities that are not following the 
        access control requirements; and

        c. Requiring inspectors to spend more time promoting awareness 
        of access control vulnerabilities and their impact on cargo 
        security.

    TSA Concurs: TSA agrees that access control is a vital part of our 
layered approach to air cargo security.

        a. TSA's Office of Security Operations (OSO) intends to 
        incorporate additional access control testing protocols in the 
        FY 2010 Regulatory Activities Plan (RAP). The RAP is the basis 
        for a Transportation Security Inspectors (TSIs) annual work 
        plan. These additional tests will augment the current system in 
        place. OSO will continue to inspect drivers on their training 
        and knowledge of their security functions.

        Inspectors verify compliance with TSA's access control 
        requirements during all comprehensive inspections. In addition, 
        TSA performed a special emphasis inspection (SEI) during FY 
        2009 Q2 specifically concentrated on access control. The 
        objective of this SEI was to determine, through realistic 
        testing, if foreign air carriers, aircraft operators, and 
        indirect air carriers (IACs) properly control access to cargo 
        as required under transportation security regulations in 49 
        Code of Federal Regulations (CFR) and appropriate cargo 
        security programs. Aircraft operators, foreign air carriers and 
        IACs must prevent unauthorized access to cargo in accordance 
        with 49 CFR Sections 1544.205*), 1544.228, 1546.205*), 
        1546.213, 1548.5, and 1548.15. Additionally, specific 
        requirements regarding access control for employees or 
        authorized representatives are outlined in the applicable cargo 
        security programs. The SEI protocol stipulated that all 
        instances of non-compliance receive a formal investigation. 
        Cases could be resolved with either administrative or civil 
        penalty action. Counseling alone could not be used as a means 
        to close any violations discovered. Finally, SEI results are 
        being used to identify trends in vulnerabilities, assist in 
        identifying corrective measures (e.g., policy or operational), 
        and formulate additional access control testing protocols.

        b. TSA is working with our partners to identify new access 
        control mechanisms. Through partnership with outside vendors we 
        are exploring new conveyance security technology. For instance, 
        TSA has authorized a pilot at Detroit Metropolitan Wayne County 
        Airport called M-lock. The M-lock is an electronically 
        serialized locking mechanism which TSA is testing as a tamper 
        evident seal. This device is equipped with programmable 
        specific serial numbers which are displayed on an LED screen 
        with GPS tracking capability, thereby providing enhanced 
        conveyance-level security to Certified Cargo Screening Facility 
        (CCSF)-screened cargo.Currently, TSA is conducting Cargo 
        Vulnerability Assessments at all Cat X and Cat I airports. TSA 
        is committed to mitigating these vulnerabilities. Vulnerability 
        assessment results are being used to improve policy and 
        operational procedures. In addition to our operational 
        oversight, TSA has worked to address access control 
        vulnerabilities through clear policy requirements for securing 
        air cargo while it is being stored, sorted, screened, and 
        transported. Entities participating in the Certified Cargo 
        Screening Program (CCSP), for instance, have strict facility 
        and conveyance access control procedures that include physical 
        security measures (e.g., fences, cameras), employee 
        identification media, chain of custody technology applied to 
        the screened cargo, and secured conveyances (e.g., locked, 
        sealed, or vehicles under escort).

        c. As of the date of this report, TSIs have conducted over 
        2,060 outreach efforts directly related to air cargo security. 
        TSIs currently spend a significant portion of time providing 
        outreach to Indirect Air Carriers and CCSFs both prior to their 
        becoming certified and after. Prior to an IAC becoming 
        approved, they must submit to a TSI Outreach visit. During this 
        visit the TSI reviews all requirements of the applicable Code 
        of Federal Regulations and the Standard Security Program 
        itself. This includes ground movement and access control to air 
        cargo. TSIs review the facility and trucks to determine if in 
        their current state, they would adequately be able to meet 
        requirements. If not, the TSI will work with the entity to 
        achieve the appropriate level of ground movement and access 
        control security prior to approval.

        In regard to CCSFs, TSA also has a lengthy application process 
        that requires constant interaction and outreach provided by 
        Principal Cargo Security Analysts (PCSAs). These TSA personnel 
        work with an entity to help them achieve the required security 
        level through outreach and education. A CCSF must be 
        ``certified'' by a PCSA prior to entrance into the program

    Recommendation #2: Improve the security threat assessment process 
by:

        a. Requiring regulated entities to maintain copies of documents 
        reviewed for authenticating the identity of an applicant;

        b. Revising the application form to include language noting 
        that failure to provide a social security number may delay or 
        prevent completion of the security threat assessment process 
        and;

        c. Requiring TSA's Office of Transportation Threat Assessment 
        and Credentialing to vet applicants.

    TSA Concurs: TSA agrees that the concerns that have been identified 
with the agency's security threat assessment process should be 
addressed and partially concurs with the recommendations on social 
security number (SSN)

        a. TSA concurs. TSA has just published an Interim Final Rule on 
        Air Cargo Screening, 74 FR 47672, 47701 (September 16, 2009) 
        (Air Cargo Screening IFR) that requires that each aircraft 
        operator maintain copies of the applicant's documents used to 
        verify identity and work authorization.

        b. Currently, language in the Privacy Act Notice found in 49 
        CFR  1540.203(b)(2)(viii) regarding security threat 
        assessments provides that: ``Failure to furnish your SSN may 
        result in delays in processing your application, but will not 
        prevent completion of your Security Threat Assessment.'' 
        However, TSA's recently published Air Cargo Screening IFR 
        contains the language that the IG recommends: ``Failure to 
        furnish this information, including your Social Security Number 
        (SSN) will result in delays in processing your application and 
        may prevent completion of your security threat assessment.'' 74 
        FR at 47683.

        c. TSA recognizes the importance of utilizing the best method 
        possible to capture and evaluate the history of those who will 
        have ready access to our Nation's air cargo transportation 
        system. TSA will evaluate the process to require for air cargo 
        populations, the costs of necessary system/data base changes 
        that would capture biometrics, and the number of new-hire 
        adjudicators to execute the evaluation process. Additionally, 
        we will review the required increase of fees to cover the 
        vetting process.

    Recommendation #3: Enhance training and testing requirements by 
providing more specific guidance to regulated entities regarding the 
training and testing requirements. Additionally, TSA should revise the 
Regulatory Activities Plan to allow more time for inspectors to review 
these requirements.
    TSA Concurs: TSA specifies training and testing requirements in the 
aircraft operator, IAC, and CCSP security programs. The security 
programs clearly stipulate the minimum training content, frequency of 
training, training log requirements, testing frequency, and passing 
scores for tests. In addition, TSA provides the IACs with TSA-approved 
training materials and tests for their Security Coordinators, direct 
employees, and authorized representatives. We are currently developing 
comparable materials for the aircraft operators and CCSFs. In addition, 
TSA is beginning the process of developing standardized training and 
testing, which it plans to require for all regulated parties.
    TSIs verify compliance with TSA training and testing requirements 
during inspections. Noncompliant entities are counseled on how to 
obtain the proper security training and testing. In addition, TSIs 
routinely conduct outreach to the regulated air cargo community.
    TSA will be revising the FY 2010 RAP. TSA concurs that training and 
testing of air cargo security requirements are important and will 
continue to ensure proper regulatory oversight as such. TSA cargo 
inspectors verify compliance with training and testing requirements as 
part of all comprehensive air carrier, IAC, and CCSF inspections.
    Recommendation #4: Revise the Regulatory Activities Plan to allow 
more time for inspectors to:

        a. Incorporate a risk-based approach that emphasizes the use of 
        historical data and analysis.

        b. Provide support and education to the regulated entities to 
        ensure that cargo security requirements are understood and 
        implemented.

    TSA Concurs: TSA's FY 2010 RAP addresses these concerns.

        a. TSA's FY 2010 RAP incorporates a risk-based approach to 
        inform inspections. We have developed a risk score for every 
        entity regulated under a TSA air cargo security program. Our 
        approach provides a risk score per regulated entity per 
        location, which means that Regulatory personnel will be able to 
        access risk scores specific to their airport. Risk scores are 
        updated quarterly. Inspections will be driven based on the 
        entities score: red, yellow, or green indicators. Inspections 
        will also be driven by local and national intelligence as well 
        as responses to significant national events or identification 
        of systematic vulnerabilities; and

        b. TSA will continue to work closely with aviation industry 
        stakeholders to provide support and education.

    Recommendation #5: Provide better guidance, training and awareness 
to all users of the Performance and Results Information System, 
especially the Transportation Security Inspectors for Cargo. 
Specifically, develop an action plan for the TSA officials responsible 
for the Performance and Results Information System to educate the 
inspectors and ensure optimal use of the available data and analysis. 
The action plan should also describe:

        a. The quality and quantity of information that should be 
        collected and reported to promote data consistency among field 
        locations;

        b. Types of information and reports available for inspectors to 
        generate from the system as an effective management tool; and

        c. The available analysis in Share Point to improve risk-based 
        planning reporting capabilities.

    TSA Concurs:

        a. In FY 2009, TSA's OSO Air Cargo Compliance has continued to 
        perform Quality Control (QC) review audits of PARIS entries 
        submitted by field elements. Each quarter, OSO Cargo Compliance 
        selects PARIS inspection reports for airports and Cargo TSIs in 
        each area to review for QC. The inspection QC reviews focus on 
        compliance with the National Inspection Manual (NIM) and RAP 
        requirements. The goal is to review at least one report from 
        each Cargo TSI at each airport by the end of the Fiscal Year. 
        Headquarters (HQ) shares this information with Assistant 
        Federal Security Director's for Inspections upon request and 
        allows them to take appropriate actions when necessary to 
        ensure the PARIS entries submitted by their staff are in 
        compliance with the NIM and RAP requirements.

        b. In addition, TSA's OSO Compliance Programs provide PARIS 
        training and guidance materials. This training involves tips on 
        how to more efficiently use PARIS and on generating reports on 
        data contained in PARIS. Training is also provided on the 
        conversion of data extracted from PARIS into Excel Spreadsheet 
        ``Pivot Tables.'' This training provides TSIs with the ability 
        to generate more useful reports on inspection, investigation 
        outreach and incident data, and analyze and organize the 
        reports in a fashion tailored to their needs. This is primarily 
        facilitated through three efforts. First, newly hired TSIs 
        receive PARIS training during the ``Transportation Security 
        Inspector Basic Training Program,'' a comprehensive 4-week 
        training regime at TSA's Security Enforcement Training Academy. 
        This training is conducted via presentation and hands on 
        exercises. This training is continued during the new TSIs 
        official on the job training (OJT). Second, experienced TSIs 
        receive a refresher during recurrent training. Recurrent 
        training is held at least once a quarter at various airports 
        throughout the country with the goal of all experienced 
        inspectors attending at least one session a year. Third, the 
        PARIS program office has developed a comprehensive series of 
        user guides and on-line demos.

        Furthermore, in the interest of facilitating swift and 
        effective communications between the PARIS User Community and 
        the PARIS Support staff at HQ, TSA OSO, Inspection Enforcement 
        and Analysis Branch established a PARIS application Help Desk 
        Phone Line in the TSA Phone Network. Field personnel can call 
        HQ personnel and speak to a PARIS support staff member. This 
        additional communication channel is intended to offer an 
        additional convenient means for PARIS users to talk to one of 
        the experts who supports the PARIS program. It does not replace 
        the agency's information technology (IT) single point of 
        contact (i.e., SPOC) and the contractor-based support system 
        that TSA uses for its enterprise IT applications. Rather, it is 
        an opportunity for us to bring increased support to the PARIS 
        user community as it relates to the PARIS application itself. 
        The SPOC remains the first contact for any functional 
        anomalies. Field Inspectors can also reach the help desk 
        support through the PARIS Blog.

        c. The Office of Compliance publishes periodic reports into 
        Sharepoint, an internal electronic tracking system. This system 
        is available to all inspectors who perform oversight as well as 
        staff who analyze inspection reports.

    Recommendation #6: Provide Cargo Inspectors with automated tools 
that will allow them to dedicate more time with the regulated entities. 
Specifically, establish an action plan, with performance milestones, to 
address the issues preventing the agency from using the personal 
digital assistant devices to provide more efficient inspection 
activities.
    TSA Concurs in Part: TSA believes that the personal digital 
assistant devices (PDAs) are antiquated technology and are not 
efficient. We are moving forward with a plan to provide more modern and 
advanced tools to our regulatory workforce to improve productivity. 
These include, but are not limited to:

  <bullet> Blackberries, with camera feature, for all inspectors.

  <bullet> Document hand scanners. This device allows TSIs to make 
        copies of records. We have secured one per airport.

  <bullet> Test phones for special emphasis inspections and small 
        package testing. One test phone per airport with assignment of 
        a new number every 6 months.

  <bullet> Laptops for all cargo inspectors.

  <bullet> Dedicated cargo vehicles. We improved the ratio of one 
        vehicle for every two inspectors at the airport.

  <bullet> One GPS unit per cargo vehicle.

  <bullet> Air cards for communal use among Regulatory personnel.

    These tools have already been procured and will be dispersed to the 
TSIs by the conclusion of FY 2009.
    In addition to securing new productivity tools, TSA's OSO has been 
working to streamline the record keeping requirements associated with 
documenting inspections. For instance we revised the PARIS prompts for 
the passenger and all cargo air carrier and IAC inspection types. 
Specifically we reduced the number of prompts by 40-50 percent while 
still capturing all the requirements. This reduces the amount of entry 
time per PARIS inspection record, and allows the Inspector more 
discretion on the level of detail to input.

    Senator Snowe. Do you think it's possible to reach the 100-
percent deadline for air cargo screening, by August of 2010?
    Secretary Napolitano. Well, we're at about 98 percent--
we're going to be at about 98 percent, so I think that we'll be 
very close to it, yes.
    Senator Snowe. Even though the Inspector General indicated 
that there there's a shortage of TSA personnel, in regard to 
the screening program?
    Secretary Napolitano. Senator, again, subject to something 
that I'm unaware of, sitting here right now, but I believe we 
will be able to accomplish that.
    Senator Snowe. The Inspector General's report indicated to 
me--and this has been a concern of ours, obviously, since 
September 11 and the 9/11 Commission's recommendations on 
securing air cargo, that we are still not meeting our goals on 
an issue that has languished over the years. We've been 
determined to close this loophole, so it really is important. 
And I understand that there has been considerable progress made 
toward this. And we appreciate it, but we want to make sure 
that we stay on target. And so, given these identifiable 
deficiencies in the Inspector General's report, it does raise 
some concerns.
    And the Inspector General indicated, as well, that the 
process is focused on quantity rather than outcomes and 
ensuring corrective actions. As a result, air cargo is 
vulnerable to the introduction of explosives and other 
destructive items before it's loaded onto planes, creating risk 
for the traveling public.
    Secretary Napolitano. Senator, yes, that's what the report 
says. We have made, I think, even before the report was issued, 
significant progress on many of the things that are identified 
in there, because, as you know, reports often lag behind when 
the concerns were actually raised. And so, we will be happy to 
provide you with a briefing on the status, but we are making 
great progress there.
    Senator Snowe. OK. No, I appreciate that.
    And one further point on this, because I think it's so 
essential, is that this report indicates that TSA is unable to 
properly identify and address vulnerabilities which continue to 
occur year after year without an effective inspection process 
for ensuring compliance of air cargo, and went on to say that 
TSA misses opportunities to strengthen aviation security 
against the introduction of unauthorized explosive, incendiary, 
and other destructive substances of items into aircraft cargo.
    So, that's obviously quite serious.
    Secretary Napolitano. No doubt. We have, again, some 
responses on that, but, again, I think that the key point is, 
Are we moving to where there is a 100-percent, or close to it, 
assurance of air cargo screening in the air environment? And 
the answer is, we are making significant progress there, that's 
going to continue to be a priority. And again, I look forward 
to the confirmation of the new TSA administrator. Obviously, 
having an administrator in place would be very helpful.
    Senator Snowe. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Snowe.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    And, Secretary Napolitano, thank you for being here, and 
thank you for your hard work and dedication. I think the 
President chose well when he put you into this position, and 
your background and history and experience, I'm sure, has come 
into use every single day that you've been in this position.
    I think I could ask you questions all day. I think that is 
probably the result of a State that has something like 75 
different ports, you know, 15 of them which are probably 
working ports for the interests that you care about, a border 
crossing at Blaine that is probably one of the busiest border 
crossing between U.S. and Canada in the country, and obviously 
many other related issues to that. So, I'm going to try to get 
through these, and if you could----
    Secretary Napolitano. I'll keep my answers short.
    Senator Cantwell. Thank you.
    The first one has to do with, obviously, the Border and 
Custom agents, which--you know, we were involved here in 
increasing the funding to the northern border. We were very--we 
worked very hard, as a delegation and a group of people, to 
work on that, for many years, and we were glad we got it. You 
may remember the Ressam case in which a Port Angeles border 
agent was able to stop Mr. Ressam, who was the Millennium 
Bomber, who came through. So, that was before we had the 
resources. And we're very well aware of dangers there. But, 
we've also had these incidents--and this weekend's paper, I 
think, said it best, ``Illegal Immigrant Gets $48,000 in 
Lawsuit Against Border Agents.'' And so, that's what's going 
on, that we have this--I appreciate that Alan Bersin visited 
the State. And so, he's had a lot of meetings, and he's had a 
lot of discussions with our stakeholders, and we really 
appreciate that. But, we just have a lot of the Border Patrol 
acting very far away from the border, in plain clothes, 
catching people by surprise. In this case, the border agents, 
you know, in a plain car, plain clothes, came up to these two 
individuals who were at a bus stop. Now, it's probably within 
that 150 miles from the border, but it definitely is not next 
to the border. It was in Mount Vernon, Washington. So, a good--
you know, a good 45 minutes, probably, at least, from the 
border. And so, what I'm asking is, What steps are we taking to 
ensure that the border agents don't engage in racial profiling 
and that all the Department of Homeland Security agencies are 
targeting the most significant threats at the northern borders?
    Secretary Napolitano. Well, obviously, racial profiling is 
repugnant to the law, and we do not racially profile. And that 
is part of our training, it's part of our supervision, and it's 
part of the ethos.
    Second, a good border policy requires several things. It 
requires trained personnel on the ground who are properly 
supervised. It requires technology. And, in some instances, it 
requires infrastructure. And so, both at the northern and the 
southern borders, what we are about is having strategies for 
those borders, that meet--the fact that they're different types 
of borders, different terrain, and all the rest--but, 
nonetheless, that combine, in a strategic fashion, those three 
elements.
    Senator Cantwell. Well, I think we need to continue to have 
a dialogue in the Northwest of what's going on, because I think 
when we--I think when we end up seeing lawsuits being settled 
against border agents, I think we have issues here that we need 
to address. And we appreciate your cooperation in working on 
that.
    A second issue, if I could, is obviously that that--that 
U.S./Canadian border is very important for shipping. And we've 
had my colleagues talk about security and safety of cargo and 
container traffic. What are we doing to help ensure that all of 
North America adopts a regime for border security so that we 
don't have Asian traffic deciding to go to Canada because they 
can skip the regime that the United States sets up for border 
security, only to have that cargo travel all the way across the 
country and maybe enter, you know, someplace else that doesn't 
have that border security that you were establishing? So, how 
do we get that North America regime established?
    Secretary Napolitano. Well, if you're talking about, 
Senator, having almost like a perimeter policy around the 
continent, obviously that's somewhat difficult. But, I meet----
    Senator Cantwell. I'm saying there are billions of dollars 
of business of cargo container going in--we're probably--you 
know, 20 percent of all traffic coming from China. Now, if, 
just up the road in Vancouver, they decide they're not going to 
need a security regime, and it's cheaper and faster to go 
through Vancouver, all that traffic is going to go there, and 
the U.S. is going to lose that transportation business. So, 
what are we doing to help make sure that those ports adopt the 
same kind of regimes?
    Secretary Napolitano. Well, Senator, I am meeting regularly 
with my colleague, my counterpart on the Canadian side, as to 
what is necessary for security at those ports, because there 
are certain things that are constants with respect to--be it 
integrated port security, be it air security, be it land border 
security, there are certain things that need to be done and 
need to be accomplished. But, there are differences, and there 
are very real differences, between the two countries, and I 
think part of that gets beyond my lane and gets into other 
departments, in terms of negotiations, as well.
    Senator Cantwell. Thank you.
    I see my time is expired, Mr. Chairman. Thank you.
    The Chairman. Thank you, Senator Cantwell.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Thank you, Madam Secretary, for being here. I was just 
thinking of how full your plate is with H1N1 and the many other 
issues that you've had, the Fort Hood shooting investigation 
and a lot of other ongoing changes with our security. So, I 
thank you for your leadership, and also the leadership you 
showed when we had the floods in the Red River Valley, which, 
you remember, involved not just North Dakota, but Minnesota.
    Secretary Napolitano. Minnesota.
    Senator Klobuchar. Very good.
    Secretary Napolitano. Right across the river.
    Senator Klobuchar. Exactly.
    I'm actually going to mostly focus on the secure watch 
issue and some of the terrorist watch lists, and the 
misidentifications on those lists. But, I wanted to start with 
one quick question about the Canadian baggage rescreening. And 
this is something that affects my State. We have a state-of-
the-art airport and the requirement that checked luggage at 
appropriately cleared Canadian airport facilities be rescreened 
before the transfer to a U.S.-based connecting flight, it has 
frequently caused delayed connections for our passengers 
arriving, since Canada--because their baggage has to be 
physically transported from the arrival. And I know that TSA 
has been working with Canadian authorities for well over a year 
to reach an agreement that could put in place new technologies 
for Canadian baggage screening that would meet our own United 
States security standards. And I wondered if you have any sense 
of when that agreement will be reached.
    Secretary Napolitano. I know about the issue, I know about 
the discussions, and I don't know when they will come to a 
conclusion. But, Senator, if you're asking me to see if I can 
prompt them to hurry up, I'll be happy to do so.
    Senator Klobuchar. That's a great answer, thank you.
    The watch list redress problems--one of my primary 
concerns--and I get to know the TSA people very well at my 
airport, and have had very good relations with them, since I 
have a hip replacement; so I talk to them every time I'm 
through the airport, and they do a good job--but, my question 
was about the No-Fly List. And last year, in response to 
reports that thousands of U.S. travelers experienced 
misidentifications each year, I introduced legislation to 
require the Department of Homeland Security to establish a 
comprehensive cleared list for innocent travels. The 
implementation of the Secure Flight Program has been underway 
for nearly a year now, and TSA officials continue to stress 
that, once the program is fully operational, these 
misidentifications will be minimized. And you say, in your 
testimony, that 18 air carriers have successfully switched to 
Secure Flight, and that testing is underway with an additional 
27 air carriers.
    For the air carriers that have not fully switched to Secure 
Flight, how are passengers being screened against the watch 
lists? How do you think this is going? We are still, obviously, 
having some problems.
    Secretary Napolitano. Well, Senator, if they're not in 
Secure Flight--and again, that is a successful program, and I 
think it demonstrates how, as our Department matures, but also 
as technology gets better, and also as we get a better sense of 
what actually needs to be done and what's value added to 
security, some of these things do get dealt with. But, Secure 
Flight is going to cover the vast majority of passengers by the 
time of its full implementation.
    Right now, we're in that transitional status, and those 
passengers that are not on a--in a carrier that has moved over 
are still being measured the old-fashioned way. But, we've also 
implemented some computer software, for example, that helps us 
segregate out often misidentified names, misspellings of names, 
and things of that nature. And we have also worked to speed up 
the--and make easier--the appeal process so people can get de-
watch-listed.
    Senator Klobuchar. Right. And--but, one issue that still 
remains, the Department of Homeland Security inspector general 
recently reported that passengers who encounter 
misidentifications and seek to use the Traveler Redress Inquiry 
Program--named TRIP--to clear these problems, they said, 
generally do not benefit from their participation in TRIP. 
Their cases often languish for extended periods of time. The IG 
made 24 recommendations. And one of the main problems 
highlighted was that the cleared list of travelers who have 
gone through the TRIP process is used by airlines only 
sparingly to rule out false positives on the watch lists. You 
have to understand, in our State we have a kid that was going 
to Disneyland who couldn't go. He was, like, 2 years old--
because of--his name was on the watch list. So, we've had a lot 
of concerns. We--I think we have a lot of common names in 
Minnesota. We have a lot of Johnsons and things like that. So, 
we continue to be concerned.
    So, do you know what's happening with the IG's 
recommendations on the TRIP program?
    Secretary Napolitano. Senator, let me get back to you on 
that. I know that we constantly are working to make those sorts 
of things more consumer friendly, more passenger friendly. But, 
I'll get back to you specifically on that.
    [The information referred to follows:]

                      U.S. Department of Homeland Security,
                                   Washington, DC, January 19, 2009
Memorandum For: Richard L. Skinner,
Inspector General,
Department of Homeland Security,

From: David Heyman
Assistant Secretary for Policy

Subject: 90-Day Response to the Office of Inspector General's Final 
            Report Entitled: Effectiveness of the Department of 
            Homeland Security Traveler Redress Inquiry Program (DHS 
            TRIP) (OIG-09-103)

    This memorandum is in response to your request that the Department 
of Homeland Security (DHS) Office of Policy (PLCY), in coordination 
with Transportation Security Administration (TSA) and Customs and 
Border Protection (CBP), provide your office with an update on the 
actions taken or planned to implement the recommendations contained in 
the Office of Inspector General's (OIG) report entitled ``Effectiveness 
of the Department of Homeland Security Traveler Redress Inquiry Program 
(DHS TRIP) (OIG-09-103).''
    The OIG had 24 recommendations directed to the Screening 
Coordination Office (SCO) in PLCY, TSA, and CBP.

  <bullet> OIG has previously closed recommendations #3, 8, and 14.

  <bullet> DHS requests closure for recommendation #2, 6, 7, 10, and 
        23.

  <bullet> DHS and OIG consider recommendations #1, 11, 12, 13, 15, 16, 
        17, 18, 19, 20, 21, 22, and 24 to be resolved but open until 
        implementation is complete.

  <bullet> DHS requests that OIG classify Recommendations #4, 5, and 9 
        as resolved but open until implementation is complete due to 
        the considerable progress that Secure Flight has made toward 
        implementation.
Recommendations
    Recommendation #1: Replace TRIP's current case management system 
with a system that fully meets the program's functional requirements 
for case management and workflow, document management, 
interoperability, and reporting. (TSA)
    Update: Implementation is currently underway. It is occurring in 
two phases: design and acquisition/implementation. TSA is fully funding 
these phases through a combination of Secure Flight resources and 
appropriations from the Fiscal Year (FY) 2010 budget.
    On September 22, 2009, TSA and IBM Global Business Services began 
work under a contract to perform the requirements analysis and deliver 
the solution design for the design phase of the new system. TSA held 
the kick-off on October 28, 2009 with the IBM team and component 
stakeholders. IBM submitted the Project Plan deliverable on October 30, 
2009 and the Vision Statement on December 4, 2009.
    Future deliverables for the design phase are: (1) Current process 
assessment (``As-Is''); (2) New end-to-end processes (``To Be''); (3) 
``As Is-To Be'' gap analysis; (4) ``To Be'' system requirements and new 
system design; and (5) Change Management Roadmap. This phase is 
scheduled for completion by April 16, 2010.
    The Phase 2 target completion date is March 31, 2011. Depending on 
the results of Phase 1, DHS may be able to accelerate the completion 
date of the overall project to December 31, 2010.
    While DHS believes that a successor case management system will 
create new efficiencies and improvement metrics reporting, the current 
system remains operational and sufficient to meet mission requirements 
for serving the public. The current system allows DHS to receive, 
process, and respond to redress cases in a timely fashion. Its 
continued operation mitigates mission-related risks from the duration 
of this schedule, allowing DHS to follow best practices in designing 
and implementing the successor system.
    Due Date: March 31, 2011
    Recommendation #2: Define and communicate strategic and operational 
management roles for TRIP, and participant and program manager 
responsibilities, roles, and authorities. (SCO)
    Update: DHS has implemented this recommendation through the 
issuance of the ``Charter for DHS Appeals and Redress Process'' 
(Redress Charter), DHS has attached a copy to this letter for your 
reference (see attachment A).
    A working group of Subject Matter Experts (SMEs) from the PLCY/SCO. 
DHS Privacy Office (PRIV), DHS Office of Civil Rights and Civil 
Liberties, Office of the General Counsel (OGC), TSA, CBP, Citizenship 
and Immigration Service (USCIS), and Immigration and Customs 
Enforcement (ICE) met to develop the Redress Charter. The working group 
also consulted with the Terrorist Screening Center (TSC) and 
incorporated TSC's feedback into the final product. The SME working 
group completed the review draft on October 5, 2009, and PLCY/SCO sent 
the review draft to the DHS TRIP Governance Board, which is comprised 
of DHS and component leadership. The Governance Board members completed 
their reviews of the draft charter on October 22, 2009. PLCY/SCO issued 
the charter as a memo on December 10, 2009.
    Due Date: DHS requests that this recommendation be closed.
    Recommendation #3: Seek independent funding for TRIP through a line 
item in the department's budget or that of one of its components. (SCO)
    Update: Funding for DHS TRIP was included in the DHS Appropriations 
Act, 2010 (P.L. 111-83), signed into law on October 28, 2009. PLCY/SCO 
confirmed with TSA that the funds have been allocated as planned.
    Due Date: Closed
    Recommendation #4: Revise aviation security directives to specify 
how air carriers are to use the cleared list, and develop and apply 
inspection protocols that monitor air carriers' use of the cleared 
list. (TSA)
    Update: TSA has developed and applied inspection protocols that 
monitor air carriers' use of the Cleared List. TSA has updated its 
Transportation Security Inspector (TSI) handbook and issued it to the 
TSIs in the fall of 2009. Relevant excerpts from the TSI Inspection 
Handbook on the sections dealing with No-Fly list inspections will be 
provided to 01G. Please note that these excerpts contain Sensitive 
Security Information (SST) and should not be released or disclosed 
without prior approval from TSA.
    TSA will address the first part of this recommendation through 
implementation of Secure Flight, which will transfer the watchlist 
matching function from the air carriers to TSA. Due to the impending 
cutover to Secure Flight, TSA opted to develop and apply protocols that 
monitor aircraft operators' use of the Cleared List in lieu of issuing 
new security directives.
    The Secure Flight Final Rule went into effect on December 29, 2008. 
In May 2009, the Government Accountability Office (GAO) audit of DHS 
certification conditions confirmed that TSA generally achieved 9 of 10 
statutory conditions and conditionally achieved the 10th condition.\1\ 
In November 2009, after the release of the final GAO report, TSA 
provided GAO with the additional documentation to demonstrate that 
Secure Flight has generally achieved Condition #10.
---------------------------------------------------------------------------
    \1\ For generally achieved, TSA has completed all key activities 
which should reduce the risk of the program experiencing cost, 
schedule, or performance shortfalls. For conditionally achieved, TSA 
has completed some key activities and has defined plans for completing 
remaining activities, that if effectively implemented as planned. 
should result in a reduced risk of the program experiencing cost, 
schedule or performance shortfalls.

  Table 1: List of 10 statutory conditions for implementation of Secure
                         Flight assessed by GAO
------------------------------------------------------------------------

------------------------------------------------------------------------
                          Statutory Conditions
------------------------------------------------------------------------
Condition 1:      System of Due Process (Redress)
Condition 2:      Extent of False-Positive Errors
Condition 3:      Performance of Stress Testing and Efficacy & Accuracy
                   of Search Tools
Condition 4:      Establishment of an Internal Oversight Board
Condition 5:      Operational Safeguards to Reduce Abuse Opportunities
Condition 6:      Substantial Security Measures to Prevent Hacking
Condition 7:      Effective Oversight of System Use and Operation
Condition 8:      No Specific Privacy Concerns with the System's
                   Technological Architecture
Condition 9:      Accommodation of States with Unique Transportation
                   Needs
Condition 10:     Appropriateness of Life-Cycle Cost Estimates and
                   Program Plans
------------------------------------------------------------------------

    The Secure Flight program began operational cutover to certain 
aircraft operators beginning on January 27, 2009. As of October 31, 
2009, all airlines were required to request and collect Secure Flight 
Passenger Data (SFPD) including full name, gender, date of birth, and 
Redress Control Number (if available). Secure Flight is being phased-in 
gradually with implementation for all covered aircraft operators 
scheduled to be completed by the end of 2010. As of December 4, 2009, 
twenty aircraft operators have successfully cutover to Secure Flight, 
including one international carrier. Furthermore, eight additional 
aircraft operators are in parallel operations with Secure Flight (i.e., 
aircraft operator is sending passenger to Secure Flight, but not 
applying Secure Flight Boarding Pass Printing Results), and testing is 
underway with twenty-nine aircraft operators.
    TSA has implemented a public awareness campaign that communicates 
the benefits of the program as well as the changes it will bring for 
passengers, aircraft operators, and other members of the travel 
industry.
    DHS understands that, at the time of its field research in 2008, 
there were considerable unknowns surrounding the schedule for 
implementing Secure Flight. In the intervening year, Secure Flight has 
made considerable progress and is on schedule to complete 
implementation with domestic and foreign aircraft operators by the end 
of calendar year 2010. Given these changed circumstances since the time 
of DHS OIG's field research, DHS asks that DHS OIG re-categorize this 
action as resolved but open until implementation is complete.
    Due Date: December 31, 2010
    Recommendation #5: Provide more of the cleared list to air 
carriers, at minimum ensuring that they receive all cleared list 
records that match the current No Fly and Selectee lists using all 
required matching routines. (TSA)
    Update: The full implementation of Secure Flight in 2010 will 
transfer the watchlist matching function from the air carriers to TSA, 
eliminating the need to distribute the lists to the carriers. Per the 
Secure Flight Final Rule, during normal Secure Flight operations,
    Secure Flight matches limited passenger information to government 
terrorist watchlist maintained by the Terrorist Screening Center (TSC).
    Given the changed circumstances since the time of DHS OIG's field 
research (as discussed in Recommendation #4), DHS asks that DHS OIG re-
categorize this action as resolved but open until implementation is 
complete.
    Due Date: December 31, 2010
    Recommendation #6: Develop and implement a plan for the Office of 
Transportation Security Redress to address Secure Flight requirements 
that, at minimum, provide for notifying current redress applicants that 
their redress control numbers may be useful in future air carrier 
reservations, and establishes how TSA will incorporate redress control 
numbers into the cleared list. (TSA)
    Update: The DHS TRIP Program Office has sent letters to all 
aviation-related redress requestors notifying (or reminding) them of 
their Redress Control Number (RCN) and explaining how the traveler can 
use the RCN to help avoid misidentifications when traveling by air. TSA 
approved the letter in September 2009.
    TSA mailed this letter to 56,000 individuals, including both 
persons who received redress through DHS TRIP and who received redress 
through other means prior to the establishment of DHS TRIP in February 
2007. The DHS TRIP Program Office began mailing it out in weekly 
increments starting in October 2009 and completed the mailings on 
December 15, 2009.
    The RCN is a mandatory field on the Cleared List that is provided 
to the Secure Flight program. The Cleared List (along with the RCN 
information) is used within the Secure Flight matching engine. If a 
passenger is found to be a possible match to the watchlist, the 
passenger's information, including their RCN (provided at time of 
flight reservation) will be made available to the Secure Flight Analyst 
(SFA) so the SFA can clear the passenger accordingly.
    Due Date: DHS requests that this recommendation be closed.
    Recommendation #7: Use all cleared list records to assist in ruling 
out all possible passenger data matches to the watch lists identified 
through Secure Flight, and evaluate options for applying matching 
thresholds for cleared list matches to account for possible cleared-
list passenger data entry errors. (TSA)
    Update: As noted above, Secure Flight currently utilizes all 
Cleared List records to assist in ruling out all possible passenger 
data matches that were identified through Secure Flight. These Cleared 
List records were incorporated into Secure Flight on December 15, 2008. 
Further, Secure Flight works with the Office of Transportation Security 
Redress (OTSR) and DHS TRIP Program Office in evaluating all other 
options to clear passengers.
    The Secure Flight matching engine already uses `near match' 
matching logic when matching against the Cleared List so that possible 
data entry errors do not prevent the SFA from reviewing near Cleared 
List matches during the review process.
    Due Date: DHS requests that this recommendation be closed.
    Recommendation #8: Establish a process to monitor the currency of 
Primary Lookout Over-Ride record owner status, and institute periodic 
inspections to determine whether record owner notifications about 
changes made to an underlying subject record are acted on 
appropriately. (CBP)
    Update: A process is in place to send notifications to the 
responsible officer for disconnected Primary Lookout Over-Rides (PLOR) 
that require attention. CBP field offices monitor a daily report on 
disconnected PLORs, and these daily reports are also actively reviewed 
by CBP headquarters personnel. In addition, CBP conducts an annual 
nationwide review of all PLORs. OIG has closed this recommendation.
    Due Date: Closed
    Recommendation #9: End the practice of singling out passengers with 
terrorist watch list lookout-related Primary Lookout Over-Rides for 
selectee security screening when they are identified as possible No Fly 
list matches during Advance Passenger Information System vetting. (CBP)
    Update: Secure Flight will assume all No Fly and Selectee watchlist 
matching for international flights for all covered aircraft operators, 
and travelers will be able to provide their Redress Control Number at 
booking. TSA is scheduled to complete implementation of Secure Flight 
by the end of calendar year 2010.
    Given the changed circumstances since the time of DHS OIG's field 
research (as discussed in Recommendation #4), DHS asks that DHS OIG re-
categorize this action as resolved but open until implementation is 
complete.
    Due Date: December 31, 2010
    Recommendation #10: Ensure that final determinations on whether to 
create a Primary Lookout Over-Ride in response to a redress complaint 
reside with employees unaffiliated with field offices that made the 
original screening or admissibility determination. (CBP)
    Update: The redress unit reviews, in coordination with CBP PLOR 
managers, redress cases in which the field office did not implement a 
PLOR to determine whether it might be appropriate to overturn that 
field determination. The relevant excerpts from the Executive 
Communications Unit's desk guide detailing the procedure will be 
provided to the OIG. Please note that these excerpts contain For 
Official Use Only (FOUO) information and should not be released or 
disclosed without prior approval from CBP.
    Due Date: DHS requests that this recommendation be closed.
    Recommendation #11: Develop and implement a process for the 
independent review and adjudication of redress cases related to DHS 
criminal investigations. (SCO)
    Update: The Redress Charter includes a provision that Component 
Redress Offices ensure the ``independent review of cases assigned by 
the Executive Agent'' (i.e., DHS TRIP Program Office).
    In December 2009, PLCY/SCO launched the Redress Review. Following 
the model of previous PLCY/SCO reviews for credentialing and vetting 
programs, the Redress Review is a cataloguing of programs that have or 
may be candidates for redress throughout DHS, including but not limited 
to programs tied to DHS TRIP. It will include the development of 
recommendations for the enhancement and further coordination of redress 
services.
    Relevant to this recommendation, the Redress Review will provide a 
process to validate that independent review and adjudication of redress 
occurs and that standard operating procedures (SOP) document the 
process.
    Due Date: April 30, 2010
    Recommendation #12: Use TECS Primary Lookout Over-Rides related to 
terrorist watch list lookouts to help rule out possible No Fly and 
Selectee list matches identified through the Secure Flight program's 
automated passenger data vetting process. (TSA)
    Update: TSA and CBP are in the process of exploring how to share 
information about the results of screening encounters as reflected in 
the Primary Lookout Over-rides (PLOR) and Cleared List. Discussions 
have occurred among program and information technology subject matter 
experts to identify and rectify barriers to sharing as appropriate.
    PLORs and the Cleared List are tools designed to meet the screening 
environment in which they are used. For this reason, Secure Flight 
currently uses the DHS TRIP Cleared List to clear individuals with 
names or identifying information similar to that of individuals on the 
No Fly or Selectee List in advance of passenger travel. While PLOR and 
the Cleared List are both used to clear individuals, they serve two 
distinctly different purposes. The DHS TRIP Cleared List is focused on 
clearing those individuals associated with threats to aviation rather. 
CBP, on the other hand, is responsible for conducting a much broader 
mission at the border; consequently PLOR records will be a result of a 
much broader screening activities.
    The subject matter experts are engaged in identifying a path 
forward to enhance information sharing. Finding a solution has proven 
more complex than the initial expectations that DHS expressed in its 
Management Comments due to asymmetrical elements in each process 
related to their respective screening objectives. CBP and TSA are 
exploring the feasibility of developing the operational and technical 
solutions needed to meet the intent of the recommendation.
    Due Date: March 31, 2011
    Recommendation #13: Use the TSA's cleared list data to assist in 
ruling out possible No Fly and Selectee list matches identified in 
Advance Passenger Information System (APIS) vetting. (CBP)
    Update: In the long term, Secure Flight will assume the watchlist 
matching function of Advance Passenger Information System (APIS), 
taking advantage of the already established integration of the Cleared 
List into the Secure Flight process. As stated in the response to 
Recommendation #12, in the meantime, CBP and TSA subject matter experts 
are engaged in identifying a path forward to enhance information 
sharing relating to PLORs and the Cleared List.
    To mitigate any potential negative impact on effectiveness, CBP 
will continue its current practice of communicating directly with TSA 
Office of Intelligence to confirm the status of No Fly and Selectee 
list passengers to resolve potential watchlist matches through APIS.
    Due Date: December 31, 2010
    Recommendation #14: Create a procedure for officers at ports of 
entry to learn whether Transportation Security Administration Office of 
Intelligence analysts have ruled out passengers as the target of a 
watch list lookout. (CBP)
    Update: OIG has stated that CBP's procedures fully address this 
recommendation and has withdrawn the recommendation.
    Due Date: Closed
    Recommendation #15: Enhance internal controls on the electronic and 
manual processes for adding records to the cleared list, ensure that 
all records considered for addition to the cleared list are subject to 
identity document verification checks before addition, and conduct 
intelligence analyst reviews of all possible watch list matches before 
related redress records are added to the cleared list. (TSA)
    Update: DHS TRIP is addressing this recommendation in three ways: 
1) a case-by-case quality assurance review of the watchlist; 2) 
incorporating redundant manual quality assurance reviews of a case 
prior to inclusion on the Cleared List; and 3) hiring a full-time 
vetting analyst to focus on internal controls as cases are processed.
    The DHS TRIP Program Office has completed a manual review of the 
Cleared List to ensure its quality over two stages. First, in December 
2008 prior to submitting the Cleared List for integration into Secure 
Flight, DHS TRIP personnel reviewed every record on the Cleared List to 
verify the presence of required identity documents and to reconfirm 
that none of the records on it were possible matches to the watchlist. 
Second, between March and June 2009, DHS TRIP personnel conducted a 
comprehensive review of all redress records to ensure that all records 
were accurate and that the appropriate DHS component or State 
Department office had adjudicated the case.
    The DHS TRIP Program Office has incorporated a regime of redundant 
quality assurance checks into its standard practices. DHS TRIP 
personnel review all Cleared List records are reviewed a minimum of 
three times prior to final processing. Reviews occur at the initial 
triage, quality assurance, and archive stages. Additionally, management 
conducts spot checks of individual records to ensure that the triage 
process is working properly.
    For 2010, DHS requested and received funding for a Transportation 
Security Specialist (Vetting Analyst) for the DHS TRIP Program Office. 
This individual will be located in a TSA Operations Center with close 
proximity to Intelligence Analysts and will have access to secure data 
sources. This access to all available data will allow the analyst to 
verify document submissions, view source data for potential watchlist 
matches, and work with appropriate intelligence and law enforcement 
personnel before recommending process adjudication. DHS TRIP has 
developed a Job Analysis Tool (JAT), which is under review for TSA 
Human Capital Approval prior to competitive recruitment via USA Jobs.
    Due Date: March 31, 2010
    Recommendation #16: Automatically compare the cleared list against 
the No Fly and Selectee lists when changes are made to any list, and 
institute a process whereby intelligence analysts immediately review 
matching cleared list records for possible removal from the cleared 
list or refer them to the Terrorist Screening Center. (TSA)
    Update: DHS has taken 2 steps in addressing this recommendation. 
First, TSA is hiring a DHS TRIP Transportation Security Specialist 
(Vetting Analyst) to be located in a TSA Operations Center. This 
individual will be located in a TSA Operations Center with close 
proximity to Intelligence Analysts and will have access to secure data 
sources, enabling DHS TRIP to access all available data when verifying 
document submissions. viewing source data for potential watchlist 
matches, and working with appropriate intelligence and law enforcement 
personnel before recommending process adjudication.
    DHS TRIP has developed a Job Analysis Tool (JAT), which is under 
review for TSA Human Capital Approval prior to competitive recruitment 
via USA Jobs.
    Second, DHS TRIP is in the process of upgrading its Information 
Technology capability (currently projected to be complete by 2Q 
FY2011). One of the upgrades includes the ability to automatically run 
a daily comparison of the watchlist and the Cleared List that would 
result in a conflict report for review by the Transportation Security 
Specialist (Vetting Analyst). The vetting analyst will be able to 
quickly determine if a change in the status of any Cleared List 
individual should be changed.
    Due Date: Hire vetting analyst by March 31, 2010. IT upgrade by 
March 31, 2011.
    Recommendation #17: Develop and promptly publish the required 
System of Records Notice and Privacy Impact Assessment for its redress 
case management system. (CBP)
    Update: CBP has drafted a System of Records Notice (SORN) and 
Privacy Impact Assessment (PIA) for the Complaints Management System 
(CMS) to cover CBP redress functions and activities that exceed the 
scope of traveler redress covered by DHS TRIP and its privacy 
compliance. These activities include officer professionalism 
complaints, various ``wait time'' and other service-related complaints, 
submitted through the CBP Info Center web page. Final clearance of 
these documents through CBP is pending completion of initial IT system 
security requirements for the hosting environment for the CBP Info 
Center web presence.
    Due Date June 1, 2010
    Recommendation #18: Prepare and revise TRIP-specific standard 
operating procedures that describe all redress office requirements in 
intake and triage; coordination and prioritization; review and 
adjudication; and closeout, response and reporting. (SCO)
    Update: PLCY/SCO conducted a data call for all component SOPs 
relating to DHS TRIP. PLCY/SCO has also obtained a copy of TSC's SOP to 
serve as a comparable model. PLCY/SCO created a standardized SOP format 
to improve transparency and assist in comparability among the component 
SOPs. The tool allows PLCY/SCO to highlight the gaps in SOP 
documentation and develop a questionnaire to assist the components in 
documenting their processes and decision-making criteria for redress.
    As discussed previously, PLCY/SCO has launched its Redress Review 
project. Relevant to this recommendation, the Redress Review will 
provide a process to validate that SOPs fully document redress 
processes.
    Due Date: April 30, 2010
    Recommendation #19: Devise and institute quality assurance checks 
using the 2007 TRIP quality assurance plan as a resource. (SCO)
    Update: OTSR instituted a process where all inquiries received are 
subject to 100 percent quality assurance check prior to final 
processing (Cleared List, incompletes, or component/TSC referral).
    Further, automated and manual Quality Assurance checks will be 
included in the requirements for the new DHS TRIP case management 
system. PLCY/SCO has provided the 2007 TRIP Quality Assurance Plan to 
inform the work of the design team for Phase I. See Recommendation #1 
for additional details about the deliverables and schedule for 
designing and implementing a successor case management system.
    Due Date: March 31, 2011
    Recommendation #20: Develop and apply TRIP response letter 
templates that more fully acknowledge the basis for traveler 
difficulties, note what actions the government took to review the case, 
and address the underlying cause for the travel difficulty; but do so 
without compromising law enforcement investigations or revealing 
redress-seekers' status in the TSDB. (SCO)
    Update: PLCY/SCO led a SME group from PLCY/SCO. TSA, CBI:). OGC, 
DHS CRCL, and DHS PRIV to review the response letter and recommend 
changes to improve transparency and customer service. The group also 
consulted with the Department of Justice's (DOJ) Terrorist Screening 
Center (TSC) in the course of its work. In reviewing the current 
letters, the working group has as its mandate to make the tone and 
content more customer-friendly and transparent without compromising law 
enforcement investigations or revealing redress-seekers' status in the 
Terrorist Screening Data base (TSDB).
    The SME group reached preliminary consensus on a new draft of the 
core response letter. It also generated scenario-specific variants of 
this letter to meet the most common types of situations encountered by 
redress. The SME group engaged with TSC in November 2009 to confer on 
the letter package and met with representatives from the TSC, FBI, and 
DOJ to discuss the proposal in detail on December 16, 2009. The meeting 
generated some additional clarifications which will be integrated into 
the proposal. The package was sent to DHS leadership for approval on 
December 19, 2009.
    The package is scheduled to begin the formal DHS approval process 
on January 15, 2010. Department of Justice will also be approving in 
accordance with the interagency Memorandum of Understanding on 
Terrorist Watchlist Redress Procedures. The group briefed the TSC on 
its proposal. TSC agreed that the changes seemed useful and consistent 
with past direction but indicated that their leadership and legal 
counsel would need to review the final product before formal 
concurrence could be reached.
    Due Date: February 26, 2010
    Recommendation #21: Develop TRIP case disposition reporting 
categories that reflect the full range of government efforts to resolve 
redress-seekers' travel difficulties, and report on this information on 
a regular basis. (SCO)
    Update: Developing disposition reporting categories are part of the 
Phase I design of a successor case management system for DHS TRIP. 
PLCY/SCO has provided TSA with its observations about lessons learned 
from current operations and continues to work with TSA on this effort. 
See Recommendation #1 for additional details about the deliverables and 
schedule for designing and implementing a successor case management 
system. This recommendation would be implemented as part of Phase II 
scheduled to be completed no later than March 31, 2011.
    Due Date: March 31, 2011
    Recommendation #22: Collect individual TRIP redress case 
information on the date completed redress petitions are received, and 
use this information to calculate overall TRIP case processing times. 
(TSA)
    Update: The current case management system is insufficient for 
implementing this recommendation for the purposes of calculating 
overall DHS TRIP processing time. It does not have the necessary fields 
to distinguish between the dates that a case is opened and when the 
triage review demonstrates that sufficient information and 
documentation has been provided to begin the redress review process.
    The system currently sacrifices that capability in order to ensure 
that all cases are tracked whether the file has been completed with the 
applicant's documentation or not. If additional information is 
necessary, the cases are tracked as ``Pending Paperwork'' or, if the 
applicant has not responded to our request after a significant amount 
of time, ``No Paperwork.'' If and when the necessary information is 
received, its status is changed to ``In Process.''
    The capability to implement Recommendation #22 will be included in 
the requirements document scheduled to be completed February 19, 2010 
as part of Phase I of the acquisition of an improved Case Management 
System (See Recommendation #1). It would be implemented as part of 
Phase II scheduled to be completed no later than March 31, 2011.
    The risk related to the due date is mitigated by continuing to use 
the current system for calculating processing time. While inexact due 
to inclusion of the time spent by cases in ``No Paperwork'' and 
``Pending Paperwork'' status, it still provides useful data for 
managing the process.
    Due Date: March 31, 2011
    Recommendation #23: Develop timeliness targets for each redress 
processing stage, and case review and processing activities for each 
participating agency and DHS component; and report to participating 
agencies regularly on the achievement of these targets. (SCO)
    Update: DHS has issued interdepartmental policy guidance through 
the DHS TRIP Governance Board to establish timeliness targets for DHS 
TRIP and related offices, as well as threshold and goal metrics for 
meeting those targets. The guidance memo was issued on December 10, 
2009. The guidance memo is attached for your reference.
    Due Date: DHS requests that this recommendation be closed.
    Recommendation #24: Collect and report on redress-seeker 
impressions of the TRIP website, different aspects of the redress 
experience, and their overall satisfaction with the program, with the 
aim of using this information to identify areas for improvement. (TSA)
    Update: DHS uses the American Customer Satisfaction index to 
capture statistically reliable data that can be used to improve the 
effectiveness of DHS.gov, including web-based information about DHS 
TRIP. The tool prompts individuals who use the DHS website to provide 
feedback on their experience. It includes several open-ended questions 
that allow respondents to comment when they are having issues finding 
information. DHS's current response rate (through November 2009) is 15 
percent on exit response, which is high compared to most websites.
    In November 2009, this tool indicated that members of the public 
were unable to find information describing the Redress Control Number. 
People were searching for this information because the airlines were 
mentioning it in their communication efforts related to Secure Flight 
as new optional field for reservations. As a result of this feedback, 
DHS updated the website to explain the facts about the Redress Control 
Number and reassure people that most travelers do not have nor need 
one.
    DHS is in the process of launching a customer satisfaction index 
specific to the DHS TRIP website. PLCY/SCO, in consultation with TSA 
and the components, drafted two surveys. One is specific to the redress 
application process and the other asks questions about the overall 
redress process. The first survey includes four multiple choice 
questions to gather statistical information on user satisfaction and 
three open-ended questions to solicit qualitative information that can 
help identify areas for improvement. The second survey has five 
multiple choice and one open-ended questions.
    Because the surveys are a ``collection of information'' from more 
than 10 members of the public, it is subject to the requirements of the 
Paperwork Reduction Act (PRA). The PRA process includes submitting an 
analysis to the Office of Management and Budget (OMB) to obtain an OMB 
Control Number, publishing a notice in the Federal Register with a 60 
day comment period, adjudicating the comments, and publishing a 30-day 
notice in the Federal Register before the surveys can go live. The PRA 
clearance process began on December 15, 2009 and is expected to be 
complete no later than May 31, 2010.
    A copy of the proposed surveys are attached.
    Due Date: June 30, 2010.
    If you have any questions regarding this response, please have a 
member of your staff contact Ted Sobel in DHS/PLCY/SCO at 202-282-9570.
    cc: Marcia Hodges, Supervisory Auditor, DHS GIG
Attachments:
    A. Charter for DHS Appeals and Redress Process (re: #2) (Source: 
PLCY/SCO)
    B. Redress Control Number letter (re: #6) (Source: TSA)
    C. Timeliness Targets Guidance Memo (re: #23) (Source: PLCY/SCO)
    D. Website/Redress Experience Survey (re: #24) (Source: PLCY/SCO, 
TSA, CBP)

    Senator Klobuchar. All right, thank you very much, again. 
And thank you for your leadership.
    Secretary Napolitano. You bet.
    The Chairman. Thank you, Senator.
    Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman. And thank you for 
holding this hearing.
    Good to see you here, Secretary Napolitano. We both share 
the Southwest as home, and I think you're doing an excellent 
job with a very, very difficult department there to manage.
    I'd like, in my time, to hit a couple of areas. One is REAL 
ID, and then the TSA approach to whole-body imaging.
    As you know, more than 30 States, including New Mexico, are 
unlikely to meet the December 31st deadline to become 
materially compliant with the REAL ID Act of 2005. While I 
understand the Administration would prefer to enact PASS ID Act 
in lieu of granting an additional extension, the uncertainty 
surrounding what your Department may or may not do if the 
legislation is not signed into law is creating confusion for 
people in the State that are not in compliance.
    This is--and I'm sure you've heard a lot about this, too--
this is causing a great deal of anxiety with constituents, who 
are seeing news reports they'll need a passport in order to 
travel on a commercial airline in the U.S. after the 1st of the 
year. I believe Senator Bingaman and I sent you a letter on 
this issue, on Monday.
    Will you commit, now, to extending the deadline for 
compliance with REAL ID if Congress has not addressed the issue 
by December 31?
    Secretary Napolitano. Well, Senator, thank you, and yes, 
here is the problem. Congress passed REAL ID as a footnote in 
an appropriations bill, that did not have the benefit of 
hearings, nor consultation with the States, which caused vast 
revolt among the States, of which Arizona was one. And so, we 
went and worked with the Governors, on a bipartisan basis, to 
fix REAL ID, and that gave birth to a piece of legislation 
known as PASS ID. It has been through committee, it has been 
marked up, it is ready for floor action. It deals with a lot of 
the issues that--it solves the Governors' problems with REAL 
ID.
    I would--before I get to the question of extensions--you 
know, one of the reasons we had REAL ID, and now PASS ID, is 
because the 9/11 Commission had a recommendation that we 
improve the security quality of drivers' licenses. And because 
REAL ID has been rejected by the States, just by granting 
extension after extension after extension, we're not getting to 
the pathway to have more secure drivers' licenses. PASS ID 
helps us meet the 9/11 Commission recommendations and, at the 
same time, addresses issues that were legitimately raised by 
the states.
    And so, what I would prefer to urge the Senate to do, and 
use this hearing as an opportunity to really urge it to do, is 
to move to floor action and move PASS ID through so we can get 
it over to the House. I think it could go very quickly over 
there. And we could solve this issue, as opposed to extension 
after extension, which not only doesn't deal with the 9/11 
Commission recommendation, but it's just another year of 
uncertainty.
    Senator Udall. Yes. Well, as you are probably aware, the 
situation that we're in now, we have healthcare on the floor, 
where if we tried to move to anything else, I think it would 
make it much more difficult, procedurally. So, I think if--I 
don't see us getting to PASS ID on the Senate floor between now 
and the end of the year, so I think it would be very helpful 
for you to issue a statement--you might use this as an 
opportunity to do it--to assure people that, after December 31, 
they will be able to travel with something other than a 
passport. I don't know if you want to do that, at this point, 
but--if you decline, that's fine.
    Secretary Napolitano. I think I will not accept that----
    Senator Udall. OK.
    Secretary Napolitano.--invitation----
    Senator Udall. OK.
    Secretary Napolitano.--at this point in time.
    Senator Udall. Thank you. The--I probably don't have enough 
time to get you to answer the question, but on whole-body 
imaging, let me just lay it out a little bit here. You're--TSA 
is greatly expanding its use of whole-body imaging for primary 
passenger screening at airports. And Albuquerque is one of the 
airports where it's doing that. And although TSA has 
voluntarily taken certain measures to protect passenger 
privacy, I believe several serious questions should be answered 
before TSA deploys these whole-body imaging machines more 
widely. And one of the issues, really, is, if you decline the 
machine, you get a full-body patdown. And, as you can see, that 
could--you either--one or the other--that could be very 
intrusive.
    So, I--I'm going to submit the questions to you, because my 
time's up and I know the Chairman may want to get to other 
Senators here. But, I hope that you'll give us a prompt 
response on that.
    Secretary Napolitano. Right. And, Senator, in the airports 
I've been at, observing how that technology is used and that 
technology is much different than as portrayed in the press 
but, in any event, it hasn't been a patdown, but you go through 
the standard magnetometer process. We'll be happy to answer the 
questions that you have.
    Senator Udall. We'll get you all that information.
    Thank you very much. Thanks for your service.
    The Chairman. Thank you, Senator Udall.
    Madam Secretary, I'm going to ask you a question which you 
can't answer, but you want to, desperately. But----
    [Laughter.]
    The Chairman. But, you can't, because OMB won't let you. 
OK? I just----
    Secretary Napolitano. I'll----
    The Chairman.--thought I'd catch your attention----
    Secretary Napolitano. Yes.
    The Chairman.--by saying--OK?
    Secretary Napolitano. Yes, you have.
    The Chairman. The--to me, one of the most enormous problems 
of your extraordinarily important agency--I mean, the President 
spoke last night, and he kept coming back to what--``The 
economy I really want to build is my country's economy,'' and 
he really had to do that. And I sort of wanted him to say, 
``And, by the way, in protecting security, we really need to do 
much more with the Department of Homeland Security, and give it 
more resources.''
    I think it's one of the great anomalies--and, frankly, 
embarrassments to us, in the Congress, and to appropriators--
that they have underfunded you. I mean, everybody loves to pick 
on FEMA or whatever is going on, but often the reason is--or 
they give you--they say you've got to have 100-percent 
container scanning, air cargo, maritime cargo, you know, and 
the--10,000 more rules and regulations have to pour out of your 
organization, and it's just--it's an awful way--and you are 
responsible, in so many ways, for our national security. I 
mean, the intelligence people aren't. You are. They're meant 
to, you know, provide information; and you have your own 
intelligence folks. But, you need money. And my question I want 
to ask you for is, How much money do you need, and what do you 
need it for, to be able to do what you are required to do and 
what you want to do? You'll never get another question so 
wonderful as that.
    [Laughter.]
    Secretary Napolitano. Thank you, Mr. Chairman.
    Let me just address it in the following fashion, which is 
to say, one of the things that I have set about to do as the 
Secretary is to identify the major mission areas of the 
Department, to align our budget requests with those major 
mission areas, and to create a longer-term vision for the 
Department through the Quadrennial Homeland Security Review 
process. Congress asked us to complete that QHSR by December 
31. We are on track to do so.
    But, I--here's--you know, the major mission areas of the 23 
agencies--22 agencies that we're--combine--really involve 
counterterrorism, securing the air, land, and sea borders, 
immigration enforcement while we work for immigration reform, 
and preparation for, and the ability to respond to, disasters 
of any type--natural disasters. And what we have been about 
doing is prioritizing, under each of those, and aligning our 
budget requests accordingly. And I hope----
    The Chairman. I know what you're doing, and I applaud you 
for it, but it's not helpful. I mean, you're laying out your 
priorities, and what I would say is that you're then applying 
totally inadequate resources to your priorities, because you 
don't have any choice. And you can't say much, because OMB vets 
your testimony, as they do with any Cabinet Secretary--and way 
on down, too--and most people don't know that, that you can't 
speak your mind.
    Well, I don't want to get you fired, but I really do want 
to--Homeland Security to have the money it needs. And, at some 
point, maybe we'll have--maybe you can leave a private letter 
and stick it under my----
    [Laughter.]
    The Chairman.--my office door or----
    Secretary Napolitano. Over the transom, right.
    The Chairman.--something. But, it counts, to us. It counts, 
so that we can put pressure on appropriators to be helpful to 
you. I'll just leave it there.
    Secretary Napolitano. Thank you, Mr. Chairman.
    The Chairman. Because you're in an impossible situation.
    I wanted to--did not want to leave Senator Brownback's--you 
know, if you do any regulation of general aviation--the 
business will go out of--it'll collapse. I just can't let that 
pass.
    I think you mentioned, 90 percent of airports in Kansas, or 
whatever it was, were small airports, and they're for the use 
of general aviation, and its convenience. Yes, it certainly is 
convenient. It's probably convenient to a lot of people who are 
running drugs and running guns and all kinds of things. And--
but, we can't do anything to increase their screening. Again, 
I've--out at Dulles, the idea of walking through something, 
which--you know, a machine that that lady, I guess, walked 
through, crashed the White House party the other night. No, 
they don't even have them out there. They don't even have them. 
So, they--there are two--at any given moment, two-thirds of the 
airplanes in the air are general aviation. They get all of this 
attention from air traffic control, just as much as any 
commercial air passenger and--yes, Kansas, you know, makes a 
lot of general aviation aircraft, but there's also the question 
of national security of them. You pointed that out, that they 
could have fuel on them, they could run into buildings. I'm 
pointing out that they could be running drugs, they could be 
running guns, and we don't know about it. We're just--and so, 
we can't touch them; they're untouchable, because if they--you 
touch them, they call up all the Senators, who--and 
Congressmen--who ride on their general aviation things, and 
say, ``Don't you dare do anything with it.'' And that's exactly 
the way it works. I mean, I tried to put a 25-cent-per-trip tax 
on them last year to help pay for our air traffic control 
system. That got 4 inches down the football field. The 
telephone calls just quashed it immediately. And at some point, 
this becomes a--just a little bit more than annoying, when they 
become somehow sacred because they're fragile. They're not 
fragile; they're doing very well. And whether they're doing 
well or not is secondary to the national security concerns that 
you would have, and that I certainly do have, about them. And I 
just wondered if you would comment on that.
    Secretary Napolitano. Well, Senator, as I suggested to 
Senator Brownback, the security issues involving GA--general 
aviation--need to be addressed. There was a proposed rule. It 
had a strong reaction from that community. We have worked with 
that community. We are in the process of finalizing that rule. 
But, I agree with you that, when I look at the overall kind of 
vulnerabilities and threats involving threats to the homeland, 
particularly with respect to the larger general aviation 
aircraft, there are security interests that must be protected, 
and we are moving to do just that.
    The Chairman. How do you do that? They resist that.
    Secretary Napolitano. We do it by--through the regulatory 
process, and we do it----
    The Chairman. Then how come I don't see it?
    Secretary Napolitano. Well, because we haven't finished----
    The Chairman. I see no sign of it.
    Secretary Napolitano. Well, we haven't finished the rule 
yet. But, we will be doing it through a variety of mechanisms.
    The Chairman. I advise you to be bold.
    My time has run out.
    Senator Hutchison.
    Senator Hutchison. Thank you.
    I wanted to go back to the border wait times. This is 
something that I know you are familiar with, as well, having 
been the Governor of Arizona. And my question is, How can you 
address the border wait times? Because there are trucks backed 
up for miles, taking hours to get through, and it does make a 
difference in commerce and people being willing to come across. 
How are you going to address it, keeping security in mind as 
well as efficiency of commerce, on our land borders?
    Secretary Napolitano. Well, a couple of things. And first 
of all, between Fiscal Year 2008 and Fiscal Year 2009, we 
actually saw a reduction in wait times, according to the data I 
have, a 12.3-percent reduction. And the wait times for 
commercial trucks--and I think that's what you're focused on, 
Senator--went from, in 2008, 10.6 minutes to 9.3 minutes on the 
U.S. side of the border.
    Where the wait times can add up is on the Mexican side of 
the border. And so, working with Mexico, they are now 
establishing their own customs capacity on that side of the 
border, which I think will do a great deal to resist--because, 
as you know, when you go through a land port, you're actually 
going through two borders; you're going through the Mexican 
side and the U.S. side. So, the U.S. side, the wait times have 
gone down, and, I think, will continue to go down, with our 
greater use of technology. The Mexicans----
    Senator Hutchison. I really am referring to the Mexican 
side, because that affects so many of our border retailers, and 
it's--it's commercial, but it's also people who will shop in 
the----
    Secretary Napolitano. In those areas----
    Senator Hutchison.--yes.
    Secretary Napolitano. Indeed. And so, Mexico is now 
developing its own customs agency, and deploying them to the 
border, which they really had not had before, as well as we 
build out our ports on the northern side of the border, we are 
working with them to build their infrastructure to match our 
ports so that they're paired up appropriately.
    Senator Hutchison. So, we do have an ongoing effort to 
coordinate better the Mexican side with our side so that we can 
get some of those wait times down for commerce?
    Secretary Napolitano. Yes.
    Senator Hutchison. OK. It's a big deal on our border. It 
must have been, in Arizona, as well. Because border retailers 
on our side get a lot of business from that land traffic; and 
if you have to wait an hour or two, or more sometimes, it's a 
problem.
    Is there something we need to do to increase coordination? 
Because there has been a complaint, that's ongoing for a long 
time, of coordination of working hours between DEA, Customs, 
and Border Patrol, so that sometimes one group is off on a 
coffee break while the other group is on, but you have to have 
all of them. Is there an effort in your Department to address 
that kind of coordination to better utilize our resources?
    Secretary Napolitano. Senator, that coordination should 
already be occurring under the direction of whoever is the 
manager of the port. If you have a specific instance or a 
specific port where you are getting reports that that is not 
happening, I hope you would let me know about it, and we will 
follow up.
    Senator Hutchison. OK. I will do that. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hutchison.
    And Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman. And thank you 
for allowing me to ask a second round of questions.
    And, Secretary Napolitano, again, thank you for your 
service and all your hard work.
    I'd like to submit a question, if I could, to you about 
semisubmersible vehicles that are being used in the drug trade. 
And my understanding is they're growing in numbers. I don't 
know if we've thought about that as it relates to security, 
since these are one-way vessels and they can be used for drugs; 
they could be used for other things. But, I'm going to submit 
that for the record and maybe get an answer from you.
    But, I'd like to bring up two specific cases that are--been 
really receiving national attention, and see if I could get 
your help on that.
    The first is Ernesto Gamboa. He was an individual who 
served as a confidential informant, and, for the past 14 years, 
assisted law enforcement in the dismantling of large and 
dangerous drug operations. He frequently put himself at risk. 
He worked with the Washington State Patrol, the Federal Bureau 
of Investigation, the DEA, and INS, and with the Bureau of 
Immigration and Customs, ICE. So, his cooperation was critical 
to the success of Federal prosecutors in seizing hundreds of 
pounds of cocaine and methamphetamine, as well as large 
seizures of money and weapons.
    During all the time that he was cooperating with law 
enforcement over that time period, he was promised that he 
would get help with his immigration status; but, instead, in 
July he was detained by ICE and placed on removal, despite all 
of the good work that he had been doing previously for these 
various agencies. And so, I'm expressing concern over this 
case, because he's kind of in limbo; he can't work, because he 
doesn't have paperwork, and he can't get--if he is returned to 
El Salvador, I'm sure he will likely be killed. And so, if we 
don't help the Gamboas, who have been the informants for us, 
how are we going to recruit other people to helping us with 
finding drug traffickers and criminals?
    And so, I would, you know, ask for your help in this case, 
in understanding what we should do with Mr. Gamboa.
    Secretary Napolitano. Be happy to look into it. This goes 
to the intersection between the Department of Justice and the 
Department of Homeland Security, where Department of Justice 
DEA doesn't have authority to make immigration representations. 
Sometimes that gets lost in the shuffle. DEA needs to bring ICE 
in, or vice versa sometimes. So, I think that illustrates, 
perhaps, what is happening with Mr. Gamboa. I'll be happy to 
look into the situation.
    Senator Cantwell. Thank you.
    The second one is a case, Alonso Chehade, who--you know, we 
talked about this border issue in my first round of 
questioning, and Senator Murray and I have asked you to defer 
the removal of Alonso Chehade until the end of the 111th 
Congress. He is a case that would be--if the DREAM Act was law, 
he would obviously have the relief of that legislation. But, 
he's a 22-year-old Peruvian national who resides--who's resided 
in the United States since childhood. And earlier this year, he 
literally took a wrong turn on I-5 and was detained when he 
accidentally crossed into Canada. And so, now he faces 
deportation. He graduated from high school with honors, 
attended Olympic Community College, earned his bachelors degree 
from the University of Washington. And so, it has generated a 
lot of media attention in our State. And so, I'm hoping that we 
can defer action on his case until the 11th--111th Congress--to 
see if we can get the DREAM Act passed. And so, maybe Mr. 
Chehade, who has come to the United States as a child, not of 
his own doing, but has now been through our whole education 
system, will not, because he took a wrong turn on a freeway--
will be able to stay in the United States.
    Secretary Napolitano. I think his removal will be, or has 
been, deferred. I will double check on that, Senator.
    Secretary Napolitano. But, the situation you describe 
illustrates why President Obama is eager to have the Congress 
take up the whole issue of immigration and immigration reform. 
These situations happen in my Department every day, day in and 
day out.
    Senator Cantwell. Well, I appreciate that. And I appreciate 
you looking into this further. I think he's gotten a temporary 
deferral, but I think that'll run out in January.
    Secretary Napolitano. That may be right. I'll take a look.
    Senator Cantwell. If you could, thank you.
    I thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Senator McCaskill may be on her way. In the meantime, I 
have one more question to ask.
    The--are you OK on time?
    Secretary Napolitano. I'm fine.
    The Chairman. OK. The--this is cybersecurity. And this 
doesn't appear to be a very important question, but it is to 
me. Again, I go back to George Bush's Director of National 
Intelligence, Barack Obama's Director of National Intelligence, 
saying the number-one threat to this country is not al Qaeda, 
it's not dirty bombs, it is cybersecurity. Huge importance. 
More or less ignored by the press, a somewhat disinterested 
public in that, because they can't wrap around those two words. 
And you have some responsibility for that.
    Now, my question is very specific, and you may not want to 
answer it, but it's--I think we--I don't--I'll tell you how I 
feel about it. You all had a big conference, and you decided 
that you'd get somebody who would report to be responsible for 
cybersecurity but who would report to the National Security 
Council and to the National Economic Council, to which I say, 
``Goodbye focus on cybersecurity.'' I mean, I've been through 
that trip before. I've seen what happens. It just--you know, by 
the time the Pentagon takes their chunk and--you know, it's--it 
just--it won't work.
    Senator Snowe and I, working on--are working on 
legislation. We'd like to work with you on it. We say that 
there ought to be somebody who reports only to the President.
    Now, there's that part of this world which, ``Oh, there's 
another czar,'' to which I would say, ``Well, if that's another 
czar, then that's the one you want to have, because that's the 
number-one national security threat to our country, and will 
remain so.'' People have no idea what they can do. They read 
about it. It hasn't happened in their community, so they forget 
about it and go on, concentrate on al Qaeda and Taliban, and, 
you know, all kinds of things, but not on cybersecurity, which 
is the main threat.
    So, I want to say to you that I feel very strongly that 
there ought to be somebody who reports directly to the 
President, who has that responsibility, who doesn't try to mix 
the military and the intelligence and the National Economic 
Council, because that will--he'll wander off into nothing being 
done or money not being spent. I think, when you have somebody 
who reports to the President, it's like the Office of Science 
and Technology. That's a--he's not a--that's not an--Dr. John 
Holdren is not an agency, he's a free-floater; he can walk in 
and out of the Oval Office anytime he wants. But, he's doing 
science and technology, which you just--affects everything we 
do in our country, including cybersecurity.
    Secretary Napolitano. Indeed.
    The Chairman. And I think that--I think that we ought to 
have somebody who reports to the President. I want to say that 
loudly and clearly to you. You don't have to respond, if you 
don't want, to that view. I think the idea of having it at a 
lesser stature with a more diverse number of bosses is a very 
bad idea, and that we won't make progress, because it's the one 
area of national security where the public really isn't there 
yet. The press isn't there; they're not interested. It's 
yesterday's news story. Somebody hacks into something, and then 
you get 2 or 3 days, and it's gone. And that's a terrible 
threat--a terrible thing to do to this Nation. So, I just--I 
want to make that statement. If you'd care to respond to it, 
I'd be happy. But, that's what our legislation is going to say.
    Secretary Napolitano. Well, Mr. Chairman, I would be happy 
to work with you on that legislation. I think your assessment 
of cybersecurity as a threat is an accurate one. I would be 
happy to brief you and your staff on the extensive efforts we 
have taken within DHS to deal with the civilian side of 
government and the protection of that, the .gov side, as well 
as our interaction with the private sector. You know, 85 
percent of the critical infrastructure in the country is in the 
hands of the private sector, and they're totally network-
dependent. You think of utilities, water companies--and I could 
go on and on and on. I know you understand what I'm addressing. 
And so, we have been involved in a series of critical 
infrastructure meetings over the last 2 months, myself 
included, with the private sector, with respect to their own 
network security, and how we work together to improve that. So, 
I couldn't agree with you more about the severity and nature of 
the threat, and I think it is going to be part of our ongoing 
threat environment.
    The Chairman. I think the private sector will be helpful, 
but I have to--and this is not really quite fair of me, but--
about 10 years ago, I was worried about that and about--
generally, about powerplants and chemical plants that had--
backed up to the Ohio River. And if you go between--from 
Pittsburgh, in the Allegheny River, down to Cincinnati, that's 
about 200 miles--or maybe it's 300 miles, I have no idea, but 
it's a long way--and there are hundreds and hundreds of 
powerplants and chemical plants. And three Coast Guard cutters 
that have, you know, machine guns on the front, heavy machine 
guns--three--now, they can't go 24 hours a day, so that means 
there's an average of one every 8 hours--to do--patrol all of 
the Ohio River. This is what I'm talking about when I say, 
``Please ask me. Do you need more money for that?'' So--because 
it's--obviously can't do the job.
    Anyway, I got them together, and I said, ``You've got to 
improve your security. You're backed up against the water. 
That's exactly where the terrorists will come at you.'' You 
have--if you're a powerplant, you have these big cooling 
things, they can drop things into that--the way for chemical 
companies to be blown up. I mean, we've had instances in West 
Virginia that have nothing to do with terrorism; they're just 
accidents, and they're just massively threatening. And so, they 
agreed to do something, and then they--this is slightly 
cynically put, but it's the way I look at it--they came back a 
year later, and they said that they'd given everybody who 
lets--admits people into the workspace--that is, where their 
cars pass through--a sidearm. Well, of course, that's the 
opposite side of the plant; the river is on the other side of 
the plant. It has nothing to do with what I'm talking about. So 
that what--to the extent that the private sector is willing to 
be helpful on something like cybersecurity, or other forms of 
security--always makes me just a little bit suspicious, 
because, as Senator Brownback said, it costs, and everybody's 
feeling very fragile, and everybody is very fragile, but this 
is--you know, this is the big one, as far as the Director of 
National Intelligence says. I don't know if you have any 
comments.
    Secretary Napolitano. Our interactions on the cyber side 
with the private sector to date have been, I think, very 
productive. And perhaps it's because the economic costs of a 
major denial-of-service attack or virus is substantial enough 
that there are incentives there for everyone to work together. 
But, this is an evolving field, it's an ever changing threat 
environment. And again, it's something that I think we will be 
dealing with for months and years to come.
    The Chairman. OK. Yes, OK. Well, let--it appears that 
Senator McCaskill may not be coming, so I will----
    Secretary Napolitano. Do you want to----
    The Chairman.--use her time. So just bear----
    Secretary Napolitano. OK.
    The Chairman.--bear with me one more time.
    Can you please walk me through the challenges that you face 
as you attempt to implement the 100-percent-scanning 
requirement? And I have these photographs. And, you know, I'm 
talking now about maritime air--I mean, water cargo containers. 
And some of them, you know, they want--everybody want--in the 
House--wants them scanned 100 percent. You're doing it at about 
5 percent, I think. And some of them--there has to be more than 
that, but--for example, just to pick out a Home Depot--I mean, 
maybe every--probably every Tuesday, at about seven different 
ports around the country, massive cargo containers of lumber 
come in. And that's predictable. It's totally predictable. So, 
can somebody hide something inside--a dirty bomb inside that? 
And does that require scanning? Then you have the--you--things 
are wrapped in plastic, and then they're--then they have--
wrapped in metal, and they have locks. And people say, ``Well, 
that's good,'' except you can blow up the locks. Well, to blow 
up the locks, I think, would probably be a fairly noticeable 
event. And so, help me understand your view of what you can 
responsibly, and should responsibly, do, and what you should 
not cost-effectively and potentially responsibly do.
    Secretary Napolitano. Thank you, Mr. Chairman.
    I--well, I'd begin by saying that we should not believe 
that 100-percent scanning equates to 100 percent security. And 
that is because, as I mentioned before, the 100-percent-
scanning rule only focuses on one method of delivery and in one 
place. And there are numerous methods of delivery in numerous 
places. And so, that is why we really have to take a more--
``nuanced'' is probably not the right word, but a layered, 
risk-based approach to these issues.
    But, for example, the technology really isn't currently 
available. To name just one problem, we have a high rate of 
false positives. The logistical challenges and cost to deploy 
it----
    The Chairman. You mean because the technology is 
insufficient, or because it reads and confuses?
    Secretary Napolitano. It reads and confuses. You have a 
high level of false positives. The speed of the through-port is 
very slow. You have lack of adequate anomaly detection. Even if 
you had a good technical system, recognize that you're dealing 
with 700 different ports around the world; having an adequately 
trained workforce and the maintenance of these systems is an 
issue.
    You've got a trade issue. Many countries around the world 
are very--not just resistant to, but, in some respects, almost 
offended by the notion that we would install--you know, require 
this at their port, in their country. So, you have to negotiate 
each of those agreements separately. So, there's always the 
possibility of a retaliatory type of approach.
    There's the additional cost to the shipping system. There 
was a study done recently, in the EU, that this could add as 
much as 10 percent to shipping costs, which, in an era of a 
fragile global economy, is a significant add-on.
    So, I hope that gives you some picture of the difficulty 
that we have implementing a 100-percent-scanning rule.
    The Chairman. No, it's very helpful. And I asked that 
question, actually, because it was so important that Senator 
McCaskill get here, and that, therefore, I had to tread water 
as best as I could.
    Secretary Napolitano. Oh.
    The Chairman. So, she can now ask a couple of absolutely 
brilliant questions.
    Secretary Napolitano. Well, I'm glad you asked it, because 
I studied my answer really hard. I wanted----
    [Laughter.]
    Secretary Napolitano.--to be able to give it to you.
    The Chairman. Senator McCaskill.

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you, Mr. Chairman. I appreciate 
you holding the hearing open until I had a chance to get here. 
I was over in Armed Services, as we were dealing with the 
President's speech on Afghanistan last night, and it took a 
while for me to get my questioning done there.
    I wanted to briefly bring up with you, Secretary 
Napolitano, something that I have been working on for a number 
of years now, and that is foreign repair stations as it relates 
to airline maintenance. I know this is not necessarily in your 
lane, but, in the long run, it needs to be on your radar--
pardon the pun--because we have, increasingly in this country, 
turned to foreign repair stations for, not just kicking the 
tires, but significant maintenance and repair work for our 
domestic airline industry. It--FAA is--from many different 
hearings in this room, we have figured out we're not really 
sure why we certify certain repair stations but we allow 
noncertified repair stations to do the work. We're not really 
sure why we don't have the same kind of standards at foreign 
repair stations, in terms of background checks, in terms of 
perimeter security. And I bring it up to you because I think 
this is something that we could benefit from you--your people 
taking a look at this.
    We had foreign repair stations doing significant work on 
some of our airlines in countries that were on the State 
Department's terrorist watch list. So, meanwhile, I--with a 
smile on my face, get wanded every time I get on an airplane, 
because I have one artificial knee, and they go through my 
mom's stuff, because she has two artificial knees. We have 
repair work, significant repair work, being done in places 
around the globe where I don't think the American people would 
be comfortable with the level of security and oversight that 
we're providing them.
    And I wanted to bring that up to you, because it's 
something that I had worked on--and I know we haven't had a 
chance to visit about it before--but would like your reaction 
to that and whether or not you think that some of your 
obligation, as it relates to homeland security, could reach out 
to at least do an assessment, in your view, whether or not this 
is something we should be worried about.
    Secretary Napolitano. Well, thank you, Senator. And the 
foreign repair issue really reveals something which I say 
often, which is that homeland security does not begin at the 
borders of the United States. You really have to think of it in 
a global context and then bring it home, so to speak.
    On November 18 of this year, so just a few weeks ago, we 
issued an actual Notice of Proposed Rulemaking on foreign 
repair stations, and it builds on the certification 
requirements that the FAA uses. But, it would require such 
things as making--requiring that they be open to audits by the 
Department of Homeland Security on a random and surprise basis. 
It requires certain types of recordkeeping. It requires certain 
types of other types of checks in the stations themselves.
    The comment period on the notice, I think, closes, I want 
to say, the third week of January. So, it is something that has 
occupied our attention, and we're moving forward in that 
fashion.
    Senator McCaskill. That is terrific. I know you've got to 
go, and I appreciate you sticking around until I got here.
    I also do want to bring up--I am hopeful that you all are 
looking at the security clearinghouse contracting issue as it 
relates to a recompete. Those costs have gone up, I'm sure 
you're aware. A security check has risen from $3-a-head to $27-
a-head. For many of our airports, that are struggling right now 
in this economy, it has gotten to be a very expensive 
proposition. And I know you all have--TSA has not gone on 
record yet affirming that it will open the contract to 
competition, but I am--wanted to go on record as saying I'm 
hopeful that you all will move toward a competitive contract as 
quickly as possible. I think this has been a sole source for 
way too long, and I think we're paying more than we need to 
pay.
    Secretary Napolitano. Duly noted.
    Senator McCaskill. Thank you very much.
    And thank you, Mr. Chairman.
    The Chairman. Thank you, Senator McCaskill.
    And you have an appointment and a flight to catch. I 
totally thank you for being here. It's very important to us, as 
a committee. We respect what you're doing, and we want to be 
your partner.
    Secretary Napolitano. Thank you. Thank you, Mr. Chairman, 
for the opportunity to be here today.
    The Chairman. Thank you.
    The hearing is adjourned.
    [Whereupon, at 2 p.m., the hearing was adjourned.]
                            A P P E N D I X

       Prepared Statement of Robert A. Voltmann on Behalf of the 
Transportation Intermediaries Association Concerning the Customs-Trade 
                 Partnership Against Terrorism (C-TPAT)
    The Transportation Intermediaries Association (TIA) is the leading 
education and policy organization for North American third party 
logistics professionals (3PLs). TIA is the only organization 
representing 3PLs doing business in both domestic and international 
commerce. With over 1200 members, TIA is the voice of 3PLs to shippers, 
carriers, government officials, and international organizations. As a 
condition of membership, all TIA members are required to sign and 
adhere to the TIA Code of Ethics. The members of TIA include property 
brokers, domestic freight forwarders, international forwarders and 
NVOCCs, airfreight forwarders, logistics management companies, and 
intermodal marketing companies. TIA is the U.S. member of FIATA 
(International Federation of Freight Forwarders Associations) 
representing more than 40,000 3PLs around the world.
    TIA supports the government's effort to involve industry in the 
security of the supply chain. We support opening the C-TPAT Program to 
all companies with a significant involvement in the international 
supply chain willing to submit to the rigors of the program. We believe 
that the C-TPAT program must be run in a non-discriminatory, mode 
neutral manner. TIA supports mutual recognition of similar supply chain 
security initiatives by our major trading partners, and the steps being 
taken in that direction by the Department of Homeland Security. 
However, TIA is concerned that:

  <bullet> C-TPAT is currently not open to all companies with a 
        significant involvement in the international supply chain 
        willing to submit to the rigors of the program.

  <bullet> C-TPAT eligibility criteria discriminate against a 
        significant segment of the third party logistics industry 
        licensed by the Department of Transportation.

  <bullet> C-TPAT rules do not comport with Federal law under Section 
        212 of the SAFE Port Act.

    C-TPAT is currently not open to all companies with a significant 
involvement in the international supply chain willing to submit to the 
rigors of the program--
C-TPAT excludes Department of Transportation licensed brokers and 
forwarders involved in cross-border trucking. The Customs and Border 
Protection agency (CBP) of the Department of Homeland Security (DHS) 
has opened the C-TPAT program to the following types of third party 
logistics companies: customs brokers licensed by CBP, indirect air 
carriers authorized by the Transportation Security Administration (TSA) 
of DHS, and non-vessel operating common carriers (NVOCCs) and freight 
forwarders licensed by the Federal Maritime Commission (FMC). CBP has 
not however, opened the C-TPAT program to brokers and forwarders 
licensed by the Federal Motor Carrier Safety Administration (FMCSA) of 
the Department of Transportation (DOT) involved in the selection and 
management of cross-border truck and rail carriers. This exclusion has 
created a hole in the security network and discriminates against a 
significant market sector involved in the international supply chain. 
3PLs assess and maintain qualification files on thousands of motor 
carriers engaged in cross-border traffic. Access to this capacity 
through C-TPAT would allow CBP another window into the small to medium 
sized motor carrier industry. Yet, rather than utilize a Federal 
license as a requirement and develop a generic set of rules for all 
non-asset based 3PLs, CBP has instead staked out a confusing and 
discriminatory position that causes harm, confusion, and ultimately, a 
gap in our supply chain security network.
    C-TPAT rules discriminate against a significant segment of the 
third party logistics industry and do not comport with Federal law. 
Criteria being followed by CBP for third party logistics companies do 
not properly reflect the nature of the industry as third party 
companies that select carriers, arrange for transportation and oversee 
the end-to-end movement of cargo in a mode neutral manner. Instead, the 
proposed rules would exclude third party logistics companies that do 
not own equipment or take possession of freight involved in the 
international supply chain. If ownership of transportation assets is to 
be a key qualification, it is unclear why CBP has allowed into C-TPAT 
customs brokers, indirect air carriers, NVOCCs, and FMC licensed 
freight forwarders that do not meet these equipment ownership 
requirements, but has singled out FMCSA licensed brokers and forwarders 
for exclusion. In any event, the existing rules applicable to 3PLs do 
not comport with Federal law. The SAFE Port Act of 2006 (Public Law 
109-447) states at Sec. 212 ``Eligible Entities''

        Importers, customs brokers, forwarders, air, sea, land 
        carriers, contract logistics providers, and other entities in 
        the international supply chain and intermodal transportation 
        system are eligible to apply to voluntarily enter into 
        partnerships with the Department under C-TPAT.

    While the Secretary is vested with the responsibility to draft 
rules, the existing rules are too narrow to comport with the law. DHS 
inexplicably has refused to admit non-asset based truck brokers ``who 
perform duties such as quoting, booking, rating and auditing,'' in 
clear violation of the statutory mandate.
    Mutual Recognition between the United States and Canada appears to 
continue the discrimination against segments of the third party 
logistics industry. It is our understanding from Canadian officials 
that U.S. CBP has urged Canada to bar FMCSA licensed brokers and 
forwarders from the Canadian Partners In Prevention (PIP) program. 
There are scores of Canadian companies licensed by U.S. FMCSA to 
operate as brokers and forwarders in the United States. These companies 
and their American counterparts select trucking companies and arrange 
for the transport of millions of trucks across the U.S.-Canadian border 
each year. The effort by CBP to bar these licensed companies that want 
to participate in C-TPAT from the C-TPAT program is discriminatory and 
endangers the security framework of the United States.
    Mutual Recognition Must Include Mexico. U.S. DOT licensed brokers 
and forwarders select and manage millions of trucking movements across 
the U.S.-Mexican border. These companies must be able to join the C-
TPAT program like all other 3PLs. As Mexico develops its own system, 
there needs to be mutual recognition between the U.S. and Mexican 
programs.
    Mutual Recognition between the United States and the European Union 
is a good first step, but more work is necessary. TIA endorses the 
position and concerns expressed by the International Chamber of 
Commerce (ICC) with regard to C-TPAT and mutual recognition. TIA echoes 
the ICC's concern that mutual recognition validation is welcome, but 
that the need for duplicative registration processes on both sides of 
the Atlantic need to be eliminated.
    The Customs Advisory Committee on Commercial Operations (COAC) must 
be opened up to 3PLs and made more representative and transparent. 
COAC, as the industry liaison to CBP, played a central role in CBP's 
consideration of eligibility criteria for third party logistics 
providers. For reasons unknown, property brokers were excluded from the 
C-TPAT process while virtually all other members of the global supply 
chain were included. As noted, property brokers assess and maintain 
qualification files on thousands of motor carriers engaged in cross-
border traffic. They are in an ideal position to check on the security 
qualifications of those carriers as well, but COAC apparently 
recommended against including them in the program.
    Apart from these security concerns, exclusion from C-TPAT 
eligibility has put property brokers, many of whom are small 
businesses, at an unfair competitive disadvantage in bidding against 
those already in the program for business from large shippers, such as 
automobile manufacturers, box store retailers and others who require 
their transportation and supply chain service providers to be C-TPAT 
qualified.
    TIA believes that CBP may have adopted the unreasonable 
restrictions on 3PL participation in C-TPAT in part because it relied 
on faulty advice from the COAC, which is unrepresentative of the 
property brokerage community. Simply put, while COAC does not include 
property brokers, it does include members who may have a competitive 
interest in excluding property brokers.
    TIA urges the Congress to mandate that membership in COAC must 
include non-asset based 3PLs. We also believe that Congress should 
explicitly require CBP to open the C-TPAT program to non-asset based 
3PLs, as the SAFE Port Act originally intended. We would be pleased to 
work with the Committee in drafting legislative language to achieve 
those objectives.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Hon. Janet Napolitano
    Question 1. The Government Accountability Office (GAO) is releasing 
their report on the Secure Freight Initiative and Department's attempts 
to implement 100 percent scanning today. The GAO asserts that you plan 
to issue a blanket extension to all foreign ports. Is this correct?
    Answer. The Implementing Recommendations of the 9/11 Commission Act 
(``9/11 Act'') of 2007 mandates that, by July 12, 2012, any container 
loaded on a vessel in a foreign port cannot enter the United States 
unless it has been scanned by non-intrusive inspection technology (NII) 
and radiation detection equipment before being loaded onto the vessel 
at the foreign port. The 9/11 Act provides the Secretary with 
flexibility to extend the 2012 deadline in two-year increments provided 
two of six pre-defined conditions exist. The extension criteria within 
Section 232(b) permits the certification of extensions for individual 
port facilities, groups of individual port facilities, or all global 
port facilities from which U.S. bound-containers originate. The mandate 
to scan all U.S. bound containers with non-intrusive equipment at the 
overseas port of loading has now been extended by 2 years to July 2014.

    Question 2. Can you please walk me through the challenges you face 
as you attempt to implement the 100 percent scanning requirement?
    Answer. In April 2008, CBP submitted a report to Congress titled 
``Report to Congress on Integrated Scanning System Pilot (Security and 
Accountability for Every Port Act of 2006, Section 231)'' and 
subsequent semi-annual update reports, CBP identified several 
technical, logistical, and diplomatic challenges associated with 
scanning containerized cargo at foreign ports. These challenges include 
but are not limited to:

  <bullet> Technical

    --Enhancing current technologies to effectively scan transshipped 
            cargo;

    --Sustaining equipment operations in extreme weather conditions and 
            certain port environments (politics, cultures);

    --Addressing health and safety concerns of host governments and 
            respective trucking and labor unions, specifically with 
            respect to imaging systems that use a radioactive source;

    --Protecting data privacy concerns.

  <bullet> Logistical

    --Re-configuring port layouts to accommodate the equipment without 
            affecting port efficiency;

    --Persuading the foreign customs service and terminal operator to 
            meet additional staffing requirements;

    --Developing and implementing local response protocols for 
            responding to alarms.

  <bullet> Diplomatic

    --Concluding agreements with partnering nations and terminal 
            operators;

    --Addressing the potential requirement for reciprocal scanning of 
            U.S. exports;

    --Addressing the sensitivities of scanning cargo within a sovereign 
            nation.

    Question 3. What lessons have you learned in implementing the pilot 
program since this law was enacted?
    Answer. CBP reported valuable lessons learned from the 100 percent 
scanning pilot program as well as the significant costs associated with 
procuring and deploying scanning systems. These lessons learned 
indicate that scanning 100 percent of all U.S.-bound containers is 
possible on a limited scale in low volume ports processing primarily 
gate traffic, but it would be difficult to achieve at ports that 
receive transshipped containers delivered to the port facility from the 
waterside. CBP's reports detailed that deploying current scanning 
technologies at high volume and transshipment ports threaten to 
negatively impact port operations which would significantly delay cargo 
shipments, increase operating costs, and infringe on the sovereignty of 
foreign nations. While CBP continues to identify enhancements to 
current scanning technologies to strengthen cargo scanning and risk 
assessment capabilities, meeting the challenges of scanning 100 percent 
of all U.S. bound cargo by July 2012 would be difficult to achieve and 
the use of the extensions provided in the 9/11 Act will be required.
    The April 2008 U.S. Customs and Border Protection initial Report to 
Congress on Integrated Scanning System Pilot can be found at http://
commerce.senate.gov/public/_files/
SFIReport_PublicRelease_FINAL_Consolidated.pdf.

    Question 4. So all of us here today can understand it, please 
explain the Department's layered strategy for port and cargo security?
    Answer. CBP implements a multi-layered, risk-based enforcement 
strategy designed to maximize security without causing economic 
disruption. This strategy encompasses the following security programs 
in the maritime environment:

  <bullet> The ``24-Hour'' Manifest Rule: Advance manifest information 
        provided 24 hours prior to lading at the foreign port;

  <bullet> Container Security Initiative (CSI): Stationing CBP Officers 
        at overseas ports to identify/examine high risk shipments;

  <bullet> Customs-Trade Partnership Against Terrorism (C-TPAT): 
        Industry partnership aimed at securing the supply chain;

  <bullet> Use of Non-Intrusive Inspection (NII) Technology: Utilized 
        for examining containers with limited impact to the port 
        operations;

  <bullet> Automated Targeting System (ATS): CBP's automated system for 
        screening data and analyzing potential risks;

  <bullet> National Targeting Center for Cargo (NTC-C): Centralized 
        targeting center to support maritime cargo enforcement 
        activities;

  <bullet> Secure Freight Initiative's International Container Security 
        program (SFI/ICS): Deploys scanning technology (non-intrusive 
        imaging equipment from CBP and radiation detection equipment 
        from Department of Energy/National Nuclear Security 
        Administration) in support of 100 percent scanning requirement;

  <bullet> Importer Security Filing ``10+2'': Requiring additional 
        advanced data to enhance targeting efforts.

    CBP's multi-layered, risk-based enforcement strategy relies on 
collecting advanced information, which is screened using automated 
systems and analyzed by trained personnel, to provide actionable 
information to CBP Officers. The screening and analysis of this 
information allows CBP to focus its resources on those shipments of 
concern, while facilitating the movement of legitimate cargo. In 
addition to receiving advanced information, CBP partners with industry 
members to enhance their own security practices throughout the supply 
chain. Foreign government partnerships also provide invaluable insight 
into potentially harmful shipments and, in some locations, have allowed 
CBP to deploy scanning systems to scan containers for radiation, 
including both imaging systems provided by CBP and radiation detection 
equipment provided by the Department of Energy's National Nuclear 
Security Administration. Finally, CBP has positioned technology at all 
ports of entry that serve as a force multiplier for officers in the 
field. Taken in combination, these layers provide meaningful supply 
chain security.

    Question 5. Do you concur with the GAO's finding that the 100 
percent scanning requirement could present challenges to the existing 
container security programs such as the Customs Trade Partnership 
Against Terrorism (C-TPAT) program and the Container Security 
Initiative (CSI)?
    Answer. The Secure Freight Initiative (SFI), CBP's program to 
comply with the 100 percent scanning requirements, represents one layer 
of CBP's multi-layered, risk-based enforcement strategy and is not 
intended to replace other CBP programs and initiatives, such as CSI and 
C-TPAT, which represent additional layers of CBP's enforcement 
strategy. In the April 2008, Report to Congress referenced in Question 
#1, CBP included letters and correspondence from members of the local 
and foreign trade community as well as Foreign Governments expressing 
concerns regarding 100 percent scanning to include referencing the need 
to continue partnering with CBP in programs such as CSI and C-TPAT.

    Question 6. Some foreign governments have stated that they may 
adopt a reciprocal requirement that all U.S.-origin containers be 
scanned. Would the United States be able to comply with such a mandate? 
Do you have any sense of what it would cost to do so?
    Answer. Some Foreign Governments have suggested that they may 
consider adopting a reciprocal requirement that all U.S. origin 
containers be scanned, but no official request has been made to CBP.

    Question 7. In April of this year, Acting Commissioner Jay Ahern 
testified that much had been done to enhance the security of cargo 
containers relative to other modes of transportation. He added that 
maritime security should not be overemphasized to the detriment of 
other modes of transportation. Also, he requested that the scanning 
requirement be thoughtfully reconsidered by Congress. Do you believe 
Congress has imposed a goal on the maritime sector that is draining 
limited resources from other more high risk threats to our national and 
economic security?
    Answer. A significant amount of attention and resources has been 
applied to the scanning of cargo containers in the maritime and land 
border environment which was emphasized due to the high risk threat 
potential of cargo containers and also to the availability of suitable 
commercial equipment. CBP is rapidly approaching the point where this 
scanning capability has been implemented for cargo containers that 
satisfies the mandates of the Security and Accountability For Every 
Port Act of 2006. However, challenges remain within the maritime 
environment surrounding bulk, break bulk and roll on roll off (RORO) 
shipments.
    Technical challenges and resource limitations remain to find 
effective, suitable solutions for many other high risk vectors (e.g., 
air cargo, general aviation, rail cargo inbound from Canada and Mexico, 
and between the Ports of Entry). Currently many resources have been 
directed toward improving the capabilities within the maritime sector 
that, in the future, could perhaps be better directed toward developing 
initial capabilities for these other high risk venues.

    Question 8. I have several questions regarding DHS's chemical/
biological detection capabilities for the transportation sector. First, 
what has the Department done to develop chemical and biological 
detection technologies for cargo?
    Answer. The Detect-to-Protect (D2P) Triggers and Confirmers Project 
has been developing and testing biological detection sensor systems for 
high confidence detection of prioritized threat agents that have been 
released into the environment. These sensors are designed to be used in 
a variety of operational situations, with one possible deployment 
scenario in cargo screening environments to provide rapid warning of a 
semi-concealed or leaking threat, or to be used when inspecting high 
risk or suspicious cargo. DHS has been conducting on-going testing of 
these new sensors in operational environments.
    DHS also has tested prototype bio-detection sensors in cargo 
screening environments and plans on conducting further tests as the 
technology matures. Currently, the device's confirmer sensor is 
undergoing further development and live agent testing is being 
conducted by the U.S. Army. DHS is also running a test of the trigger 
and confirmer sensors in the DC metro to see how they perform in that 
operational environment. Additional tests are planned for other CBP 
operational environments.
    The goal of the Non-Intrusive Container Monitor project is to 
develop a sensor (or suite of sensors) that can target suspicious cargo 
for chemical, biological, explosives, or contraband threats, and then 
identify the material without exposing the public or CBP officers to 
the hazard. DHS released a call for proposals for a ``secondary 
screening'' technology that can address a broad range of threats--
chemical, biological, explosive, and contraband--in one device, or one 
suite of devices that are all inter-operable.
    The Autonomous Rapid Facility Chemical Agent Monitor (ARFCAM) 
project has been developing and testing chemical detection systems for 
high confidence detection of prioritized threat agents that have been 
released into the environment. These sensors are designed to be used in 
a variety of operational situations, with one possible deployment 
scenario in cargo screening environments to provide rapid warning of a 
semi-concealed or leaking threat, or to be used when inspecting 
suspicious cargo. These sensors have recently been evaluated in a mass 
transit facility.

    Question 9. Do you have a deployment/implementation plan for these 
technologies?
    Answer. CBP has devices for use in the field by scientists for 
chemical, explosives and hazmat detection. However, at this time there 
is no similar hand-held tool that can properly be used by CBP officers 
in the field. For biological detection CBP currently uses detection 
paper in the field for certain biological agents. DHS continues to work 
on the development of technologies for use by CBP officers in the 
field.

    Question 10. Has the Department conducted a risk assessment of the 
key pathways that pose the highest risk in order to focus technology 
deployment once they have been determined to be operational effective?
    Answer. CBP's Office of Intelligence and Operations Coordination 
currently is conducting this assessment and reporting the status of 
this work to the DHS Office of the Inspector General on scheduled 
intervals.

    Question 11. Finally, does DHS have sufficient resources allocated 
in its budget for these initiatives?
    Answer. DHS will continue to conduct its consolidated research 
program supporting chemical and biological detection systems. To date 
the program has yet to yield field operational devices to enhance 
operational detection capabilities.

    Question 12. Members of Congress and the general public have 
significant concerns about the transportation of hazardous cargo in the 
maritime sector. Coast Guard protocols require vessel escorts for 
certain `Especially Hazardous Cargo'. On the Ohio River Valley in West 
Virginia, the Coast Guard has only three small boats to protect dozens 
of chemical facilities and the hundreds of vessels that transport ton 
chemicals to them every year.
    The Government Accountability Office (GAO) reported that the Coast 
Guard has significant resource limitations in many locations such as: a 
shortage of boats, a lack of qualified personnel, and unmet armament 
requirements, all which hinder the agency's ability to fulfill its 
mission requirement. Have you conducted as assessment of the assets and 
personnel that are needed to adequately address this core mission 
function? If yes, what were your findings and how can we help you? If 
not, could you please do so and report back to the Committee?
    Answer. The Coast guard leverages intelligence, Maritime Domain 
Awareness and operational planning guidance to allocate assets/
resources across its portfolio of 11 statutory missions to reduce 
safety, security, and environmental stewardship risk in the maritime 
domain.
    On a daily basis, Coast Guard operational commanders assess all 
mission requirements of their respective areas of operations, including 
consideration of Especially Hazardous Cargo escorts, and allocate 
available resources to the highest priority needs.
    Continued support for the Coast Guard's recapitalization programs 
(e.g., National Security Cutter, Fast Response Cutter, Response Boat-
Medium, and Maritime Patrol Aircraft), consistent with annual budget 
requests, is essential to sustaining the Coast Guard's ability to 
manage risk within the maritime domain.

    Question 13. How do you guarantee that intelligence information 
sharing and coordination processes work properly?
    Answer. A series of processes and interconnected systems ensure the 
intelligence components of the Department of Homeland Security share 
and receive critical information. Our most effective tool is the 
execution of a ``hot wash'' following an incident to document the flow 
of information, identify the successes, the shortcomings, and make 
recommendations for improvements.

    Question 14. Let's take the example of port security. Can you walk 
me through how the Coast Guard, Customs and Border Patrol, Immigration 
and Customs Enforcement, the Bureau of Intelligence and Analysis, local 
authorities, and other DHS and U.S. Government entities share 
information to prevent attacks, or investigate suspicious activity?
    Answer. Our processes continue to evolve and improve; in response 
to several recent Homeland threats, I&A created a tiger team comprising 
representatives from each of the Department's intelligence component, 
including USCIS, TSA, USCG, CBP, ICE, and our IC colleagues, called the 
DHS Terrorism Task Force (DTTF). The DTTF represents a significant 
evolution of the DHS Intelligence Enterprise by substantially 
increasing the thoroughness of DHS support to FBI investigations, 
enhancing Departmental collaboration, providing more comprehensive 
intelligence support to DHS leadership decisionmaking, and building 
toward a departmental Intelligence Enterprise. The DTTF serves as a 
select group of appropriate cleared individuals from across the 
Department. As evidenced by its activities during the past several 
months, the DTTF has demonstrated to our partners at the National 
Counterterrorism Center (NCTC) and the Federal Bureau of Investigation 
(FBI) that it can properly handle sensitive information while 
simultaneously exploiting DHS data bases to generate additional lead 
information. Specifically, during the threat environment from August 
through October 2009, the DTTF's value was demonstrated by better 
support to:

  --The DHS leadership by leveraging the full benefit of DHS 
        Intelligence Enterprise capabilities daily, and sometimes under 
        significant time constraints. This support made for more 
        informed DHS operational decisions in response to fast-breaking 
        threat information. The DTTF also provided the DHS leadership 
        for the first time a daily window into the full extent of DHS 
        support to investigations from the perspective of the field, 
        various Component agency headquarters, and from DHS employees 
        embedded at the FBI and agencies of the Intelligence Community.

  --The Intelligence Community by making informed inputs regarding the 
        broad scope of DHS actions in response to threat information 
        reported in the DNI Homeland Threat Task Force updates. These 
        updates were used to brief the President and key cabinet 
        officials about the threats and actions taken by various 
        departments and agencies in response.

  --The National Counterterrorism Center by illustrating the utility of 
        expanding the dissemination of Restricted Handling material 
        which allowed for a more Department-wide view of the threat and 
        provided a more informed and collaborative interaction with the 
        NCTC.

  --The nation's broader Homeland Security defense network by ensuring 
        that DHS outreach to our state, local, tribal, and private 
        sector (SLTP) stakeholders was carried out in accordance with 
        White House guidance and in close coordination with the FBI.

  --The State and Urban Area Fusion Centers by providing greater 
        context to the evolving threat and directing state and local 
        partners to the information necessary for their leadership to 
        make more informed decisions about the prevention and 
        identification of additional threats.

    <bullet> In the context of recent threat streams, DHS I&A has 
            issued a number of bulletins and Roll Call release products 
            to our state and local partners to sensitize them to the 
            threat and to terrorist tactics and procedures. Zazi's 
            activities, for example, prompted DHS to issue an advisory, 
            Terrorist Tactics Against Mass Transit and Passenger Rail, 
            to alert the transportation sector to possible plotting.

    <bullet> In addition to bulletins and Roll Call release products, 
            DHS I&A conducted teleconferences with State and Local 
            Fusion Center Directors and State Homeland Security 
            Advisors, and will conduct table-top exercises with private 
            sector partners.

    Question 15. What if actionable intelligence on an imminent threat 
were to come in through the wider Intelligence Community? How does that 
information get disseminated to these various entities, some of which 
have personnel who may need to act but who do not have security 
clearances? Can you walk me through a scenario in which the pieces of 
DHS along with other Federal and local authorities would share 
information and work together to address an imminent threat?
    Answer. Actionable intelligence on an imminent threat is 
immediately distributed through a variety of information sharing 
mechanisms; including dissemination by our various IT systems, working 
directly with our state and local partners, our Departmental personnel 
in the states and with our operational components. Many of our state 
and local partners, as well as private sector partners have security 
clearances, but the Department has developed procedures to declassify 
critical information. For example,

  <bullet> In the context of recent threat streams, DHS I&A has issued 
        a number of bulletins and Roll Call release products to our 
        state and local partners to sensitize them to the threat and to 
        terrorist tactics and procedures. Zazi's activities, for 
        example, prompted DHS to issue an advisory, Terrorist Tactics 
        Against Mass Transit and Passenger Rail, to alert the 
        transportation sector to possible plotting.

  <bullet> In addition to bulletins and Roll Call release products, DHS 
        I&A can conduct teleconferences with State and Local Fusion 
        Center Directors and State Homeland Security Advisors, and can 
        conduct table-top exercises with private sector partners.

    Question 16. What about Transportation Security Administration 
(TSA) and other agencies, including those within DHS that it works with 
on a daily basis. Agencies like CBP and ICE to the Federal Aviation 
Administration (FAA) to local authorities? Please tell me, 
specifically, what you do on a daily basis to promote and ensure 
information sharing and cross-agency coordination on addressing 
threats.
    Answer. The Transportation Security Administration (TSA) is an 
active participant in intelligence information sharing and 
coordination. TSA's Office of Intelligence (TSA-OI) interacts daily 
with members of the Intelligence Community, DHS components, 
governmental agencies with intelligence functions like the Federal 
Aviation Administration and other agencies within the Department of 
Transportation, Law Enforcement, and international partners.
    TSA-OI is an all source intelligence office with a 24x7, 365 days-
a-week intelligence watch. The Watch provides real time warning and 
notification for TSA/DHS Leadership, TSA Federal Security Directors, 
their staff, and Coordination Centers, Federal Air Marshals, and the 
Intelligence Community on all threats related to the transportation 
sector. This sector is comprised of international and domestic 
commercial civil, commercial cargo and aspects of general aviation. It 
also includes mass transit systems, passenger and freight rail, 
pipelines, the U.S. highway system including commercial buses and motor 
coaches, and a joint responsibility with United States Coast Guard for 
maritime issues involving ferries systems.
    TSA-OI also has a professional cadre of all source intelligence 
analysts who provide value added intelligence analysis of 
transportation-related information to a broad range of TSA stakeholders 
in the form of briefings and written products.
    To support this analysis TSA-OI has analysts embedded at the CIA, 
the National Counterterrorism Center (NCTC), the NSA, the FBI's 
National Joint Terrorism Task Force (NJTTF), and FBI's Terrorist 
Screening Center (TSC). TSA-OI analysts are also assigned to DHS 
Intelligence and Analysis and located at CBP's National Targeting 
Center (NTC).
    TSA-OI's Field Intelligence Officer program provides intelligence 
support to over 25 of the Nation's busiest airports. Field Intelligence 
Officers (FIOs) support the Federal Security Directors and their 
staffs, interact with the local FBI JTTF, and communicate with state 
and local law enforcement and security officials responsible for 
transport security. While physically located at a major airport, all 
FIOs have regional responsibilities. FIOs are responsible for all modes 
of transportation. FIOs interact with Federal, State, and local 
aviation, modal authorities, law enforcement, fusion and intelligence 
centers, JTTFs, etc.
    At the local port level, leveraging the Interagency concept of 
operations, the Coast Guard Sector works with law enforcement partners 
to increase and improve the sharing of actionable law enforcement 
information between the Coast Guard, CBP, ICE, TSA, FAA and other 
Federal, state and local law enforcement partners, for more efficient 
and effective coordinated operations and response to threats and 
incidents.
    Coast Guard Sectors also lead Area Maritime Security Committees 
(AMSCs) and Harbor Safety Committees and sometimes additional locally-
unique Federal/state/local/international organizations.
    At the national level, the USCG Headquarters Command Center in 
Washington, D.C. and the Coast Guard Intelligence Coordination Center 
(ICC) in Suitland, MD conduct direct coordination regarding suspicious 
activities with DHS and other Federal partners, appropriate to the 
nature of the activity. Both units have 7x24 watchstanding operations.
    The National Response Center (NRC), collocated with the USCG 
Headquarters Command Center, is the interagency Federal nexus for 
suspicious activities reported by critical industries in our ports and 
waterways. Industry reports which meet Federal Bureau of Investigation 
(FBI) criteria are forwarded by the NRC directly into the FBI Guardian 
system, where the reports are accessible by the Joint Terrorism Task 
Force (JTTF) units nationwide and all JTTFs have a variety of DHS 
members.
    ICE Intel disseminates vital information to the Intelligence and 
Law Enforcement Communities through the production of Homeland 
Intelligence Reports (HIRs).
    In FY 2009, ICE disseminated over 600 HIRs containing information 
relating to national security, Southwest Border security, transnational 
criminal activity, and threats to public safety. HIRs produce and 
incorporate information from open sources, law enforcement data bases, 
and classified information. They are disseminated to the appropriate 
parties as based on content.

    Question 17. Protecting the Nation from security risks posed by the 
nearly 13 million small vessels that exist is a monumental task. There 
are parallel security threats in the general aviation sector, which has 
been a long unaddressed vulnerability in our aviation industry. I 
understand that you and Admiral Allen are preparing a revised Small 
Vessel Security Strategy. When will that be finalized? It is my 
understanding that DHS has a number of related programs to address 
small vessel security but they do not coordinate with each other. How 
will you integrate these multiple programs into one comprehensive, 
layered security approach?
    Answer. The Small Vessel Security Strategy was published in April 
of 2009. The DHS Small Vessel Security Implementation Plan is expected 
to be released by the Department in 2010. The Plan is being developed 
through an integrated DHS component small vessel security working 
group. The small vessel security initiatives of component agencies are 
being coordinated to eliminate redundancies and ensure coordinated 
implementation actions among Federal partners.

    Question 18. TSA has not conducted a national railroad risk 
assessment as required by the 9/11 Act. As a result, TSA has been 
unable to assess the potential consequences of certain proposals, such 
as allowing guns on Amtrak trains, on the security of the passenger 
rail network. What are you doing to guarantee that TSA completes the 
risk assessment, as required?
    Answer. As required by the 9/11 Act, the Transportation Security 
Administration (TSA) has conducted the Transportation System Sector 
Risk Assessment (TSSRA), which encompasses railroads and other surface 
transportation modes. Through TSSRA, TSA has evaluated threat, 
vulnerability, and consequence in a wide range of terrorist attack 
scenarios for each mode of transportation. For mass transit and 
passenger rail, this assessment considered more than 200 scenarios, 
rating threat capabilities and likelihood of execution; vulnerabilities 
of rail and bus systems and infrastructure; and potential consequences 
in casualties, property damage, and impacts on the transportation 
network. The resulting risk ranking enables setting of informed 
mitigation priorities, both across the sector and by individual mode, 
for collaborative security strategies, program development and resource 
allocations. The TSSRA is in the final stages of review at TSA.

    Question 19. The Visible Intermodal Prevention and Response (VIPR) 
program works with local law enforcement to serve as a deterrent to 
potential terrorist attacks. However, a recent GAO report found that 
some VIPR teams do not have sufficient training or enough radios and 
other communication equipment to coordinate effectively with local law 
and surface transportation officials. What are you doing to ensure that 
TSA provides sufficient training and resources so that VIPR teams can 
help protect our transportation networks?
    Answer. The Transportation Security Administration (TSA) routinely 
works with local transportation and law enforcement stakeholder/
partners to train and familiarize TSA deployable assets that are used 
on Visible Intermodal Prevention and Response (VIPR) operations. Much 
of this training is completed at the local level and is specific to 
particular modes of transportation. One such example is TSA's 
continuing initiative to train Federal Air Marshals (FAMs) and 
Transportation Security Officers (TSOs) to work in mass transit 
environments alongside local transportation and law enforcement 
stakeholder/partners. Both FAMs and TSOs receive training directly from 
the partnering transportation authority on safety matters, the transit 
agency's physical structure, and specific operating procedures. TSA 
also sends its personnel to numerous anti-terrorism training courses 
that have specific application in the transportation domain.
    TSA plans to develop an agency-wide VIPR specific training 
curriculum for all TSA deployable assets that participate in VIPR 
operations. In addition, TSA's Office of Law Enforcement/Federal Air 
Marshal Service (OLE/FAMS) has developed specific VIPR law enforcement 
training that is instructed at its training academy and field office 
level.
    TSA's OLE/FAMS has provided the necessary interoperability 
communication equipment for the 10 dedicated VIPR teams. Additionally, 
in Fiscal Year (FY) 2010, TSA received funding for an increase of 15 
VIPR teams, dedicated to the surface domain. The FY 2010 funding 
provides the necessary radio communication equipment and training.

    Question 20. What else can be done to improve our protection of 
critical infrastructure from cyber attacks and what can be done to 
improve public-private partnerships between government agencies and 
critical infrastructure providers?
    Answer. The National Cyber Security Division (NCSD) within the 
Department of Homeland Security (DHS) engages in a wide variety of 
initiatives designed to improve the protection of critical 
infrastructure from cyber attacks. Many of NCSD's ongoing initiatives 
illustrate areas where NCSD is pursuing improvements to current 
processes and practices. Generally, however, improvements in the 
protection of critical infrastructure from cyber attacks could be 
gained from implementing appropriate security measures and effective 
partnerships across the Critical Infrastructure and Key Resources 
(CIKR) sectors. Initiatives such as the development of improved 
national cyber incident response, multi-directional information 
sharing, improved national capability and capacity to detect, prevent, 
respond to, and mitigate disruptions of voice and cyber communications, 
and increased security for CIKR industrial control systems are ready 
examples of areas where additional efforts will improve CIKR 
cybersecurity.

    Question 21. What can be done to improve public-private 
partnerships between government agencies and critical infrastructure 
providers?
    Answer. Public-private partnerships between government agencies and 
critical infrastructure providers are key to improved cybersecurity for 
the Nation's CIKR. NCSD works closely with private-sector 
representatives from each of the CIKR sectors and is actively engaged 
in strengthening and expanding those relationships. Partnerships are 
based on trust, which is enhanced through continued mutual engagement 
between and among public- and private-sector partners. Initiatives 
currently being pursued to improve public-private partnerships include: 
increasing collaboration with industry on key plans such as the 
National Cyber Incident Response Plan; integrating private-sector 
involvement in cyber operations centers, including the new National 
Cybersecurity and Communications Integration Center; expanding the 
services of existing cyber operations centers such as the Industrial 
Control Systems Cyber Emergency Response Team; and continuing to 
protect the Nation's CIKR networks through risk-mitigation efforts 
conducted in full partnership with industry as outlined in the 
Information Technology Sector Baseline Risk Assessment.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Byron L. Dorgan to 
                         Hon. Janet Napolitano
    Question. I understand that the Transportation Security 
Administration (TSA) is actively examining the current process for 
facilitating background checks for aviation workers in an effort to 
enhance competition. I fully support the principle of competition, so 
long as the high standards set by the current system are maintained and 
security is never compromised. I hope you will adequately assess the 
key capabilities necessary to maintain a successful process, including 
the ability to instantaneously determine the status of any individual 
worker in the system and to quickly respond to evolving TSA 
requirements and directives. Maintaining the highest bar for security 
must be your goal.
    As you contemplate changes in this area, I urge you to pursue a 
careful and informed course that ensures:

    Today's high security standards are not diminished and all vendors 
qualified by TSA meet the same high standards required today of the 
Transportation Security Clearinghouse (TSC).
    Airports have the ability to select a qualified entity to provide 
these services at their facility.
    The current TSC services, developed at no cost to the Federal 
Government, remain available to airports and other users without 
disruption.
    With that in mind, I would like your answer to the following 
questions:

    What safeguards do you have in place to ensure that the existing 
process and high standards are not disrupted as you pursue competition 
for background screening services? What safeguards will be in place to 
ensure that existing security capabilities are not diminished as 
changes in this area are implemented? Does TSA intend to require that 
all service providers are capable of monitoring the status of all 
workers it processes prior to their assumption of these services at 
airports?
    Answer. In examining the current aviation worker screening process, 
a primary objective of the Transportation Security Administration (TSA) 
is to maintain or improve upon existing security standards and 
practices. TSA hopes that competition in this area will yield process 
enhancements and security capabilities that operationally improve 
aviation worker background checks. As part of this process, TSA is 
establishing data submission standards and will include best practices 
for data security. The provider(s) selected to provide aviation 
screening services would be expected to adhere to these standards and 
undergo periodic reviews.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                         Hon. Janet Napolitano
    Question 1. Madam Secretary, as you know, there is a one-hundred 
percent screening requirement for all cargo placed on commercial 
passenger flights that goes into effect next August. In some instances, 
meeting this mandate without causing undo economic harm is going to be 
challenging. Let me give you an example. In Washington State, the fresh 
cherry season is very short and cherries need to be picked, packed and 
shipped within twenty-four hours. During the season, fresh cherries are 
flown from SeaTac to Asian markets on anywhere between eighty to one 
hundred dedicated freight aircraft flights as well as in the cargo hold 
of numerous commercial passenger flights. To help Washington State 
cherry growers meet the current fifty percent inspection requirement, 
this summer TSA provided K-9 units to help scan the cherries shipped on 
these commercial passenger flights. I thank the Department for doing 
that. But everyone recognizes this is not a viable long term solution 
to meet my growers need to have fruits shipped on commercial passenger 
flights and TSA's need to ensure the security of our skies.
    I have been told that equipment is being tested that would allow 
freight forwarders to scan full pallets and containers at airports 
before they are loaded onto planes. The availability of this technology 
would greatly improve the ability of Washington cherry growers to get 
their highly perishable product to Asian markets quickly and 
efficiently, and eliminate the need for dogs. What is the status of the 
technology and what is the status of the testing? When do you believe 
freight forwarders will be able to begin utilizing these scanners? To 
meet the one-hundred percent scanning requirement will it be possible 
to accelerate the rollout of these scanners? If the scanning technology 
is not widely available by the beginning of next cherry season, will 
the Department continue to provide K-9 units?
    Answer. Electronic metal detector technology that may offer the 
potential to screen individual boxes and skids (up to 40 inches by 48 
inches in size), provided that no metal is used in packaging, is 
currently being tested in the laboratory and in the field. Testing is 
being conducted using as aggressive and expedited a schedule as is 
possible consistent with good test practices and concern for security. 
If testing shows that systems using this technology are effective and 
suitable, freight forwarders will be able to purchase and use such 
systems immediately upon notification of system qualification. The 
Transportation Security Administration (TSA) expects that notification 
of system qualification will be provided not later than end of March 
2010, before the start of the cherry season.
    Explosive detection canine units will remain an integral portion of 
air cargo security screening and TSA's program was expanded by an 
additional 35 teams in 2009. Although TSA will continue to facilitate 
these situations with canines as much as possible, TSA will not be able 
to fully alleviate the need for screening this cargo each time due to 
limited resources and the increased amount of cargo to be screened 
across the Nation once the 100 percent mandate becomes effective. 
Alternatively, businesses such as the cherry growers can participate in 
TSA's Certified Cargo Screening Program, which would permit these 
entities to physically search the cargo as they build it up and offer 
it for transport as screened cargo given all required security measures 
of the program are adhered to. This program is available for 
participation now and is being used by shippers of various time 
sensitive and high value goods, perishable goods or goods that require 
very special handling.

    Question 2. Madam Secretary, roughly seventy percent of container 
ship traffic entering the Port of Seattle and the Port of Tacoma is 
discretionary. That is, only thirty percent of the contents of these 
containers ``remain'' in Pacific Northwest. The ``vast majority'' gets 
transported to points east, primarily by rail.
    Washington State Ports compete with Canadian ports in Vancouver and 
at Prince Rupert for discretionary container traffic. Asian shippers 
decide where to ship to, based on price and schedule. I understand that 
the statutory mandate to scan all U.S. bound containers with non-
intrusive equipment at the overseas port of loading has now been 
extended by 2 years to July 2014.
    Madam Secretary, do you know if container ships bound for Western 
Canadian ports will have similar security requirements for in-bound 
containers? For example, if containers arriving in Western Canadian 
ports from country ``A'' are placed on rail and are transported across 
the U.S.-Canadian land border, will the U.S. security of these 
containers be equivalent to containers arriving at a Washington State 
port directly from country ``A''? If that is not the case, do you think 
that this difference in requirements present an increased level of 
security risk to the U.S.? Also would this place U.S. west coast ports 
at a competitive disadvantage? More broadly, do you see a need to 
harmonize policies and practices with respect to ensuring the security 
of in-bound containers across North America?
    Answer. CBP has developed a multi-layered process to target and 
examine high-risk shipments while simultaneously facilitating 
legitimate trade and cargo. We are accomplishing this through 
legislative initiatives, use of advance information, risk-management 
targeting systems, detection technologies, extended border strategies 
and the human factor.
    CBP screens the data and information for all cargo containers 
arriving in the United States from foreign locations, regardless of the 
country of origin or the mode of transportation (e.g., sea or rail); 
and closely scrutinizes and examines all shipments identified as high 
risk. CBP employs its layered enforcement process to thoroughly screen 
and ultimately examine 100 percent of the shipments that pose a risk to 
our country.

    Question 3. Madam Secretary, the semi-submersibles vessels used by 
Central and South American drug-runners are typically built in the 
jungles of Columbia, only built for a one-way trip, and are designed to 
be scuttled (sunk) once either the delivery is made or the vessel is 
detected by law enforcement.
    This is an extremely effective method for drug-runners, but is 
there any evidence that groups or individuals have considered using 
semi-submersible vessels for something other than the drug trade? Are 
our drug enforcement officials, law enforcement officials, and 
intelligence agencies actively communicating to make sure that if there 
is interest among terrorist groups or others for using semi-submersible 
vessels for things beyond drug transport, our Nation's homeland 
security system will pick up on that?
    Answer. Available reporting indicates Self Propelled Semi-
Submersibles (SPSS) are built for the express purpose of transporting 
cocaine from South America to off-load sites on or near the coasts of 
Central America, Colombia, and Mexico. No available reporting indicates 
SPSS operations have occurred in U.S. territorial waters. Moreover, 
little to no evidence indicates groups outside the drug trade have used 
SPSS vessels in any capacity.

    Question 4. I know that your department and the Coast Guard are 
working on the problem of small vessel security, and developed a Small 
Vessel Security Strategy in April of 2008. Semi-submersibles vessels 
are not mentioned in that strategy, though. Should they be, or are 
semi-submersibles a separate threat demanding a separate strategy?
    Answer. The DHS Small Vessel Security Strategy characterizes small 
vessels as any pleasure or commercial watercraft regardless of method 
of propulsion that is less than 300 gross tons. Although there is no 
exact correlation between a vessel's length and its gross tonnage, a 
vessel of 300 GT is approximately 100ft in length. This definition was 
used to ensure that all potential small vessel threats, including SPSS 
vessels, were covered.

    Question 5. Is the Department of Homeland Security currently 
developing a semi-submersible vessel security strategy? If not, why 
not?
    Answer. The Department of Homeland Security is developing a 
submersible vessel strategy, which describes the Department's strategic 
approach for countering the increased usage of self-propelled semi-
submersible (SPSS) vessels, as well as the potential use of self-
propelled submersible (SPS) vessels (submarines) to smuggle illegal 
drugs.

    Question 6. Madame Secretary, as you know, the 2010 Winter Olympics 
in Vancouver, Canada will occur this coming February. First, I want to 
thank you for your leadership and support in developing the 2010 
Olympics Coordination Center in Bellingham and your agency's strong 
partnership over the last 5 years in the 2010 Olympics Security 
Committee. The facility is providing a location for inter-agency 
training, coordination, meetings, and exercises that has significantly 
strengthened overall preparedness in the region. It has proven its 
utility during the Police and Fire Games completed this summer and I 
know will do so once again during the upcoming Olympics. I believe the 
Coordination Center is capable of continued operations beyond the games 
with local Emergency Management and homeland security activities in the 
region continuing to operate out of the facility. I believe this 
capability is valuable for increasing the region's overall preparedness 
along our northern border. Madam Secretary, are you willing to work 
with me to see how the Department can maintain the Coordination Center 
as a legacy preparedness facility into the future?
    Answer. The Olympic Coordination Center has proven invaluable for 
various events, notably: local tabletop exercises; ``Gold,'' the 
largest National Level Exercise ever undertaken by Canada and a real-
world event; and the World Police and Fire Games. We are looking 
forward to achieving the same level of success for the 2010 Olympic and 
Paralympic Games in early 2010. As with any facility that DHS operates, 
continued management of the Coordination Center will be evaluated 
strategically and weighed against operational and resource constraints.

    Question 7. On page 42, of the April 2007 GAO report entitled 
``First Responders: Much Work Remains to Improve Communications 
Interoperability'' (GAO-07-301), the GAO recommended that DHS ``develop 
and implement a program plan for SAFECOM and other OEC interoperability 
programs that includes goals focused on improving interoperability 
among all levels of government''.
    Currently, are DHS entities in the field required to develop radio 
communications plans for specific areas of operation? If so, are these 
plans cross walked with the plans of all of the state, local, and 
tribal governments the DHS entities in the field work with on a day-to-
day basis in order to identify gaps in multiple agency communications?
    Answer. Currently, there is no Federal or Department-wide policy 
that requires Department of Homeland Security (DHS) field components to 
develop radio communications plans for specific areas of operation. 
However, the Office of Emergency Communications (OEC) does have a 
strong day-to-day working relationship and feedback mechanisms with 
State, local, and tribal governments concerning strategic planning 
activities. In several instances, DHS entities have developed radio 
communications plans for specific areas of operations. For example, the 
Federal Emergency Management Agency Disaster Emergency Communications 
Division has undertaken an extensive effort to develop 27 State, 14 
Emergency Support Function, and four regional emergency communications 
plans. These plans provide guidelines for pre-positioning and deploying 
communications resources during catastrophic incidents to support 
emergency communications needs in the event of a loss of local and 
regional communications services.
    DHS and its Federal, State, and local partners do work 
collaboratively to build and implement the national policy framework, 
governance structures, and operational capabilities to make the 
development of operational plans easier, more effective, and better 
integrated. These activities take into account the unique missions and 
geographies of DHS components, Federal agencies, and State and local 
agencies, as well as the varying requirements of those components for 
radio communications and interoperability. They include the following:

    National Emergency Communications Plan (NECP)--In July 2008, DHS 
released the first National Emergency Communications Plan in accordance 
with Congressional direction. In developing this plan, DHS and OEC 
worked closely with stakeholders across all levels of government to 
develop a measurable, actionable national strategy to better coordinate 
and guide efforts to improve nationwide operability, interoperability, 
and continuity of communications across levels of government and 
public-safety disciplines. The NECP complements and supports 
overarching homeland security and emergency communications legislation, 
strategies, and initiatives, including the National Response Framework 
(NRF), the National Incident Management System, the National 
Preparedness Guidelines, and the Target Capabilities List. Taken 
together, the implementation of the goals and objectives of the NRF, 
NECP, and other DHS strategy documents will improve nationwide response 
efforts and bolster situational awareness, information sharing, and on-
the-ground tactical communications.
    State, local and tribal Integration--OEC has strong day-to-day 
working relationships and feedback mechanisms with State, local, and 
tribal governments concerning strategic planning activities. OEC works 
with the 56 States and territories, and several tribal nations, to 
implement existing strategic plans through statewide planning workshops 
and technical assistance. OEC also encourages the States, through their 
Statewide Interoperability Coordinators, to maintain representation by 
all levels of government on their statewide interoperability governing 
bodies and coordinate their strategic and tactical activities across 
all relevant partners.

    Question 8. My understanding is that the majority of the State, 
Local, and Tribal Law enforcement agencies operating on the Olympic 
Peninsula utilize the UHF band for communications. I am told most 
Federal agencies (including DHS) operating on the Olympic Peninsula are 
utilizing VHF band radios for their communications. DHS communications 
are primarily conducted on the Department of Justice, Integrated 
Wireless Network (IWN)--an encrypted VHF trunking system. 
Operationally, CPB agents need to be able to scan the radios of State, 
Local, and Tribal law enforcement, to know if they need to respond to a 
call for mutual aid, and more generally, to maintain situational 
awareness . These trunked VHF radio systems cannot scan the UHF band. 
And here lies the problem. It is somewhat mitigated at Blaine because 
the CPB and local law enforcement share a common dispatch center. On 
the Olympic Peninsula, though, dispatchers for local law enforcement 
agencies and CPB are geographically dispersed which make the 
coordination all that more challenging. Is DHS aware of the challenges 
of trunking radio systems and the barriers they present to multi-agency 
day-to-day field communications, particularly in more rural 
communities?
    Answer. There are two dimensions of the technical communications 
challenge represented in this question: (1) dealing with multiple radio 
technologies (trunked/non-trunked, analog/digital, proprietary/
standards-based), and (2) dealing with multiple frequency bands.
    The biggest technology challenge is interoperating with proprietary 
systems rather than standards-based systems. The only methods currently 
available to achieve interoperability between multiple proprietary 
systems or from proprietary to standards-based systems are either 
carrying multiple radios, or using a gateway device or audio switch 
technology that bridges systems together by connecting a radio or each 
system to the gateway.
    If you are dealing with standards-based systems (i.e., Project 25 
(P25)), the trunked/non-trunked and analog/digital issues become much 
more manageable. All P25 digital radios are required to be backward 
compatible with analog systems. In addition, all P25 trunked radios are 
compatible with non-trunked P25 systems. Therefore, if an emergency 
responder needs to connect to multiple networks, it is recommended that 
they specify and purchase standards-based trunking capability in their 
radios and ensure that they are programmed appropriately for each 
network that it must operate on.
    In regard to the challenge of dealing with multiple frequency 
bands, there are gateway devices available that can enable a UHF 
network to communicate with the Integrated Wireless Network (IWN), 
which communicates on the VHF band. For example, in the greater Seattle 
metropolitan area, it is possible to set up radio gateways with local 
and state agencies via the Tri-County Radio Interoperability System 
(TRIS), which includes King County, Pierce County, Snohomish County, 
the Port of Seattle, and IWN. In areas not covered by the TRIS, 
interoperability switches are available and can be used to establish 
interoperability among disparate networks.
    The IWN's trunking system equipment (e.g., portables, mobiles, and 
consolettes) is capable of operating in both P25 trunking and 
conventional narrowband and conventional wideband modes in the VHF 
spectrum, 136-174 MHz. These radios only operate in the VHF band but 
some local agencies in the State of Washington operate in the VHF band 
as well, and if authorization is obtained, these frequencies can be 
programmed into the VHF equipment listed above.
    Another alternative for local agencies operating in the UHF 400 MHz 
band or 700/800 MHz bands is a multi-band radio (MBR). The Department 
of Homeland Security (DHS), Science and Technology Directorate's 
(S&T's) MBR project hosted a short-term demo in Whatcom County and 
Blaine, WA, between 12 local, state, and Federal agencies in the summer 
of 2009 that enabled communications between UHF (400, 700/800 MHz) and 
VHF (138-174 MHz) bands. In preparation for and during the 2010 Winter 
Olympics in Vancouver, British Columbia, Canada, DHS S&T will conduct a 
more detailed MBR pilot in that region from January 30-March 1, 2010, 
to assess cross-border, rural and multi-agency emergency communications 
and interoperability.

    Question 9. As you may know, Assistant Secretary Bersin and I, 
working with State, Local, and Tribal officials on the Olympic 
Peninsula, created the Multi Jurisdictional Task Force to improve 
communications between CPB and local law enforcement stakeholders on 
the ground regarding a range of issues that impact our northern border. 
The group identified a number of areas where more work is needed and 
made a number of recommendations. Are you aware of the Multi 
Jurisdictional Task Force and its short-, mid-, and long-term 
recommendations? How does the Department intend to follow up on these 
recommendations?
    Answer. CBP is fully aware of the task force and the concerns that 
it has identified with regard to radio interoperability.
    The overarching concerns are:

  <bullet> The majority of the Olympic Peninsula's state, tribal and 
        local (STL) law enforcement agencies/departments utilize Ultra 
        High Frequency (UHF) band communications.

  <bullet> Most Federal agencies operating on the Olympic Peninsula are 
        utilizing Very High Frequency (VHF) band, while incorporating 
        digital encryption or trunking.

  <bullet> Within DHS, communications are primarily conducted on the 
        Department of Justice, Integrated Wireless Network (IWN), an 
        encrypted VHF trunking system.

    In response to these concerns, the Office of Border Patrol and the 
Office of Information Technology are actively working with STL law 
enforcement partners on the Olympic Peninsula and have developed a path 
forward which addresses the short-term, mid-term, and long-term goals 
of radio interoperability.
    The short-term goal is to establish an effective radio 
communications capability prior to the beginning of the 2010 Winter 
Olympic and Paralympics Games. To date the following actions have been 
taken:

  <bullet> Clallam County Sheriff's Department has loaned five mobile 
        radios, which were installed in Border Patrol vehicles to 
        assist in radio interoperability until a long-term solution is 
        implemented.

  <bullet> Blaine Border Patrol Sector has loaned 15 portable (hand 
        held) VHF radios to Clallam County SO and other local law 
        enforcement agencies (LEA) to improve interoperability on the 
        Olympic Peninsula.

  <bullet> An ACU-1000, which provides a single UHF/VHF radio channel 
        for emergency radio interoperability on the Olympic Peninsula 
        has been installed at the Port Angeles Border Patrol Station.

    <ctr-circle> The ACU-1000 will be utilized during the 2010 Olympic 
            Games and beyond, until a long-term interoperability 
            solution can be implemented.

  <bullet> The Clallam County Sheriff's Department has a Mobile Command 
        Center (MCC), which has an ACU-1000 installed in it, and can 
        also be utilized in the event of a large scale emergency.

    To address interoperability concerns after the 2010 Winter Olympic 
and Paralympic Games, and until a long-term communications solution can 
be developed and implemented, the following courses of actions are 
being pursued:

  <bullet> Continue to utilize short-term options beyond the Olympic 
        timeframe, until a long-term solution can be implemented.

  <bullet> Continue reassessing communications interoperability based 
        upon the needs of the Olympic Peninsula law enforcement 
        community.

    In looking forward, CBP is actively pursuing a long-term 
communications solution for the Olympic Peninsula by taking the 
following actions:

  <bullet> Implement the CBP communications modernization effort in the 
        Olympic Peninsula.

    <ctr-circle> Procure dual band VHF/UHF portable radios so that 
            Border Patrol Agents can communicate directly with other 
            STL law enforcement officers at the lowest level.

    <ctr-circle> This technology will not be available until as late as 
            09/2010.

    <ctr-circle> Procure and install UHF capable vehicle mounted radios 
            in CBP law enforcement vehicles so that Federal law 
            enforcement can communicate ``car to car'' with STL 
            partners.

    Procure and install dual-band VHF/UHF base station radios to 
increase communications between departments, vehicles, and law 
enforcement personnel.

    Question 10. Madam Secretary, one issue this Committee examined in 
2007 with respect to the preparedness and coordination of first 
responders across multiple jurisdictions and multiple agencies is 
interoperable communications. It is still a work in progress. 
Washington State's long-term approach is to use Radio over Internet 
Protocol (RoIP). The Olympic Public Safety Communications Alliance 
Network (OPSCAN) consists of over 40 local, state, Federal, and 
Canadian public safety agencies, including DHS. OPSCAN has a fairly 
extensive footprint in my state's Region 1.
    One key advantage with using RoIP is that first responders, when 
responding to an incident, in principle, can use their existing radios. 
And with budgets being stretched as they are, it is especially hard for 
smaller communities, especially where first responders are volunteers, 
to afford purchasing new radios. Another approach the Department is 
looking at to achieve interoperability is to develop multiband radios.
    First, the Department has been looking at the use of radio over IP 
and VOIP for interoperable communications for several years. What do 
you consider to be the barriers for technology's widespread adoption by 
first responders?
    Answer. Although based on Internet Protocol (IP) standards, Voice 
Over IP (VoIP)/Radio Over IP (RoIP) technology is not always 
interoperable because it can be implemented in a number of different 
ways by manufacturers. As a result, there is no guarantee that one 
manufacturer's equipment will successfully interface with another's, 
even though they may both use the same standards. To address these 
interoperability gaps, the Department of Homeland Security (DHS) 
Science and Technology Directorate (S&T) is assisting in the 
development of VoIP specifications.
    The Olympic Public Safety Communications Alliance Network (OPSCAN) 
network uses a product from a Seattle-based company that implements a 
Bridging Systems Interface (BSI) to help provide connectivity between 
the agencies involved in the program. The BSI is an interoperability 
specification developed by DHS S&T in partnership with the Department 
of Commerce's Public Safety Communications Research (PSCR) program. DHS 
S&T and PSCR worked with emergency responders as well as this company 
and others during the development of this specification. This 
specification is currently implemented by 12 companies in their 
commercially available products and is a big step toward addressing the 
technical barriers to implementing interoperable RoIP solutions. 
Further, DHS is producing a BSI Best Practices Guide aimed at 
administrators and technicians that will provide guidance on procuring 
and establishing interoperable communications using the BSI.
    The largest barriers remaining for widespread implementation of 
RoIP as an interoperability connectivity technology are related to 
demonstration and knowledge dissemination. Most RoIP demonstration 
projects, including OPSCAN, use a single-vendor solution to provide the 
RoIP connectivity. A specific effort toward demonstration projects that 
use multi-vendor RoIP equipment would be very helpful toward 
demonstrating the viability of the technology. Further, more effective 
means of disseminating the successes and challenges of implementing 
such a system would also be helpful.

    Question 11. What more needs to be done to evolve OPSCAN and 
OPSCAN-like networks from a pilot project into a system for everyday 
use, and is that something the Department is willing to consider 
pursuing in partnership with the State of Washington?
    Answer. The largest remaining barriers for widespread 
implementation of Radio Over Internet Protocol (RoIP) as an 
interoperability connectivity technology are related to technology 
demonstration and knowledge dissemination. Most RoIP demonstration 
projects, including the Olympic Public Safety Communications Alliance 
Network (OPSCAN), use a single-vendor solution to provide the RoIP 
connectivity. A specific effort toward demonstration projects that use 
multi-vendor RoIP equipment would be very helpful toward demonstrating 
the viability of the technology. Further, more effective means of 
disseminating the successes and challenges of implementing such a 
system would help in the development of products such as best 
practices, lessons learned, and user guides that provide emergency 
responders and other stakeholders with a better understanding of the 
benefits and challenges they are likely to encounter when implementing 
a technology.

    Question 12. Does the Department intend to conduct a pilot of the 
Bridging Systems Interface program in Washington State's Region 1 
during the time of the Winter Olympics to see whether it does improve 
interoperability under real world conditions?
    Answer. Because the Olympic Public Safety Communications Alliance 
Network (OPSCAN) network uses the Bridging System Interface (BSI); the 
BSI will be piloted by proxy in any activities that involve the OPSCAN 
network for the Winter Olympics. DHS will work with its partners in 
Washington State to obtain any after-action reports from these 
activities to help validate the application and use of the BSI in real-
world scenarios.

    Question 13. The Department is currently conducting a series of 
Multiband Radio Project pilots. How will the Department know if the 
pilots are successful and what would be the next steps?
    Answer. The Department of Homeland Security (DHS), Science and 
Technology Directorate (S&T) is initiating Phase III of a three-phase, 
multi-band, portable radio (MBR) project. Phase I was the laboratory 
testing phase, which included emergency response agencies conducting 
limited in-house laboratory testing in their radio facilities and 
laboratory testing conducted by the Department of Commerce Public 
Safety Communications Research Program located at the National 
Institute for Standards and Technologies in Boulder, Colorado Phase II 
was the test-demonstration phase that included an evaluation of the 
prototype radios by emergency response agencies during training 
exercises and some use in the field. Phase III is the actual pilot 
testing by multiple agencies across the Nation using pre-production 
prototype radios. Upon completion of the pilots, participating 
practitioners will be interviewed by an independent party to help 
understand how well the pilot achieved its goals and how well the 
product met the expectations of emergency responders. All three phases 
of the project include the documentation of results, which will be 
compiled into a detailed final report on the mission impact and the 
improvement and enhancement of radio communications interoperability.
    DHS S&T undertook the MBR project to equip emergency responders 
with the unprecedented capability of operating across the entire range 
of public safety radio bands. Another goal of this project was to 
encourage additional manufacturers to develop portable radio equipment 
of similar capabilities with a future goal of seeing those 
manufacturers develop and produce a similar mobile, multi-band radio 
for installations in vehicles and mobile command centers (higher power 
version). These efforts have sparked industry's decision to invest in 
similar technologies; thus far, DHS has identified a total of four 
different companies that have developed or are currently developing a 
version of a MBR.
    Looking ahead, software-defined radio technology could provide an 
alternative solution that is expected to advance to a cognitive radio 
technology in the future. A cognitive radio solution would not be 
restricted to specific radio bands allocated to emergency response 
agencies and could therefore access any available unused/authorized 
spectrum available within the region. Ongoing research and development 
initiatives are underway but there are numerous regulatory issues as 
well as technical issues that must be resolved before this type of 
technology will be available.

    Question 14. Our borders and homeland security systems are being 
tested every day by illegal drug smugglers. The illegal drug trade uses 
every tool at its disposal, transporting massive quantities of drugs by 
land, air, and sea. For example, international drug smuggling between 
Washington State and Canada is often done covertly using helicopters. 
And in the eastern Pacific Ocean, drug smugglers are now using 
increasingly sophisticated and hard-to-detect semi-submersible vessels.
    If drug smugglers are able to transport tons of drugs into our 
country each and every day, what does this say about our Nation's 
ability to detect and stop the smuggling of people and weapons for 
other purposes like terrorism? Do you believe that use of increasingly 
sophisticated transport methods like helicopters and semi-submersibles 
are a potential threat to homeland security? Wouldn't an increased 
crackdown against international drug smuggling by agencies like the 
Coast Guard also have a side-benefit of strengthening our Nation's 
anti-terrorism presence?
    Answer. Your question identifies critical issues. It is the primary 
mission of the Department to prevent terrorist attacks within the 
United States and to reduce the vulnerability of the United States to 
terrorism.
    The illicit drug trade is a vast and lucrative enterprise. While it 
is a practical impossibility to stop all illicit trafficking, DHS 
commits nearly four billion dollars a year to support the national drug 
control program, including approximately three billion dollars for drug 
interdiction. DHS works in collaboration with its partners in the 
Departments of Justice, Defense, and State, and with our partner 
nations to most effectively target our intelligence, interdiction, and 
investigations to mitigate the threat posed by illicit drug trafficking 
to the homeland.
    I share your concerns that terrorist organizations may employ the 
means and methods of drug traffickers to move terrorists or weapons of 
mass destruction into the United States. One example of the 
Department's vigilance to reduce the vulnerability to these threats is 
the response to self-propelled semi-submersible (SPSS) vessels. As the 
threat posed by SPSS vessels developed, the Department proactively 
sought legislation to designate the operation of SPSS vessels without 
nationality as illegal and a threat to the security of the United 
States. The resulting Drug Trafficking Vessel Interdiction Act 
established civil and criminal penalties for persons using, navigating, 
or operating SPSS vessels without nationality.
    In the last part of your question, you ask if ``an increased 
crackdown against international drug smuggling by agencies like the 
Coast Guard also have a side-benefit of strengthening our Nation's 
anti-terrorism presence?'' While the reallocation of resources to 
support one mission may result in a ``side-benefit'' to another 
mission, it is important to understand possible detrimental 
consequences--direct and indirectly--of any reallocation of resources 
on efforts to battle terrorism. DHS is committed to identifying the 
appropriate allocation of resources amongst its various missions to 
maximize the ability of the Department to mitigate threats to the 
homeland, and particularly those posed by terrorists and weapons of 
mass destruction.

    Question 15. Given ongoing concerns about cost, schedule, and 
performance issues with major acquisitions such as Deepwater and 
SBInet, what progress has DHS made and what more can be done to ensure 
that DHS acquisitions stay within cost, on schedule, and perform as 
intended?
    Answer. DHS has developed a comprehensive approach that establishes 
acquisition management standards and oversight. Directive 102-1, 
Acquisition Management was issued November 2008 establishing 
acquisition program processes and formal acquisition review boards 
(ARBs) that oversee major departmental programs.
    During an ARB, the program manager (PM) summarizes program status 
relative to cost, schedule and performance. The ARB serves as a forum 
to assess acquisition program progress and bring essential issues to 
the Acquisition Decision Authority (ADA). The ARB also performs a 
staffing function to recommend, along with the PM, decisions and 
courses of action for the ADA who exercises final authority for the 
ARB. Once each ARB is completed, DHS documents it in a formal 
Acquisition Decision Memorandum (ADM) and actively monitors the 
completion of assigned ADM action items. DHS also tracks program 
manager certifications and ARB progress and approval. Since the 
directive was issued, over fifty ARBs have been held, of which five 
were with SBI and six with USCG programs. Additionally, ten USCG 
Acquisition Program Baselines (APBs) were approved by the Departmental 
ADA.
    To complement the ARB process, Component Portfolio Reviews were 
implemented. This process, jointly executed by the Component and the 
Department, supports management of the Component's acquisition 
portfolio and strengthens Departmental governance and oversight. These 
reviews also provide insight as to systemic acquisition risks across 
the Department.
    DHS has designated six Component Acquisition Executives (CAEs) who 
are responsible for program execution at their respective Components. 
The CAE can chair decision meetings for specific programs as delegated 
by the Under Secretary for Management (USM) who is the Department's 
Chief Acquisition Officer (CAO).
    Seven Independent Expert Program Reviews (IEPRs) have also been 
conducted on programs of senior leadership interest that have cross 
cutting areas pertinent to acquisition. In particular, an IEPR for 
SBInet was conducted in FY 2008 and the USCG National Security Cutter 
(NSC) in FY 2009.
    In the future, DHS will continue to expand the oversight and 
governance efforts listed above, as well as taking actions to 
strengthen the acquisition enterprise (such as analyzing the adequacy 
of program staffing for its major program portfolio).

    Question 16. Improving the acquisition workforce has been noted as 
a key acquisition management priority at DHS for the past several 
years. What steps has the department taken to build and sustain a 
sufficient, capable, and properly trained workforce to support DHS's 
acquisition portfolio? What additional actions does the department plan 
to take to strengthen its acquisition workforce?
    Answer. To improve DHS's ability to effectively manage its current 
initiatives and plan strategically for our acquisition work force, the 
Department has taken the following steps:

        1. We established an interim working definition (positions 
        within the Department that devote a minimum of 50 percent of 
        time and responsibilities to performing acquisition duties) of 
        the acquisition workforce that more accurately reflects the 
        number of employees performing acquisition-related functions to 
        guide current efforts, while continuing to formally add career 
        fields to the definition. Currently, DHS has established two 
        acquisition workforce career fields and one acquisition 
        workforce assignment specific specialty: (1) Contract Officers 
        and specialists, (2) program managers, and (3) contracting 
        officer's technical representatives. Further, the Department 
        has initiated the expansion of the acquisition workforce to 
        include Test and Evaluation, Logistics, Systems Engineering, 
        and Program Cost Estimating.

        2: We have leveraged the successful execution of the 
        Department-wide Acquisition Professional Career Program (APCP). 
        This program serves as one initiative to address the 
        Department's shortage of acquisition professionals by 
        recruiting highly motivated and intelligent individuals into 
        entry level acquisition career fields. In addition to growing 
        the Department's acquisition talent, the program also serves to 
        develop a pipeline of future acquisition leaders and to 
        facilitate the goal of establishing the culture of One DHS.

        The APCP program began in 2008 and since that time has grown to 
        109 participants. By the end of FY 2010 program will grow to 
        200 positions and in FY 2011 the program expects to reach its 
        full end strength of 300 positions. Since 2008, the program has 
        focused on recruiting contract specialists, but, in September 
        2009, DHS hired its first ``technical cohort'' that consisted 
        of 13 participants to include acquisition program managers and 
        systems engineers. In Fiscal Year 2010 and 2011, the program 
        will expand to other acquisition career fields to include 
        Business Cost Estimators, Information Technology Specialists, 
        and Logisticians. This program is expected, once fully 
        implemented, to add up to one hundred fully trained and 
        certified new acquisition professionals to the DHS Acquisition 
        workforce every year to offset losses from retirements and 
        transfers to non DHS agencies.

        3. We have developed a comprehensive implementation plan to 
        execute the existing DHS acquisition workforce initiatives, 
        including:

  <bullet> Developing and executing a Department-wide Acquisition 
        Workforce Human Capital and Succession Plan in accordance with 
        the FY 2008 National Defense Authorization Act.

  <bullet> Continuing the successful use of the direct hire and 
        reemployed annuitant hiring flexibilities to expedite hiring 
        and to fill critical vacancies.

  <bullet> Implementing the centralized hiring concept through 
        assumption of the lead role in all Department-wide acquisition-
        related vacancy announcement postings.

        4. The Chief Procurement Officer has coordinated with the 
        Department's Chief Human Capital Office to establish a joint 
        process for coordinating future acquisition workforce planning 
        efforts with the components for the purposes of informing 
        Department-wide planning efforts.

        5. Improving the collection and maintenance of data on the 
        acquisition workforce by the following:

  <bullet> Assessing what additional data on current acquisition 
        workforce members, such as attrition data, would help inform 
        workforce planning efforts and then developing a strategy to 
        collect that information.

  <bullet> Expanding the collection of acquisition workforce data from 
        the appropriate component point of contact to include all 
        positions that DHS determines to be acquisition-related.

  <bullet> Conducting an assessment of options for creating systems to 
        maintain comprehensive acquisition workforce data and selecting 
        the appropriate system.

        6. The Office of the Chief Procurement Officer, Acquisition 
        Workforce Branch is responsible for providing career 
        development training for the entire DHS acquisition work force. 
        Future acquisition workforce growth and succession requirements 
        as well as competition for talent between other agencies and 
        the components has raised concerns that reliance on these 
        outside training sources will not satisfy DHS's long-term needs 
        to train and retain employees. To that end, DHS has established 
        a centralized DHS Acquisition Workforce Training and 
        Certifications Offices to meet the expanding requirements and 
        has increased throughput of students completing certification 
        training to fill operational positions within the DHS 
        headquarters and Components.
    Since its establishment in 2007, the Acquisition Workforce Branch 
(AWF) Training Team has relied on various sources for the development 
and delivery of acquisition-related training as a means to satisfy its 
certification training and continuous learning requirements. The goals 
of these offices are to:

  <bullet> Develop and execute a centralized acquisition workforce 
        training program comprised of certification, targeted, and 
        continuous learning developmental training opportunities.

  <bullet> Further expand, in addition to Contracting, Program Manager, 
        and Contracting Officers Technical Representative certification 
        programs, the DHS definition of the Acquisition Workforce by 
        developing the Test and Evaluation career field by the end of 
        the 2009 calendar year and begin drafting the Logistics and 
        Systems Engineering career field certification programs.

  <bullet> Publish a DHS course catalog and acquisition training 
        curriculum.

  <bullet> Implement a DHS wide online central registration and 
        certification system.
    The Acquisition Training Office was established near the end of the 
2007 Fiscal Year. In its first full training year, approximately 1,200 
seats were available to be allocated for training. The FY 2010 training 
program is projected to offer over 8,000 training seats. This 
represents almost a 1000 percent increase in training throughput 
capacity in two short years.
    Student training and certification figures;

    FY08 Training Catalog and Calendar
  <bullet> 14 = Total number of titles in FY08 catalog
  <bullet> 47 = Total number of classes scheduled
  <bullet> 1,200 = Approx. number of seats available for all of FY08
  <bullet> 820 = Approx. number of students enrolled

    FY09 Training Catalog and Calendar
  <bullet> 42 = Total number of titles in FY09 catalog
  <bullet> 293 = Total number of classes scheduled
  <bullet> 7,900 = Approx. number of seats available for all of FY09
  <bullet> 6,785 = Approx number of students enrollments processed to 
        date

    FY10 Proposed Catalog and Calendar
  <bullet> 52 = Total number of titles in proposed FY10 catalog
  <bullet> 283 = Total number of classes proposed to be scheduled
  <bullet> 8,500 = Approx. number seats available for all of FY10

    FAC-C Certifications Issued (Levels I, II, and III)
  <bullet> FY2007: 163
  <bullet> FY2008: 450
  <bullet> FY2009: 478

    DHS Program Management Certifications Issued (Levels I, II, and 
III)
  <bullet> FY2007: 279
  <bullet> FY2008: 517
  <bullet> FY2009: 694

    COTR Certifications Issued
  <bullet> FY2007: 2,199
  <bullet> FY2008: 2,281
  <bullet> FY2009: 2,116

    Average Cost per Student
    Through the use of consolidated training contracts and a 
centralized reservation system, the Acquisition Workforce Training Team 
decreased the average training cost from approximately $2,000 per 
student to approximately $250 per training seat. Further consolidation 
efficiencies will continue to drive cost lower while standardizing the 
acquisition workforce training requirements to meet the departments' 
needs.

    Question 17. The Coast Guard Authorization Act for Fiscal Years 
2010 and 2011, of which I am the lead sponsor, includes numerous 
provisions to strengthen the Coast Guard, including a significant 
overhaul of the Coast Guard's acquisition programs. I strongly believe 
that we need to end the misuse of lead systems integrator approaches to 
acquisition and build a system of serious accountability. How important 
is it for the Coast Guard Authorization bill to be enacted this 
Congress? Can you please comment on the importance of the bill's Coast 
Guard acquisition reforms to help protect taxpayers, end wasteful 
spending, and provide the Coast Guard with the assets it needs to 
protect our Nation?
    Answer. Enactment of an Authorization Act for the Coast Guard is 
essential. I believe that such legislation must include provisions--
such as section 301 (Vice commandant; vice admirals) of S. 1194--that 
would enhance the efficiency and effectiveness of the Coast Guard and, 
by extension, the safety and security of the United States.
    The Department and the Coast Guard remain committed to adopting and 
implementing the acquisition reforms contained in S. 1194--the evidence 
of which is the significant department-wide improvements already 
implemented in acquisition policy, processes, and execution. I believe 
that such reforms could strengthen and solidify these improvements; 
thus, these reforms are important, not only to the Service, the 
Department, and the Government, but ultimately to the American people.
    Broadly speaking, I believe that acquisition reform, particularly 
those for an individual component, must not have a deleterious effect 
on either the Department's ability to manage and oversee component 
acquisition activities or my authority to unify departmental policies 
and practices. I stand ready to assist in whatever manner to ensure the 
swift enactment of an Authorization Act for the Coast Guard, and I look 
forward to working with you, this Committee, and Congress to ensure 
that these acquisition reforms are included--specifically, in a manner 
consistent with departmental policy and guidance.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                         Hon. Janet Napolitano
    Question 1. Two years ago, Congress acted to require one hundred 
percent scanning of all shipping containers coming to the U.S. However, 
right now we are only scanning less than 5 percent of all U.S.-bound 
containers and the GAO found that one hundred percent screening has not 
been achieved at even one port. Can you identify any concrete, specific 
improvements in cargo scanning that have been made by this 
Administration since January?
    Answer. CBP's Secure Freight Initiative (SFI) is the Agency's 
program to deploy scanning and imaging systems overseas to meet the 100 
percent scanning mandate of the 9/11 Commission Recommendation Act. SFI 
has produced positive results in identifying needed improvements to 
current technologies to enable CBP to detect anomalies in containerized 
shipments via imaging systems. CBP continues to work with the vendors 
of imaging systems to integrate these upgrades into the next generation 
scanning systems.
    SFI has scanning systems deployed at the Ports of Qasim, Pakistan; 
Southampton, United Kingdom; Puerto Cortes, Honduras; and Busan, Korea 
and anticipates being fully operational at the Port of Salalah, Oman in 
April 2010. SFI operations at these ports continue to provide CBP with 
data to enhance risk targeting, the ability to test system and scanning 
technology enhancements, and experience and lessons learned to evaluate 
potential additional locations that would strategically enhance CBP's 
targeting efforts.

    Question 2. The 9/11 Commission highlighted the importance of 
securing mass transit and passenger rail. The 9/11 Act we passed in 
2007 set deadlines for securing our surface transportation networks, 
but TSA has missed many of these deadlines. How much longer will it 
take for TSA to meet these deadlines, including the comprehensive risk 
assessment and national security strategy for the rail sector that is 
due this month?
    Answer. The Transportation Security Administration (TSA) is 
currently working on a set of risk assessments in response to several 
congressional mandates and Government Accountability Office 
recommendations. These reports, including the freight rail risk 
assessment and national security strategy required by section 1511 of 
the Implementing Recommendations of the 9/11 Commission Act of 2007, 
are expected to be completed and submitted to the Department of 
Homeland Security (DHS) and the Office of Management and Budget (OMB) 
in the near future. TSA is also working on a Notice of Proposed 
Rulemaking (NPRM) that would require employee security training program 
requirements for surface modes of transportation. These include freight 
railroad carriers, public transportation agencies (including rail mass 
transit and bus systems), passenger railroad carriers, over-the-road 
bus operators, and motor carriers transporting Highway Security-
Sensitive Materials.

    Question 3. Worldwide, mass transit and passenger rail have been 
frequent targets of terrorist attacks. Just last week a terrorist 
bombing of a Russian train resulted in the loss of twenty six lives. 
Yet our transportation security efforts have focused almost exclusively 
on aviation. What immediate steps is this Administration taking to 
protect the millions of Americans who travel by mass transit and 
passenger rail?
    Answer. The Administration is advancing a multi-faceted strategy to 
protect passengers traveling in mass transit and passenger rail systems 
through the following priority areas:

  <bullet> Rail Transportation Security Rule--The Transportation 
        Security Administration (TSA) issued a final rule to enhance 
        the security of our Nation's rail transportation system, which 
        included requirements for intercity, commuter, and short-haul 
        passenger train service providers and rail transit systems. See 
        73 FR 72130, November 26, 2008.

    <ctr-circle> The rule codifies the scope of TSA's existing 
            inspection program and requires regulated parties to allow 
            TSA and Department of Homeland Security officials to enter, 
            inspect, and test property, facilities, conveyances, and 
            records relevant to rail security.

    <ctr-circle> The rule also requires that regulated parties 
            designate rail security coordinators and report significant 
            security concerns.

  <bullet> Security Training Programs for Surface Mode Employees--
        Pursuant to the Implementing Recommendations of the 9/11 
        Commission Act of 2007, TSA is developing a Notice of Proposed 
        Rulemaking (NPRM) that would require employee security training 
        program requirements for surface modes of transportation.

    <ctr-circle> The NPRM would cover public transportation agencies 
            (including rail mass transit and bus systems) and passenger 
            railroad carriers, as well as freight railroad carriers, 
            over-the-road bus operators, and motor carriers 
            transporting Highway Security-Sensitive Materials (HSSM).

    <ctr-circle> The NPRM will propose minimum elements for the 
            training programs addressing security awareness, terrorist 
            behavior recognition, and threat and incident prevention 
            and response for frontline employees.

  <bullet> Protect High Risk Assets and Systems--Targeting grant 
        investments through the Transit Security Grant Program for 
        Fiscal Year (FY) 2009 and the American Recovery and 
        Reinvestment Act (ARRA) of 2009, totaling nearly $525 million, 
        for expanded operational capabilities and enhanced protection 
        of critical infrastructure.

    <ctr-circle> Of note, nearly $78 million of the $150 million 
            awarded under ARRA specifically focuses on expanding 
            capabilities for visible, unpredictable deterrence through 
            the funding of dedicated law enforcement anti-terrorism 
            teams, including explosives detection canine teams and 
            mobile explosives detection screening, and reducing risk in 
            transit systems.

    <ctr-circle> TSA augments these growing capabilities with 
            deployment of Visible Intermodal Prevention and Response 
            (VIPR) teams. Through a joint planning process between TSA, 
            the transit or rail agency's law enforcement and security 
            team, and local law enforcement officials, the VIPR team's 
            composition and activities are tailored to the needs of the 
            participating system. VIPR teams provide a range of 
            capabilities to enhance detection and deterrence in mass 
            transit and passenger rail, including surveillance 
            detection, behavior observation, mobile explosive trace 
            detection for random bag inspections, explosives detection 
            canine teams, specialization to resolve suspected explosive 
            devices, and other visible, random, and unpredictable 
            security activities. During 2009, TSA conducted more than 
            1,050 VIPR operations with mass transit and passenger rail 
            systems across the Nation.

    <ctr-circle> Amtrak and TSA have jointly planned and executed 
            large-scale, integrated rail security operations in the 
            Northeast Corridor, which encompasses the largest 
            concentration of passenger rail services and highest volume 
            of passengers in the Nation. The most recent operation 
            unified law enforcement officers from 149 departments in an 
            unannounced surge to 157 passenger rail stations from 
            Richmond, VA, to Portland, ME, during morning rush hours of 
            September 9, 2009. These operations have provided a 
            foundation for recurring, joint security activities between 
            Amtrak and law enforcement partners throughout the 
            Northeast Corridor. TSA coordinates with mass transit and 
            passenger rail systems in a risk-based approach in other 
            metropolitan areas to advance similar approaches.

  <bullet> Elevate the Security Baseline--Pursuing continuous 
        improvement through comprehensive security assessments under 
        the Baseline Assessment for Security Enhancement (BASE) 
        program, use of the results to inform security enhancement 
        priorities, follow-up to assist in security enhancement with 
        the assessed agencies, and broad sharing of the most effective 
        practices identified in the assessments.

    <ctr-circle> TSA surface transportation security inspectors 
            conducted more than 40 BASE assessments during 2009.

    <ctr-circle> In December, TSA distributed an updated compilation of 
            smart security practices drawn from the assessment results 
            to law enforcement chiefs and security officials in mass 
            transit and passenger rail agencies. This compilation 
            consists of 80 smart security practices, many of which 
            focus on regional partnerships, random security patrols, 
            sweeps, and surges, and intelligence and security 
            information sharing, and training and public awareness. Its 
            specific purpose is to foster communication among security 
            professionals in mass transit and passenger rail nationally 
            with the specific objective of expanding adoption of these 
            most effective practices, tailored as necessary to each 
            agency's operating environment.

  <bullet> Build Security Force Multipliers--Expanding informed, 
        capable ``eyes and ears'' for security through targeted grants 
        awards during FY 2009 for employee security training, anti-
        terrorism exercises, and public awareness campaigns, and 
        specially trained and equipped anti-terrorism law enforcement 
        teams and technological systems to enhance detection and 
        deterrent capabilities. TSA augments these capabilities through 
        focused support programs, including the following conducted 
        during 2009:

    <ctr-circle> Intermodal Security Training and Exercise Program (I-
            STEP), designed specifically to enhance capabilities of 
            regional security partners to work collaboratively to 
            enhance capabilities to prevent acts of terrorism through 
            joint workshops conducted over a period of months and a 
            regional table top exercise.

    <ctr-circle> Bomb Squad Response to Transportation Systems--Mass 
            Transit, which uses training and scenario-based exercises 
            to expand regional capabilities to respond to a threat or 
            incident involving a suspected explosive device in mass 
            transit and passenger rail systems by placing bomb 
            technicians from law enforcement forces in a transit or 
            rail system's operating area in situations requiring 
            coordinated planning and execution of operations to 
            identify, resolve, and, if appropriate, render harmless 
            improvised explosive devices.

    <ctr-circle> Employee Vigilance Campaign, which, under the theme of 
            ``NOT ON MY SHIFT,'' employs professionally-designed 
            posters to emphasize the essential role that mass transit 
            and passenger rail employees play in security and terrorism 
            prevention in their systems. Adaptable templates enable 
            each transit agency to tailor the product to its operations 
            by including the system's logo, photographs of their own 
            agency's employees at work, and quotes from the senior 
            leadership, law enforcement and security officials, or 
            frontline employees. The unified Federal/local message is 
            conveyed by the inclusion of the Department of Homeland 
            Security seal alongside the agency's logo.

  <bullet> Lead Information Assurance--Employing the full range of 
        capabilities to ensure timely delivery of intelligence and 
        security information, at classified and unclassified levels, to 
        mass transit and passenger rail security officials.

    <ctr-circle> During 2009, a joint DHS Office of Intelligence and 
            Analysis, TSA Office of Intelligence, and Federal Bureau of 
            Investigation effort provided classified intelligence and 
            analysis presentations to mass transit and passenger rail 
            security directors and law enforcement chiefs in more than 
            20 metropolitan areas simultaneously through the Joint 
            Terrorism Task Force (JTTF) network's secure video 
            teleconferencing system. These briefings, held in July and 
            December 2009, advance two key strategic objectives--
            providing intelligence and security information directly to 
            mass transit and passenger rail law enforcement chiefs and 
            security directors and enhancing regional collaboration by 
            bringing these officials together with their Federal 
            partners to discuss the implications for their areas and 
            coordinate to implement effective security solutions. The 
            briefings will continue on approximately a quarterly to 
            semi-annual basis, with additional sessions as threat 
            developments may warrant.

    <ctr-circle> At the unclassified level, TSA periodically produces 
            and disseminates Mass Transit Security Awareness Messages 
            that address developments related to terrorist activity and 
            tactics against mass transit and passenger rail.

  <bullet> Expand Partnerships for Security Enhancement--Engaging 
        continuously with senior executives, law enforcement chiefs, 
        and security managers for mass transit and passenger rail 
        agencies; State and local government officials, law 
        enforcement, and emergency responders; and Federal partners to 
        foster regional security coordination and to integrate the 
        spectrum of available resources for enhanced deterrent and 
        response capabilities.

    <ctr-circle> In the Department, the Office of Inter-Governmental 
            Programs oversees this outreach, ensuring close 
            coordination at all levels of government on security 
            enhancement activities and actions to address a threat or 
            incident. TSA has made outreach to, and cooperation with, 
            governmental and industry partners the central element of 
            its security enhancement activities.

    <ctr-circle> In 2009, TSA, with its Federal partners, most notably 
            the Federal Transit Administration (FTA) and the FBI, held 
            two joint meetings with the Mass Transit Sector 
            Coordinating Council (SCC), which represents corporate and 
            employee interests through representatives from the 
            American Public Transportation Association (APTA), the 
            Community Transportation Association of America (CTAA), 
            Amalgamated Transit Union (ATU), Amtrak, and individual 
            transit agencies representative of the community in system 
            size and geographic spread, as well as representation of 
            business organizations providing support services to the 
            public transportation industry. These sessions streamline 
            the coordination process between government and the transit 
            industry, helping to advance a partnership in developing 
            and implementing security programs.

    <ctr-circle> TSA also consulted extensively with the Transit 
            Policing and Security Peer Advisory Group (PAG), which 
            consists of law enforcement chiefs and security directors 
            from 15 mass transit and passenger rail agencies of varying 
            size, types of services, and locations. The collective 
            expertise and diverse experiences of the Group provide 
            invaluable practical context to TSA's policy and program 
            development and implementation, assuring that developing 
            security enhancement programs and initiatives align with 
            operational realities in mass transit and passenger rail 
            systems. Ten teleconferences and one joint meeting were 
            held with the Group during 2009.

    <ctr-circle> Finally, TSA and DOT's Federal Transit Administration 
            (FTA) jointly sponsored two Transit Security and Safety 
            Roundtables, which brought together law enforcement chiefs, 
            security directors, and safety directors from the Nation's 
            50 largest mass transit and passenger rail agencies and 
            Amtrak with Federal security partners. In a workshop 
            format, the participants discuss specific terrorism 
            prevention and response challenges and work collaboratively 
            in developing effective risk mitigation and security 
            enhancement solutions. The Roundtables also enabled the 
            transit agencies safety and security officials to share 
            effective practices and develop relationships to improve 
            coordination and collaboration.

    Question 4. Maritime workers are required to go through background 
checks and obtain biometric I-D cards to gain access to our ports. Now 
that the deadline for workers to obtain these TWIC cards has been met, 
TSA must focus on deploying technology that can be used to accurately 
read the cards. How long will it be before our ports have the 
technology in place to read TWIC cards?
    Answer. As required by the Security and Accountability For Every 
Port Act of 2006, DHS will implement final reader requirements through 
the rulemaking process. DHS intends to issue regulations that require 
owners and operators of MTSA regulated vessels and facilities to have 
and use TWIC readers in access control systems. The law requires DHS to 
conduct a card reader pilot program to test the business processes and 
technology required to deploy transportation security card readers. The 
pilot also will examine operational impacts for vessel and facility 
owners and operators.
    Currently there are a total of 24 participants in 9 different 
geographic locations representing a broad sampling of MTSA-regulated 
facility and vessel operations (EOA/ST&E start dates included):

  <bullet> Port Authority of Brownsville, TX (early April 2009).

  <bullet> Watermark Cruises, Annapolis, MD (early May 2009).

  <bullet> Magnolia Marine, Mississippi (mid-May 2009).

  <bullet> Staten Island Ferry (early June 2009).

  <bullet> Clipper Navigation, Seattle, WA (late August 2009).

  <bullet> Port Authority of New York and New Jersey (planned February 
        2010).

  <bullet> Port Authority of Los Angeles (planned February 2010).

  <bullet> Port Authority of Long Beach (planned January 2010).

  <bullet> APM Terminal, Portsmouth, VA (planned January 2010).

  <bullet> Exxon/Mobil, Baton Rouge, LA(planned January 2010).

  <bullet> Shell Norco, Norco, LA (planned January 2010).

    The statute further requires that any final TWIC card reader rule 
be consistent with the findings of the pilot program. DHS intends to 
issue a rule after the final TWIC card reader pilot program report is 
made public, incorporating the data and conclusions into the rule and 
its supporting analyses. This will ensure the public has ample time to 
review both the rule and the report before DHS implements a final rule.
    At this time there is no requirement for ports to use readers and 
the TWIC reader pilot program has not been completed. Once a final rule 
is published, DHS anticipates a phase-in period at the ports with the 
reader technology.

    Question 5. In its last budget submitted to Congress, the 
Administration requested two-hundred and fifty million dollars for port 
security grants, a one hundred fifty million dollar cut from the 
program's authorized level. As the President formulates his budget for 
next year, will you recommend that he request the full authorized 
amount of funding for the Port Security grant program?
    Answer. Section 112 of the Security and Accountability for Every 
Port Act of 2006 (SAFE Port Act) amended 46USC  70107 and authorizes 
$400,000,000 for the Port Security Grant Program (PSGP) for Fiscal 
Years (FY) 2007 through 2011.
    Although there was a reduction in the President's budget between FY 
2009 and FY 2010, the PSGP was appropriated at its full authorized 
amount for FY 2009 and received an additional appropriation of 
$150,000,000 through the American Recovery and Reinvestment Act of 
2009, providing a total of $550,000,000 for the program.
    Further, while the SAFE Port Act establishes a maximum amount for 
PSGP, other factors including the ability of grantees to absorb 
additional funding affect our ability to allocate funds responsibly and 
effectively.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                         Hon. Janet Napolitano
    Question 1. I realize that your agency is not directly responsible 
for inspection or overseeing foreign repair stations. But what is your 
view on how we certify and inspect foreign repair stations? Does the 
lack of regular inspections of foreign repair stations raise security 
concerns for your department? Aren't proper inspections and review also 
paramount for aviation security so that we have a better handle on the 
process and people involved in maintaining airplanes?
    Answer. The Transportation Security Administration (TSA) published 
a Notice of Proposed Rulemaking (NPRM) on November 18, 2009, which 
proposes to issue regulations to improve the security of Aircraft 
Repair Stations as required by Public Law 108-176: The Vision 100--
Century of Aviation Reauthorization Act of 2003. The NPRM proposes to 
establish requirements for aircraft repair stations to adopt and 
implement a standard security program, and to comply with security 
directives issued by TSA. This rule also proposes to codify the scope 
of TSA's existing inspection program and to require regulated parties 
to allow TSA and Department of Homeland Security officials to enter, 
inspect, and test property, facilities, and records relevant to repair 
stations. The comment period for the NPRM was extended to February 19, 
2010.

    Question 2. I'm aware that putting in security measures for the 
airline operations has been a significant challenge because of the 
diversity of aircraft, airports and operations across the country. I'm 
aware that there are increased background checks for pilot training. 
What about for airline mechanics? What can be done to check the 
backgrounds of mechanics at foreign repair stations? Is there any good 
way to track this?
    Answer. The Transportation Security Administration's (TSA) proposed 
security regulations will require repair stations certificated by the 
FAA under 14 CFR part 145, to adopt a security program that will 
include the measures by which the repair station verifies the 
employment history of its employees and conducts background checks to 
the extent permitted by the laws of the country in which the repair 
station is located. TSA will use the inspection process to make sure 
that the verification measures listed in the security program are 
adequate.

    Question 3. Regarding the sole-source agreement with the American 
Association of Airport Executives (AAAE) to process security data for 
airport workers, are you planning to compete this contract when it 
expires in October 2010? If not, why not? It seems clear this sole-
source justification is, in the nicest terms, a stretch: We are 
requiring a simple transactional service--about 4 secure e-mails to be 
exact--and there are plenty of other players in the field. Isn't this a 
no-brainer? In this economic climate, how can we not be doing 
everything in our power to get the best value for our already 
struggling airports?
    Answer. In examining the current aviation worker vetting process, a 
primary objective of the Transportation Security Administration (TSA) 
is to maintain or improve upon existing security standards and 
practices. In furtherance of this objective, TSA is currently 
establishing data submission standards and data security requirements. 
TSA expects that multiple companies will qualify to meet the submission 
and security requirements. TSA is supportive of a model that promotes 
competition and airport choice and is currently evaluating several 
options that would achieve this. TSA anticipates that competition and 
airport choice in this area will yield process enhancements and 
security capabilities that operationally improve aviation worker 
background checks. TSA plans to engage industry in the first quarter of 
CY 2010 regarding its plans.

    Question 4. You've had almost a year now to get a handle on the 
contracting environment at DHS. Do you know about how many other sole-
source contracts like this exist? What's your plan to root out the ones 
that are not mission-critical and promote full and open competition 
across the Department?
    Answer. While securing the Homeland through the acquisition of 
products and services is essential to our mission, executing contracts 
that represent good business is a priority as well. This includes 
maximizing competition and small business opportunities. We believe 
that the practices we have instituted in past years, coupled with new 
initiatives being implemented in FY2010, provide a strong mitigation 
strategy for reducing and/or eliminating the use of inappropriate sole 
source contracts.
    A summary of our recent achievements and our key initiatives in the 
area of competition are discussed below.
I. Competition at the Department of Homeland Security
    The strength of DHS's Competition Advocacy Program is reflected in 
continuing improvement in the Department's level of competition. As 
indicated in the table below, Fiscal Year (FY) 2007 marked a recovery 
by DHS to pre-Katrina levels of competition. Further in FY 2008 and FY 
2009 DHS achieved a level of competition equaling or exceeding 70 
percent, well above the Government wide average of 64 percent.
    Seven out of eight DHS Components met or exceeded their FY 2009 
competition goals, and six out of eight DHS Components achieved a 
competition rate (in terms of competitive obligations) of 70 percent or 
greater.

                              DHS Summary Competition Data: Fiscal Years 2003-2009

                                         Percentage of Contract
              Fiscal Year                   Dollars Competed                     Competed Dollars

FY03                                                        71%                                  $2,771,342,335
FY04                                                        72%                                  $5,116,950,676
FY05                                                        56%                                  $5,945,514,066
FY06                                                        48%                                  $7,353,642,377
FY07                                                        69%                                  $8,144,115,845
FY08                                                        75%                                 $10,208,340,211
FY09                                                        76%                                 $10,130,114,603


      <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                                  
    Source: FPDS-NG, FY 2009 Data as of 11/30/2009.
II. Competition Program Monitoring and Oversight
    The Chief Procurement Officer (CPO) and the DHS Competition 
Advocate monitor competition data as reported to the Federal 
Procurement Data System on a monthly basis. Mid-year reports are 
provided to the Chief Procurement Officer and to Heads of the 
Contracting Activities regarding year-to-date competitive 
accomplishments versus established goals. Corrective action plans are 
requested of Components with mid-year goal/achievement gaps greater 
than 10 percentage points.
    In addition to monitoring Component competitive accomplishments 
versus competitive obligation goals, progress related to two new 
metrics will be monitored as part of the Competition Advocate's 
monthly, quarterly, and mid-year reports beginning in Fiscal Year 2010. 
These new metrics, reducing by 10 percent the percentage of 
noncompetitive and one bid contracts, are being added consistent with 
Office of Management and Budget (OMB) Memorandum M-09-25, Improving 
Government Acquisition, dated July 29, 2009, and Office of Federal 
Procurement Policy (OFPP) memorandum Increasing Competition and 
Structuring Contracts for the Best Results, dated October 27, 2009. As 
part of this effort, the Office of the Chief Procurement Officer has 
established individual goals for each component and is providing 
monthly updates to each component on their progress to date.
    DHS is also involved in several post-award internal reviews of 
noncompetitive contract awards. The DHS oversight division of the 
Office of the Chief Procurement Officer recently completed a review of 
sole source awards made during the period of April 1, 2008 through 
March 31, 2009. The purpose of this review was to determine whether DHS 
components are awarding noncompetitive contracts in accordance with the 
provisions at Federal Acquisition Regulation (FAR) Part 6.3, the 
Homeland Security Acquisition Regulations (HSAR), the Homeland Security 
Acquisition Manual (HSAM) and DHS acquisition policies and guidance. 
Also considered was a focus on the components' use of good business 
judgment and adequate supporting rationale. The final report for this 
review, including identification of opportunities for improvement and 
associated recommendations, will be issued in February, 2010.
    Furthermore, in accordance with DHS appropriations requirements, 
the DHS Office of Inspector General is directed to audit and report 
annually on contracts awarded during the previous Fiscal Year through 
other than full and open competition to determine compliance with 
applicable laws and regulation. In October 2009, the DHS Office of 
Inspector General began conducting simultaneous audits of DHS 
competition for FYs 2008 and 2009. The reports for both FY2008 and 2009 
are anticipated to be issued in February, 2010. In addition, the 
Government Accountability Office (GAO) recently opened an engagement 
assessing the extent of noncompetitive contracting, including sole 
source, in the Federal Government's procurement of goods and services 
(GAO Code 120850) to include review of the Department of Homeland 
Security Competition Program.
III. Policies and Processes
    The DHS competition policy conforms with that of the Federal 
Acquisition Regulation and the Homeland Security Acquisition Manual. 
OCPO Regulatory Advisories and Acquisition Alerts provide DHS 
Components with accurate and timely information regarding new 
regulatory, data collection and reporting, and procedural requirements 
affecting Federal, Department wide, and Component competition programs. 
On October 1, 2009, the third edition of the HSAM was issued containing 
comprehensive and updated policy guidance related to competition. 
Included in the HSAM are a new comprehensive DHS Market Research Guide, 
an expanded and revised Acquisition Planning Guide, and a Guide for 
Justification and Approval for Other Than Full and Open Competition 
(including the requirement to post noncompetitive J&As to 
FedBizOpps.gov).
    In accordance with FAR 6.5 and Homeland Security Acquisition Manual 
(HSAM) 3006.5, annual Procuring Activity Competition Advocate 
competition reports are submitted to the DHS Competition Advocate. The 
reports describe Component accomplishments over the past Fiscal Year 
and plans for the upcoming Fiscal Year including those for increasing 
competition, the acquisition of commercial items, challenging barriers 
to competition and commercial item acquisition, and initiatives that 
ensure task and delivery orders over $1,000,000 issued under multiple 
award contracts are properly planned and issued. Component competition 
reports are reviewed and used to support compilation of the DHS 
Competition Advocate Report to the Senior Procurement Executive and the 
Office of Federal Procurement Policy. Instructions for preparing FY 
2009 Procuring Activity Competition Advocate Reports integrates 
requirements associated with OMB Memorandum M-09-25, Improving 
Government Acquisition, DHS implementing instructions dated October 14, 
2009, and OFPP memorandum Increasing Competition and Structuring 
Contracts for the Best Results, dated October 27, 2009.
IV. Awards, Incentives, and Outreach
    In July 2007, the DHS Competition Advocate established the DHS 
Competition and Acquisition Excellence Awards Program as a means of 
renewing and increasing acquisition workforce interest in competition 
and related innovative procurement practices by recognizing and 
rewarding individuals and teams for outstanding contributions to the 
enhancement of competition and the use of innovative and best 
procurement practices. Thirteen nominations were received from across 
the DHS organization during the award program's inaugural year. Seven 
teams and individuals were selected for recognition, their efforts 
collectively resulting in estimated cost avoidance/cost savings of over 
$5.2 million. In a July 18, 2008 memorandum, the Office of Federal 
Procurement Policy (OFPP) cited the DHS FY 2007 Competition and 
Acquisition Excellence Awards Program as an example for agencies 
considering establishment of programs to recognize employee 
contributions to improving competition. Six out of eight DHS Components 
submitted nominations for the DHS FY 2008 Competition and Acquisition 
Excellence Award. Two individuals, one contracting activity, and three 
teams were recognized for outstanding results in competition and the 
use of innovative and best practices. The DHS Competition and 
Acquisition Excellence Awards Program call for nominations recognizing 
FY 2009 accomplishments was issued on December 4, 2009.
    In numerous cases, including but not limited to the DHS Competition 
Program, issuance of revised acquisition policy or regulations is 
accompanied by specialized training provided to Components. For 
example, in anticipation of implementation of the interim FAR rule on 
the public disclosure of Justification and Approval (J&A) documents for 
noncompetitive contracts (FAR Case 2008-003), Justification and 
Approval development, review, and posting training was provided to 75 
ICE participants in two 90-minute sessions on February 12 and 17, 2009.
    The DHS Chief Procurement Officer hosts an annual DHS Industry Day 
in Washington, DC to provide a forum to better communicate DHS 
requirements and increase competition and use of commercial items by 
sharing information with Federal contractors and other business 
representatives interested in DHS contracting and subcontracting 
opportunities.
V. Summary
    We believe that our established policies, continued monitoring of 
component progress, upfront and post award reviews, and proven 
management commitment provide a strong deterrent against and timely 
identification of potentially inappropriate sole source contracts. 
DHS's focus on its Competition Advocacy Program through closer 
coordination with Components, expanded Department wide policy, tailored 
training, recognition programs and enhanced oversight has resulted in a 
robust program in which the Department takes pride. The FY 2009 level 
of competition, at 76 percent, is a testament to the Competition 
Advocacy Program's success. DHS is committed to building upon this 
foundation by continuing to strongly implement our current initiatives 
and seeking new initiatives to best promote full and open competition 
across the department.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                         Hon. Janet Napolitano
    Question 1. As you can see, there is a great deal of confusion 
about what the policies are and how they should be implemented. In 
order to clarify the current WBI policy, please answer the following: 
If a passenger walks up to a WBI machine, realizes what it is, and 
tells a Transportation Security Officer that he does not want to go 
through the WBI screening, what is the correct procedure for the TSO to 
follow?
    Answer. If a passenger gets in line for advanced imaging technology 
(AIT), formerly referred to as whole body imaging, screening without 
being directed by the Transportation Security Administration (TSA) to 
do so and then realizes that he or she is in the wrong line, TSA will 
allow that passenger to undergo walk-through metal detector screening. 
If TSA directs a passenger to the AIT for screening and the passenger 
then refuses, TSA will conduct a pat down of the passenger as an 
alternative to the AIT.

    Question 2. If a TSO directs a passenger to a WBI machine because 
it is the shortest line, and the passenger states that she wants to go 
through a metal detector, what is the correct policy for a TSO to 
follow?
    Answer. This will be treated as a passenger opting out of advanced 
imaging technology screening, and the passenger will be required to 
undergo a pat-down search.

    Question 3. If there are both metal detectors and WBI machines 
being used as primary screening devices at the same checkpoint, do 
passengers who go through the metal detector without setting it off 
receive any secondary screening, such as a pat-down?
    Answer. A passenger undergoes screening via the primary screening 
device as directed by the Transportation Security Administration (TSA). 
For instance, if a Transportation Security Officer (TSO) directs a 
passenger to advanced imaging technology (AIT) screening, that 
passenger will undergo the AIT screening standard operating procedures 
(SOP). If a TSO directs a passenger to the walk-through metal detector 
(WTMD), that passenger will undergo the WTMD screening SOP. A passenger 
who does not alarm the WTMD may receive a pat down if random screening 
protocols are being conducted at that time or if the passenger is 
wearing bulky clothing that the TSO believes could conceal a non-metal 
prohibited item.

    Question 4. If a secondary pat-down is not mandatory for all 
passengers going through a metal detector at check points with both WBI 
and metal detectors, how does this prevent terrorists from simply 
choosing to go through a metal detector?
    Answer. Passengers who go through the walk-through metal detector 
may receive a pat down, which is conducted to detect non-metallic 
threat items. A pat down may be conducted on a random basis or if the 
passenger is wearing bulky clothing that the Transportation Security 
Officer believes could conceal a non-metallic prohibited item.

    Question 5. TSA stated policy--Passengers who do not wish to 
utilize this screening will use the walk-through metal detector and 
undergo a pat-down procedure to ensure they receive an equal level of 
screening. I do not believe these are acceptable options--either go 
through a machine that allows a TSO to see under a highly invasive 
image of the passenger or have a TSO give a passenger a full pat-down. 
What steps is TSA taking to accommodate passengers who have legitimate 
concerns that either option is an unreasonable privacy violation?
    Answer. The Transportation Security Administration (TSA) has 
evaluated the privacy implications of the advanced imaging technology 
and screening process, and has incorporated features that effectively 
protect the privacy of the individual. TSA has provided the greatest 
level of choice consistent with the need to provide adequate security. 
TSA has determined that threats to the aviation domain do not remain 
static and are currently evolving to include non-metallic threat 
objects and liquids (e.g., explosives) carried on persons. Given the 
known risk, TSA cannot accommodate passengers who are unwilling to 
undergo screening.

    Question 6. In October 2008, TSA released a Privacy Impact 
Assessment for Whole Body Imaging. That assessment outlined many of the 
policies TSA would use with WBI machines to protect passenger's 
privacy. Would you support a follow up report, either by GAO or the DHS 
Inspector General, to assess whether those policies have been followed 
and that they adequately protect passenger privacy? Would you support 
stricter guidelines from Congress on how TSA should safeguard passenger 
privacy at airport screenings?
    Answer. The Transportation Security Administration (TSA) would 
welcome a review by the Government Accountability Office (GAO) or the 
Department of Homeland Security Inspector General to assess whether the 
policies outlined within the Privacy Impact Assessment have been 
followed. TSA has welcomed and considered input on ways to improve the 
protection of passenger privacy consistent with its underlying security 
mission, but believes existing privacy frameworks adequately safeguard 
passenger privacy at airport screenings.

    Question 7. Members of the general aviation community have 
expressed concerns about TSA's Large Aircraft Security Program (LASP) 
proposed rulemaking. My understanding is that TSA is already addressing 
these concerns by issuing a supplemental Notice of Proposed Rulemaking 
(NPRM). Could you share your view on how DHS should engage and work 
with stakeholders from the general aviation community when developing 
and promulgating aviation security requirements?
    Answer. The Transportation Security Administration (TSA) is in the 
process of developing a Supplemental Notice of Proposed Rulemaking 
(SNPRM) to address general aviation security. The SNPRM will take into 
account our security partner input gathered during the public comment 
period. Based on this input, TSA anticipates that the proposal in the 
SNPRM will provide an effective and feasible security program for the 
general aviation community to implement, while maintaining an 
appropriate level of security.
    In Spring 2009, TSA implemented a new stakeholder outreach 
strategy. This strategy includes monthly stakeholder teleconferences, 
the designation of TSA representatives for various regions of the 
United States to increase outreach capabilities to non-trade 
association stakeholders, and the future establishment of a sub-working 
group under the Aviation Security Advisory Committee. This strategy 
bolsters TSA's industry/stakeholder communications framework and forms 
the foundation for current and future interactions with the stakeholder 
community on the development of general aviation security policies and 
programs.

    Question 8. As you may know, Sandia and Los Alamos National 
Laboratories operate the National Infrastructure Simulation and 
Analysis Center (NISAC) for the Department of Homeland Security. This 
Center has provided important consequence analysis of the impact on 
critical infrastructure from threats ranging from terrorism to natural 
disasters. The work of NISAC has been important in the national 
prioritization of infrastructure and our response to issues such as 
H1N1. Have you considered using NISAC to analyze and prioritize the 
consequences of a cyber attack on the U.S. infrastructure? If not, will 
your Department explore how NISAC can assist in this important area of 
national security?
    Answer. The National Cyber Security Division (NCSD) met with 
representatives of the National Infrastructure Simulation and Analysis 
Center (NISAC) to discuss potential areas of support for the 
Information Technology (IT) sector but determined that NISAC's work 
does not fit with planned IT sector activities. Currently, NCSD's needs 
in this area are met through other means; however, NCSD will continue 
to consider NISAC for future activities. For cross-sector cybersecurity 
work, NCSD receives support from Idaho National Laboratory and will 
receive new support from RTI International. Additionally, NCSD is under 
contract with the Software Engineering Institute/Carnegie Mellon 
University to conduct a study on cyber interdependencies across 
critical infrastructure and key resources; and with Sandia National 
Laboratories to assess the risks associated with control system 
components that have long manufacturing lead times or are only 
manufactured overseas. The first part of this study will look at the 
energy and water sectors and is intended to determine if the Nation 
needs a ``critical spares'' mitigation plan. NCSD plans to expand to 
other sectors in 2010. This effort addresses a deliverable assigned to 
the Department as part of Initiative 10 of the Comprehensive National 
Cybersecurity Initiative.

    Question 9. In the hearing, you discussed the fact that good border 
policy is complex, balancing trained personnel, technology, and 
infrastructure, and must account for the differences in types of border 
(terrain, etc.) along both the northern and southern borders. Over 
fifteen years ago, Sandia National Laboratories conducted an archival 
mile-by-mile border study for INS that resulted in technology and 
infrastructure recommendations. Has that study been updated and does a 
similar study for the northern border exist? If not, will you consider 
working with Sandia National Laboratories to update the southern border 
study and to conduct a study of the northern border?
    Answer. Since the Sandia National Laboratories study was completed, 
CBP has since developed an internal planning process which replaces the 
need for studies involving resource deployment strategies for 
infrastructure and technology enhancements. As part of the most recent 
congressionally mandated fence effort, CBP was required to develop 
Analysis of Alternatives (AoA) to determine if a fence was the most 
viable solution with consideration to operational effectiveness and 
cost. Subsequent to the fence effort, H.R. 2638 was passed directing 
CBP to conduct an AoA for all tactical infrastructure construction 
projects funded under Border Security Fencing, Infrastructure and 
Technology (BSFIT) appropriations. CBP has complied with this law and 
uses AoAs as the basis for tactical infrastructure and non-SBInet 
related technology deployment decisions along the northern and southern 
borders. The AoA solutions are determined by Field Commanders with 
engineering, environmental and real estate support provided by the CBP 
Office of Administration.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                         Hon. Janet Napolitano
    Question 1. Tourism is one of our Nation's greatest renewable 
resources, yet overseas tourists coming to the U.S. have declined since 
9/11 and have not yet recovered. Secretary Napolitano, would you be 
supportive of creating a Tourism Liaison within DHS to coordinate and 
interact with the travel and tourism industries?
    Answer. I have designated the Private Sector Office led by 
Assistant Secretary Douglas Smith to work closely with the travel and 
tourism industry. We would welcome your support for more resources to 
enhance our capabilities to address tourism. We agree with you that 
tourism is a vital part of our Nation's economy. On October 1, 2009, I 
met with private sector leaders from the travel and tourism industry at 
a meeting hosted by U.S. Representatives Roy Blunt (R-MO) and Sam Farr 
(D-CA) where we discussed how the travel industry can work more 
collaboratively with the new Administration to improve the industry's 
future and strengthen the American economy. On October 22, 2009, I met 
with CEOs from the travel and tourism industry where I emphasized the 
shared responsibility between the private sector and DHS for protecting 
our Nation. For all private sector related issues, Assistant Secretary 
Douglas Smith and his office serve as the contact point. In the 
Homeland Security Act of 2002, the Private Sector Office was designated 
as advisor on the impact of the Department's policies, regulations, 
processes and actions on the private sector and will continue this 
work.

    Question 2. While we can all acknowledge Transportation Security 
Officers and other front-line DHS personnel primarily serve a security 
function, their interaction with the traveling public has inescapable 
customer service aspects. Just as it has been demonstrated that law 
enforcement personnel are most effective when they treat citizens with 
respect, the performance of DHS security employees might be improved 
with a less-adversarial, more passenger-friendly approach. Do you 
believe DHS should provide additional customer service training to 
frontline security and transportation personnel to help increase their 
people skills and provide for a more open and welcoming environment for 
our international visitors and domestic travelers?
    Answer. The Department of Homeland Security (DHS) continues to 
develop training for frontline security personnel that enables them to 
assess risks posed by travelers and control the environment to better 
secure transportation. Our training also directs our Transportation 
Security Officers to treat the traveling public with respect during any 
security procedure. For example, TSA is now developing its training to 
strengthen technical skills as well as skills to promote passenger 
understanding of the screening process.

    Question 3. After the September 2001 terrorist attacks, Anchorage 
International Airport (ANC) was one of several airports required by the 
Transportation Security Administration (TSA) to invest in Explosive 
Detection Systems (EDS) with the understanding the TSA would reimburse 
the airport for at least 75 percent of the allowable costs. After 
installation of the EDS was complete the TSA determined there was 
insufficient funding and withdrew its commitments to reimburse ANC, as 
well as several other airports.
    Congress tried to address this issue with passage of the 
Implementing the Recommendations of the 9/11 Commission Act of 2007, 
which clarified airports should be reimbursed by the TSA for eligible 
past costs (Public Law 110-53, Section 160). ANC has still not been 
reimbursed because installation of the EDS was completed before 
implementation of this Act. Secretary Napolitano, what will you do to 
address the commitment for reimbursement originally made by the TSA to 
airports such as ANC?
    Answer. The Implementing Recommendations of the 9/11 Commission Act 
of 2007 (P.L. 110-53, Section 1604) required TSA to create a 
prioritization schedule inclusive of airports that have commenced 
projects and incurred eligible costs in anticipation of receiving 
reimbursement. TSA uses a risk-based schedule that focuses first on 
those airports with sub-optimal solutions to ensure the most effective 
security solutions are in place for screening checked baggage.
    Competing priorities such as recapitalization of equipment that is 
reaching the end of its useful life and completion of optimal solutions 
have also precluded TSA from acting on reimbursement requests.

    Question 4. The United States' Arctic border used to be 
impenetrable, locked in ice for most of the year. A warming climate is 
changing this scenario, with expectations that the Arctic Ocean will be 
substantially ice free during summer months in 20 years. Recent summers 
have already seen an increase in cruise ship and marine cargo traffic 
in these waters and this increase is expected to expand as the ice pack 
withdraws.
    Secretary Napolitano, what do you see as the security implications 
of an ice-diminishing Arctic? What does Congress need to do to respond 
to these concerns? Do you support investment in the needed 
infrastructure such as aircraft facilities, vessel monitoring systems, 
better communications, icebreakers, and other needs to maintain a full 
time national presence in the Arctic?
    Answer. NSPD-66/HSPD-25, Arctic Region Policy, January 2009, 
affirms our Nation's broad and fundamental interests in the Arctic and 
guides the Department of Homeland Security's current operational 
activities in the region. As the Arctic becomes more critical to the 
U.S. and global economies and our national and homeland security 
posture, NSPD-66 notes that it is imperative that the U.S. maintain the 
operational ability to:

  <bullet> Control U.S. borders and areas under our national 
        jurisdiction;

  <bullet> Protect against all kinds of attacks across and from the 
        Arctic;

  <bullet> Increase Arctic maritime domain awareness;

  <bullet> Protect the global mobility of U.S. vessels and aircraft and 
        freedom of navigation and overflight under the principles of 
        customary international law;

  <bullet> Ensure the operational security of the maritime 
        transportation system;

  <bullet> Address hazards in the Arctic, including response to 
        environmental disasters and search and rescue requirements; and

  <bullet> Carry out all required military activities in the region, 
        including strategic sealift.

    NSPD-66/HSPD-25 requires the heads of Executive Departments and 
Agencies with responsibilities relating to the Arctic region to work to 
identify future budget, administrative, personnel, or legislative 
proposal requirements to implement the elements of the U.S. Arctic 
Policy. Working with the Congress and OMB, the Department will continue 
to seek to integrate the operational requirements and goals of NSPD-66/
HSPD-25 with its other budget imperatives.
    DHS and the Coast Guard will continue to further define the 
requirements for infrastructure support in this region. Toward this 
end, the Coast Guard has contracted for a ``high latitude study'' to 
assist in determining mission and infrastructure requirements to 
properly carry out its eleven statutory missions in the Arctic (and 
Antarctic) now and in the future. Currently, DHS has all of the 
statutory authorities it requires to implement the tasks outlined in 
NSPD-66/HSPD-25 and any other legislation imposing mission requirements 
applicable to the Arctic region. Finally, the Department and the Coast 
Guard continues to support U.S. ratification of the 1982 Convention on 
the Law of the Sea.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                         Hon. Janet Napolitano
    Question 1. In response to my question regarding border wait times, 
you responded that wait times at CBP crossing facilities on the Texas-
Mexico border had actually decreased 12 percent. However, these figures 
only account for time spent inside the CBP facility and not the long 
lines waiting to get in. At nearly all border crossings in Texas, 
bridge operators and owners and local officials consistently tell me 
that wait times outside CBP facilities can be 30 to 90 minutes or 
longer for freight and/or passenger vehicles. The reason they have 
provided to me is that there are not enough CBP staff to operate all 
available lanes or to expand hours of operation at congested crossings. 
How do you plan to supplement your measurement methods to reflect wait 
times outside facilities and to gauge the necessary staffing levels, 
number of open lanes and operating hours to decrease total wait times 
at CBP crossing facilities to shorter and more acceptable levels?
    Answer. In addition to recording and tracking our transaction time 
of processing vehicles and travelers through primary checkpoints, CBP 
also reports on wait times at our land border ports of entry. These 
wait time reports include the wait times outside CBP facilities. While 
in FY 2009 in Texas CBP saw an improvement in peak wait time averages 
of 14 percent compared to FY 2008, wait times outside CBP facilities 
can often be 30 to 90 minutes or longer. Wait times are publicly 
reported on the CBP web page http://apps.cbp.gov/bwt/.
    Wait times are an important concern for travelers and those 
involved with or affected by international travel and trade. A 
proactive approach to increasing public awareness of our mission 
responsibilities plays a vital role in helping raise public awareness 
and understanding of factors influencing wait times. Before anticipated 
high volume holiday traffic and high anticipated wait times our field 
offices provide public advisories. Additionally, our CBP port managers 
are directed to prepare in advance of peak travel periods and staff 
accordingly. Many of our locations have wait times as a result of 
traffic volume exceeding port infrastructure limitations. Impediments 
include insufficient access roads, road infrastructure, buildings, 
bridges, and tunnels which are beyond the control of CBP. Additional 
focus is necessary to address these issues in many locations.
    With regard to measurement methods, CBP is planning to coordinate a 
test of land border wait time measurement technologies (loops, GPS, 
RFID, Bluetooth, video imaging, etc) later this year, with the 
objective of enhancing wait time measurements. Although the initial 
tests will be on the northern border, the analysis and best practices 
identified will improve our methodologies.
    CBP prepares a Workload Staffing Model (WSM), which is used as a 
decision-support tool to assist in strategically determining CBP 
officer manpower requirements. The Port of Entry volume, number of 
lanes, and workload factors at each POE are drivers in this model. The 
WSM is consulted as OFO applies its Resource Allocation Model (RAM) 
process, which integrates operational and budgetary decisions on where 
available resources will go. Wait times are also used as a factor in 
helping to prioritizing funding of infrastructure construction 
projects.
    Last year, in the commercial truck environment, CBP implemented 
extended hours pilot programs in both El Paso/Ysleta and Laredo/World 
Trade Bridge. These pilot programs were discontinued after about 6 
months, as there was very little volume during the additional hours.
    CBP continues to address staffing and infrastructure issues and 
continuously work toward improving wait times.

    Question 2. The Transportation Worker Identification Credential, 
known as TWIC, has been in development for 7 years, and although the 
card has been issued to over 1.4 million transportation workers, 
without the installation of the necessary card reader systems at our 
Nation's ports, the TWIC is currently an expensive ``flash pass''. When 
does DHS anticipate that TWIC will be a viable and complete security 
program?
    Answer. DHS has issued over 1.4 million Transportation Worker 
Identification Credentials (TWIC) leading up to and since the national 
compliance date of April 15, 2009. All personnel requiring unescorted 
access to secure areas of the Maritime Transportation Security Act of 
2002 (MTSA) regulated facilities and vessels, and all mariners holding 
Coast Guard issued credentials are required to possess a TWIC. Prior to 
receiving a TWIC, all personnel are vetted to verify they do not pose a 
potential security threat to the maritime transportation system. The 
TWIC is currently used as a proof of identification and furthers DHS's 
multi-layered approach to the safeguarding of our Nation's ports and 
critical maritime infrastructure by ensuring only vetted individuals 
have unescorted access to secure areas.
    DHS intends to issue regulations that will require owners and 
operators of MTSA regulated vessels and facilities to have and use TWIC 
readers in access control systems. MTSA requires DHS to conduct a card 
reader pilot program to test the business processes and technology 
required to deploy transportation security card readers. The pilot will 
also examine operational impacts for vessel and facility owners and 
operators. The pilot, currently underway at multiple facilities and 
vessels around the country, is critical to informing future rulemaking 
on the operational impacts to affected facility and vessel owners and 
operators. MTSA also requires that any final TWIC card reader rule be 
consistent with the findings of the pilot program.
    DHS intends to issue a proposed rule in Spring 2011, after the 
final TWIC card reader pilot program report is made public this winter. 
Data, supporting analyses, and conclusions from the report will be 
incorporated in the proposed rule. DHS has a legal obligation to permit 
the public to comment on the methodology and data underlying any final 
rule. This will ensure the public has ample time to comment on both the 
proposed rule and the report before DHS publishes a final rule.
    A final rule requiring ports to use readers could publish the 
following year assuming there are no significant issues raised during 
the comment period. An ample phase-in period is anticipated after 
publication.

    Question 3. TSA has told the Committee that it is considering 
harmonizing its credentialing programs with the aim of greater 
flexibility and fee fairness for transportation workers. Given the 
disparity of the various credentialing programs across DHS, how and 
when does the Department plan to achieve this interoperability, so that 
a truck driver carrying hazardous materials into ports or across 
borders would not have to apply for two or three separate DHS programs, 
each with its own fee structure and background check?
    Answer. The Transportation Security Administration's (TSA) Office 
of Transportation Threat Assessment and Credentialing (TTAC) is leading 
an Integrated Project Team (IPT) to harmonize security threat 
assessments and fees across all modes of transportation. To the extent 
possible, TSA is developing a universal framework to harmonize the 
nature of the threat assessment processes and security fee schedule.
    The universal framework is being developed in alignment with the 
TTAC Infrastructure Modernization initiative, an initiative to enhance 
TSA vetting and credentialing programs that affect the security of all 
critical transportation sectors. TSA is modernizing its business 
processes and systems to improve and maintain the effectiveness and 
efficiency of transportation security threat assessments.
    Regulated TSA populations will incrementally transition to the 
universal modernized platform as quickly as possible consistent with 
government operational requirements and Federal rulemaking procedures. 
Therefore, the harmonization of background checks and associated user 
fees will be possible after the necessary regulatory changes have 
become final, the supporting infrastructure has been modernized, and 
all populations have been transitioned from current acquisition 
contracts to the new platform. While TSA is finalizing an integrated 
schedule, it is expected that the universal framework will become 
effective during the second or third quarter of 2012, and that TSA 
programs will be incrementally added to the framework thereafter. Note 
that this framework is for TSA regulated programs only, and will not 
cover CBP, ICE, Secret Service and many other DHS programs.
    It is DHS's goal, in partnership with the private sector and state/
local agencies, to reduce redundant activities and leverage investments 
wherever possible. To this end, DHS led a government-wide effort, in 
partnership with the private sector, to build an interoperable 
framework for credentialing across the spectrum. This framework allows 
for credentials to be reused--by establishing common rules for levels 
of trust and uses associated with each type of credential, 
interoperability across populations, common processes for physical and 
logical access control systems. This effort is directly in line with 
the policy established through the DHS Credentialing Framework 
Initiative (CFI). The CFI established several guiding principles--
including ``enroll once, use many'' for information reuse for 
individuals applying for multiple DHS privileges and associated 
credentials and vetting, associated with like uses and like risks, 
should be the same. The CFI provides a cohesive framework, with 
consideration for privacy, security risks, mission requirements, 
information sharing and other capabilities incorporated to ensure 
common strategies and objectives across DHS programs.
    TSA has worked hard to align programs' security threat assessments 
by establishing the same eligibility requirements, offering a standard 
waiver and appeal process, and leveraging the same fingerprint-based 
criminal history records check to reduce redundancy and costs for 
workers. For example, the Transportation Worker Identification 
Credential (TWIC) program is able to offer TWIC applicants a reduced 
cost, from $132.50 to $105.25, when the applicant already has received 
a comparable security threat assessment, such as:

  <bullet> Hazardous Materials Endorsement (HME).

  <bullet> Merchant Mariner Credential/Document administered by the 
        United States Coast Guard.

  <bullet> Free and Secure Trade (FAST) card administered by United 
        States Customs and Border Protection.

    Another example is that the Air Cargo worker requirements for a 
security threat assessment accepts as comparable a valid Commercial 
Drivers License (CDL) with HME, TWIC, and FAST, as well background 
checks associated with Security Identification Display Area (SIDA) 
badges.

    Question 4. There are approximately 150,000 miles of freight 
railroad tracks in the United States, on which many commodities, 
crucial to our Nation's economy, are carried. Maintaining the security 
of our Nation's railroad system, by monitoring the transport of 
security sensitive materials, or mitigating threats of terrorist 
attacks, is an important area for DHS and TSA to address. The 9/11 Act 
required DHS to develop a National Strategy for Railroad Transportation 
Security and submit a report to Congress by August 2008, detailing 
security assessments and the cost to implement the strategy. When will 
this report be submitted and will you commit to focusing the 
Department's efforts on our Nation's surface transportation security?
    Answer. The Transportation Security Administration's (TSA) report 
entitled the ``Railroad Transportation Security Risk Assessment and 
National Strategy'' in response to the requirements in section 1511 of 
the Implementing Recommendations of the 9/11 Commission Act of 2007 (9/
11 Act) is in the final stages of review at TSA. The Railroad Security 
Risk Assessment (RSRA) will describe the strategic level risks to the 
freight rail mode. TSA will provide context for rail risk in the 
transportation sector in the Transportation System Security Risk 
Assessment (TSSRA), which is a comprehensive national risk assessment 
that is required by both the Fiscal Year 2009 and Fiscal Year 2010 
Appropriations language. Both reports are nearing completion.
    The RSRA will also include a National Strategy for Railroad 
Security. This strategy has been synchronized with the upcoming update 
of the Rail Annex to the Transportation System Sector Security Plan 
(TSSSP), as part of the National Infrastructure Protection Plan 
required by Homeland Security Presidential Directive 7. In order to 
streamline and coordinate strategic planning, it is intended that the 
updated TSSSP Rail Annex will supersede the RSRA report's rail 
strategy. Both strategic planning documents will reflect the currently 
assessed risk in the rail system and the larger transportation system.
    DHS also employs a variety of programs and policies that are 
focused on ensuring the security of the Nation's railroad 
transportation system. On November 26, 2008, TSA issued a final rule 
(73 FR 72130) for rail transportation security. The rule requires 
freight and passenger rail carriers, as well as shippers and certain 
receivers of rail security-sensitive materials (RSSM), to appoint a 
primary, and at least one alternate, rail security coordinator to serve 
as TSA's main point of contact, available on a 24/7 basis, to receive 
intelligence information and coordinate security-related activities. 
These covered entities are also required to report significant security 
concerns to TSA. Freight railroad carriers, as well as certain rail 
hazardous materials shippers and receivers, are also subject to the 
chain of custody provisions (49 C.F.R. 1580.107), which requires a 
positive and secure transfer of custody of a rail car containing RSSM 
at points of origin, delivery, and interchange, and includes certain 
requirements for physical security inspections of RSSM rail cars. 
Pursuant to the 9/11 Act, TSA is required to issue a regulation that 
would require an employee security training program for surface modes 
of transportation. Under the 9/11 Act, the rules cover freight railroad 
carriers, as well as public transportation agencies (including rail 
mass transit and bus systems), passenger railroad carriers, over-the-
road bus operators, and certain motor carriers).''] The rules would 
establish propose minimum elements for the training programs addressing 
security awareness, terrorist behavior recognition, and threat and 
incident prevent and response for frontline employees. As also required 
by the 9/11 Act, TSA is developing regulations for railroad carriers to 
conduct vulnerability assessments and develop security plans.
    TSA, in conjunction with the private sector, has also developed a 
list of 24 Security Action Items (SAIs). Distributed in June 2006, 
these security guidelines identified best practices, which freight 
railroads and their employees should implement to reduce the risk 
associated with the transportation of toxic inhalation hazard (TIH) 
materials. TSA also conducts Rail Corridor Assessments (RCAs), which 
focus on assessing the vulnerabilities of high-population areas where 
TIH materials are moved by rail in significant quantities. The RCAs 
provide site-specific mitigation strategies and lessons learned, and 
supported the development of the SAIs. These vulnerability assessments 
have also led to the implementation of a TIH Risk Reduction Project. 
Implemented in 2007, the Project focuses on objectively measuring the 
risk reduction associated with the rail transportation of TIH materials 
through 46 High Threat Urban Areas. As of October 2009, the 
objectively-measured risk has been reduced 80 percent as compared to 
the base measurement year (2006). The agency will continue to measure 
the ongoing risk associated with the movement of TIH shipments by rail, 
with the goal of a 10 percent risk reduction over the previous year.
    Comprehensive Reviews conducted by TSA also provide a thorough 
evaluation of the security of a specific rail corridor and a 
comparative analysis of risk across transportation modes and critical 
infrastructure sectors in a specific geographic area. Additionally, 
TSA's Corporate Security Review program, an ``instructive'' review of a 
company's security plan and procedures, provides the government with a 
general understanding of each company's ability to protect its critical 
assets and its methods for protecting hazardous materials under its 
control. The Intermodal Security Training and Exercise Program (I-STEP) 
is also being utilized by TSA to enhance the preparedness of the 
Nation's surface transportation network. I-STEP has been used by the 
TSA Freight Rail Security Division to facilitate discussions regarding 
the information-sharing processes and coordination between the Federal 
Government and the freight rail industry, particularly during 
heightened states of alert.
    The TSA Freight Rail Security Division has also developed a 
critical infrastructure risk assessment tool for freight rail bridges. 
This tool is designed to measure the criticality and vulnerability of 
freight rail bridges in the United States, and will serve as the 
factual and analytical baseline to develop and propose security 
enhancements and mitigation strategies for critical railroad 
infrastructure. In Washington, D.C., DHS has also funded the National 
Capital Region Rail Security Pilot project to demonstrate the 
effectiveness of a suite of intrusion detection technologies in a 
freight railroad environment, specifically the D.C. Rail Security 
Corridor (DCRSC). The DCRSC is a seven-mile long corridor extending 
from the Anacostia River across the Potomac River. This pilot project 
included numerous components, including a virtual security fence that 
will detect moving objects, perimeter breaches, left objects, removed 
objects, and loitering activity. Data from the fence and the gates will 
be encrypted and transmitted simultaneously to multiple locations, such 
as the U.S. Capitol Police, U.S. Secret Service, other applicable 
Federal or local agencies, and CSX Transportation. Additionally, TSA is 
initiating a pilot project in FY 2010 to test security technologies on 
critical railroad bridges and tunnels.
    The DHS National Protection and Programs Directorate--Office of 
Infrastructure Protection has also engaged the Rail Subsector in 
activities, projects, and initiatives, including conducting 55 Enhanced 
Critical Infrastructure Protection Initiative visits, 10 Computer-Based 
Assessment Tool visits, 39 Site Assistance Visits, 121 Buffer Zone 
Plans, and provided $15,171,500 in Buffer Zone Protection Program grant 
funding to local law enforcement to increase preparedness capabilities 
in communities surrounding high priority Rail Subsector infrastructure. 
The TSA Freight Rail Security Grant Program also makes funds available 
for security training of frontline employees, the completion of 
vulnerability assessments, the development of security plans within the 
freight rail industry, and the installation of tracking systems for 
railroad cars containing TIH.

    Question 5. Earlier this year, the House passed a TSA 
Reauthorization bill. This Committee will likely work on a TSA 
Reauthorization proposal sometime in the coming year. Does DHS/TSA 
intend to submit a formal reauthorization proposal for the Committee to 
consider?
    Answer. The Department of Homeland Security is reviewing a number 
of legislative proposals that may be appropriate for consideration in a 
Transportation Security Administration (TSA) authorization bill and 
looks forward to assisting the Committee in promoting a package of 
proposals that advance security in all modes of transportation. Among 
other things, the legislative proposals considered by the Committee in 
2010 should consider the need for implementing new technologies in 
aviation security and ensuring that individuals who present a threat to 
our Nation's security are not permitted to board overseas flights to 
the U.S. Additionally, I hope the Committee would act upon the 
legislative proposal forwarded to the congressional leadership in May 
2009 to authorize the Transportation Security Administration to 
incrementally adjust the aviation passenger security fee to cover a 
larger share of the cost of aviation security. I look forward to 
working with the Committee on any authorization language they will be 
introducing during the Second Session of the 111th Congress.

    Question 6. It has come to my attention that only a small 
percentage of the Port Security Grant funding from Fiscal Years 2007, 
2008, and 2009 have made it to the facilities that have been awarded 
grants. Can you explain where the delay has been in distributing these 
funds, and what steps are in place to ensure timely distribution? What 
percentage of the grant funding has actually made it to the recipients?
    Answer. Since Fiscal Year (FY) 2007, the Department of Homeland 
Security (DHS) has awarded over $1.2 billion in Port Security Grant 
Program (PSGP) funding. Of this amount, approximately $49 million has 
been drawn down by recipients through FEMA's electronic Payment and 
Reporting System (PARS). This equates to approximately 4.1 percent of 
the total awarded funds drawn down by recipients. Although this is a 
relatively low percentage, drawdown figures should not solely be used 
to gauge program progress or lack thereof.
    Each PSGP award has several special conditions that must be 
formally accepted by the recipient, some of which place holds on funds 
until met. The two special conditions that most significantly impact 
releasing funds and drawdown rates are the requirements for budget 
reviews and Environmental and Historic Preservation (EHP) reviews. 
These reviews take time and can vary by grant based on dollar amount, 
complexity of projects, grantee responsiveness, department priorities, 
workload, and staffing.
    In FY 2007 and FY 2009, the PSGP received additional 
appropriations, essentially making two rounds of grants for these 
years. In addition, beginning with the FY 2007 Supplemental round, the 
highest risk port areas were required to assign a ``Fiduciary Agent'' 
(FA), who serves as FEMA's grantee and point of contact for all grant 
matters. The FA works at the local level with the Captain of the Port 
(USCG) to foster regional collaboration and prioritize projects for 
submission to FEMA. A series of deliverables are required to be 
submitted to FEMA and must be approved prior to submitting projects. 
These include a Concept of Operations (CONOPS) document and a Port-Wide 
Risk Management Plan (PWRMP). These deliverables can take 12-18 months 
to complete and grant funds may be used in their development.
    Once these deliverables are submitted and approved by FEMA, the FA 
submits projects for review and approval. Even before FEMA receives the 
projects, they are reviewed and prioritized at the field level by the 
local Captain of the Port. Because each FA is on a different timetable, 
FEMA continually receives projects for review and must convene review 
panels of subject matter experts from across DHS. These panels take all 
of our grants staff away from their regular duties for many hours to 
review projects. If projects are not approved, they must be sent back 
to the FA for resubmission, causing further delay. Once projects are 
approved, they are submitted for budget and EHP clearance to release 
funds.
    Once FEMA releases funds (either partial by project or the entire 
award), the recipient is notified and may drawdown against the grant 
through PARS. Of the $1.2 billion in PSGP funding awarded from FY 2007 
to present, $223.5 million or 18.1 percent of total funding has been 
released to grantees. FEMA does not control or dictate when recipients 
must drawdown funds. Each recipient follows their local protocols. 
Funds may be drawn down anytime during the award period and up to 90 
days following the end of the award period.
    FEMA routinely engages with port stakeholders to listen to concerns 
and suggestions for improving the program. This past fall, FEMA invited 
all of the PSGP FAs to Washington, D.C. for a two-day workshop on how 
to improve the efficiency of the program.
    One significant change with the FY 2010 PSGP is that all FA 
projects are due to FEMA 45 days after application close date. All 
projects will be reviewed at one time by one panel of subject matter 
experts. This will put all FAs on the same timetable and will eliminate 
the current practice of reviewing projects on a rolling basis and 
expedite the release of funds.
    For existing awards (FY 2009 ARRA and prior), FEMA has made 
significant strides in releasing PSGP funding. Thanks to dedicated 
contract support personnel, the EHP backlog has been cleared. 
Additionally, it has been a priority of PSGP staff to review projects 
in a timely manner, release partial funds as projects are approved, and 
provide feedback to FAs as to status, particularly if projects are sent 
back requiring additional work. Finally, the majority of CONOPS and 
PRWMPs have been submitted and approved by FEMA, which now allows FEMA 
to concentrate on reviewing and approving projects.
    FEMA continues to work to strengthen the PSGP, a complex program, 
with a multi-stage review process, co-managed with the subject matter 
expertise provided by the USCG.

    Question 7. The Coast Guard uses a Marine Security Risk Analysis 
Model (MSRAM) to assess threats to critical infrastructure. However, 
the Department of Homeland Security still does not have one model of 
risk analysis that could be used by all agencies. Is there a plan to do 
so? Can we establish a quantifiable risk analysis tool for the 
Department that is adaptable for all DHS agencies?
    Answer. The Department of Homeland Security (DHS) assesses homeland 
security risk by evaluating the potential for an unwanted outcome as a 
function of threats, vulnerabilities, and consequences associated with 
all hazards to the homeland. No single assessment of homeland security 
risks, such as the Marine Security Risk Analysis Model, will provide 
all the answers to the multitude of challenges the Department faces. As 
of now, there is no plan to develop one model or tool for risk analysis 
across DHS and other agencies. The goal of risk analysis is to inform 
decisionmaking, but since decisions at different agencies and within 
different sectors are unique, with different requirements, subject to 
different constraints, and based on various degrees of information, it 
would be counter-productive to attempt to develop a single tool.
    Homeland security risks are so complex and cross-cutting that our 
ability to manage risk effectively depends on our ability to integrate 
and manage a wide range of homeland security activities with Federal, 
State, local, tribal, territorial, and private-sector partners. A 
unified effort focused on integrated risk management concepts within 
the Department is essential to understanding and effectively managing 
homeland security risks.
    Building and institutionalizing integrated risk management concepts 
and practices for homeland security takes time. DHS, however, has taken 
several critical first steps. The Department established the Office of 
Risk Management and Analysis (RMA) on April 1, 2007. RMA's mission is 
to enable and advance the effective management of risk by the homeland 
security enterprise. In April 2007, RMA created a departmental risk 
governance process by establishing the DHS Risk Steering Committee 
(RSC), which ensures collaboration, information sharing, and consensus 
building across the Department as we identify and integrate best 
practices for risk management and analysis. In September 2008, the RSC 
published a DHS Risk Lexicon, which establishes a common language for 
discussing risk-related concepts and techniques, and released an 
Interim Integrated Risk Management Framework in January 2009 that sets 
the foundation for a common approach to homeland security risk 
management.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                         Hon. Janet Napolitano
    Question 1. Madam Secretary, as you know, the Department has 
embarked upon an approximately 10M square feet headquarters 
consolidation at the St. Elizabeth's campus. How has the Department 
worked with the private sector to develop and implement an action plan?
    Answer. The Department of Homeland Security (DHS) National Capital 
Region (NCR) Housing Master Plan was developed to provide the strategic 
vision for facilities that support a unified department, organizational 
structure, operations and culture. The plan outlines priorities of 
implementation and addresses the mission fragmentation caused by the 
Headquarters (HQ) elements being scattered in over 46 locations 
throughout the NCR. To meet the component office space requirements 
through FY 2011 for headquarters facilities, the Department will 
require about 8 million gross square feet (GSF) of office space in the 
NCR with the potential to grow to 10 million GSF by FY2015.
    While St. Elizabeths will accommodate the main Department and 
Component HQ mission execution functions with 4.5 million GSF of office 
space, it does not have the capacity to accommodate all of the DHS 
mission support elements. Therefore, the DHS NCR Housing Master Plan 
also proposes to consolidate the mission support elements that are 
currently dispersed throughout the NCR to support functional 
integration, improve effectiveness and efficient management of the real 
estate portfolio.
    The end state real estate portfolio will include St. Elizabeths as 
the center of gravity for the Department Headquarters and federally 
owned locations at the Nebraska Avenue Complex (NAC), the U.S. Secret 
Service HQ and the DHS space at the Ronald Reagan Building. DHS has two 
long-term leases that will also be retained--the TSA location in 
Arlington, VA and the ICE space in SW Washington, D.C. A Mission 
Support Consolidation Prospectus for lease authority was submitted by 
General Services Administration (GSA) to Congress on October 18, 2009 
to acquire a 1.2 million Rentable Square Feet (RSF) lease to 
consolidate the remaining locations.
    The Department and GSA have coordinated with the private sector 
throughout the past four and a half years. We've received many 
capabilities briefs from private sector entities with an interest in 
the headquarters consolidation initiative including both the St. 
Elizabeths Campus and the Mission Support Consolidation initiatives.
    GSA also engaged the market in development of the mission support 
lease prospectus to verify DHS requirements could be achieved while 
ensuring competition among the private sector offerors.
    On October 26, 2009, GSA and DHS sponsored an Industry Day at the 
Ronald Reagan Building to inform the business community on upcoming 
opportunities that will be available with the St. Elizabeths 
development. Approximately 1000 people attended the forum which 
provided opportunities for networking, sessions on DHS and GSA Small 
Business goals and practices. In addition, the GSA Federal Acquisition 
Service held a pre-solicitation conference in Washington, D.C., on 
December 14, 2009, for the St. Elizabeths Campus Technology Integration 
Program (TIP). The GSA acquisition strategy for the TIP is to provide 
an Information Technology (IT) contractor to supply materials and 
installation services for an enterprise wide IT campus infrastructure.

    Question 2. How does the Department intend to facilitate 
interaction across all DHS sites in the region through this 
consolidation?
    Answer. The establishment of St. Elizabeths as the Consolidated DHS 
HQ with all component leadership/mission execution functions 
represented and collocation of Component Operations Centers with the 
NOC, will form the foundation for building a department that is 
culturally, operationally and administratively unified. The campus 
structure optimizes our prevention and response capabilities though 
enhanced communication, coordination and cooperation and promotes 
interaction through shared use of common support and administrative 
facilities. The Technology Integration Program (TIP) being developed 
for St. Elizabeths is also being designed to consider the overall 
headquarters consolidation initiative and provides an enterprise wide 
IT infrastructure to promote and enhance communications across the 
consolidation sites. In addition, lessons learned with the St. 
Elizabeths development will be leveraged across the entire 
consolidation effort.
    Execution of the St. Elizabeths development without addressing the 
rest of the mission support functions will continue to impact the 
effective communications, coordination and cooperation among the 
headquarters and components due to the increasingly scattered nature of 
the portfolio.

    Question 3. As you may know, Saint Elizabeths could become a 
security technology corridor that advances the mission of Department of 
Homeland Security while simultaneously driving innovation and private 
sector commercialization. How does the DHS intend to advance the 
Department's mission while driving innovation and private sector 
commercialization at the Saint Elizabeths campus?
    Answer. The Department and GSA are closely coordinating with the 
District of Columbia, the National Capital Planning Commission, the 
Council on Environmental Quality/Office of the Federal Environmental 
Executive, the White House Office of Urban Affairs and organizations 
such as the Chesapeake Crescent Initiative (CCI) to explore 
opportunities to promote sustainability and innovation in conjunction 
with the St. Elizabeths development (DHS and DC's efforts on the West 
and East Campus). There are also opportunities to link to broader 
community revitalization efforts with the Sustainable Communities and 
Neighborhood Revitalization initiatives.
    The CCI is a regional collaborative effort formed by the Federal 
Government, the District of Columbia, and the state governments of 
Virginia and Maryland. CCI's goal is to focus on four areas: Regional 
Collaboration; Environment/Energy; Innovation/Economy; and Secure and 
Sustainable Development. CCI established the St. Elizabeths/Security 
Working Group to address three specific objectives: (1) Convening 
stakeholders--Federal, State and City governments, the private sector, 
non-profit organizations, universities across the region, DHS employees 
and the community of citizens in Ward 8; (2) Communicating progress and 
identifying challenges that require collaboration to achieve success--
through meetings, events and academic research support; and (3) Serving 
as a catalyst for action--to set new environmental standards with 
renewed historic resources, improve transportation, build new 
commercial and residential communities, foster education and workforce 
development and identify and deploy innovative solutions to advance our 
Nation's security capability--all in support of a new home for DHS, a 
revitalized community and a stronger regional economy with 21st Century 
jobs. The Department supports this effort with participation by our 
Headquarters Consolidation Program Office and the Chief 
Commercialization officer. Along with GSA, we will continue to work 
with CCI and our District partners as they transform their approved 
high level East Campus Redevelopment Framework Plan into specific 
development initiatives.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Ensign to 
                         Hon. Janet Napolitano
    Question. Following the release of the TSA screening document 
entitled ``Screening Management Standard Operating Procedures'' dated 
May 28, 2008, that was placed on a website and contained Sensitive 
Security Information including the identification cards of Members of 
Congress earlier this week, I submit the following questions:
    How high up did the authorization have to go before the document 
was placed on the website?
    Did the authorization go as high as the political appointees or was 
it just a career employee that placed the document online for all to 
read?
    I understand that people were put on Administrative Leave following 
this release of TSA security sensitive information. Were the people who 
authorized the release of this information also put on Administrative 
Leave?
    I understand that there are currently 2 simultaneous investigations 
ongoing with regard to the release of this information, an Inspector 
General review and an Office of Investigations review. How long will it 
take to complete the review process? Can you provide a timeline as to 
when people can be held accountable for this release? When policies may 
be changed?
    Answer. After conducting an Executive Leadership conference call on 
the night of December 6, 2009, the Transportation Security 
Administration (TSA) Acting Administrator implemented a number of 
actions to address the breach of Sensitive Security Information (SSI), 
including a directive to the TSA Office of Investigations (OI) to 
investigate the cause and circumstances of the breach of SSI. The OI 
began to investigate the matter until TSA was notified that the 
Department of Homeland Security Office of the Inspector General (OIG) 
would be investigating the same matter at my direction. As required by 
a DHS Management Directive, OI suspended its investigation and deferred 
the matter to OIG. Because these questions are the subject of the OIG 
investigation, I am not able to provide specific responses until the 
OIG completes its investigation and issues a final report.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jim DeMint to 
                         Hon. Janet Napolitano
    Question 1. When will you repeal the current prohibition on 
collective bargaining at TSA (ADM Loy Memorandum of January 8, 2003 
Subject: Determination Regarding Collective Bargaining TSA Security 
Screeners)?
    Secretary Napolitano I was disappointed to hear this morning that 
you had decided to agree to a collective bargaining agreement with the 
TSA Screeners, overturning a policy which has kept the traveling public 
safe for close to 7 years. At the hearing you stated, there are 
examples around the country of collective bargain agreements with law 
enforcement agencies that have similar responsibilities where you have 
carve-outs in effect, in the collective bargaining context to make sure 
those types of things are not part of the collective bargaining 
agreement. We would anticipate in this context with the TSOs that we 
will be able to reach such an understanding. Please provide a detailed 
plan outlining the carve-outs you will insist upon in a collective 
bargaining agreement including a rationale for the carve outs. Are 
there any workers who you believe should not be allowed to be included 
in a collective bargaining agreement?
    Answer. As I stated in my testimony, I am waiting for the 
confirmation of a nominee to head the Transportation Security 
Administration (TSA). I expect any future nominee to make a thorough 
review of the matter, including the alignment of any decision about 
collective bargaining with our profound commitment to maintain and 
continue to improve transportation security, before presenting 
recommendations to me on collective bargaining at TSA.
    With regard to which positions might be included in a bargaining 
unit of Transportation Security Officers afforded collective bargaining 
rights, although no decision has been made, I would expect that such a 
unit determination would follow prevailing law covering Federal 
employees which excludes those employees deemed to be supervisory or 
confidential employees.

    Question 2. At the hearing you stated, ``I will give you an 
example, even without a collective bargaining agreement right now, our 
TSA employees have been very eager to, whenever we've had an emergency 
and we need to, for example bring more people down to help staff an 
airport in a hurricane, when the people who have to work there have to 
stay home and work with their families because their houses have been 
destroyed or whatever. We have never had a problem, in my experience, 
with employees being willing to move to a place where a crisis is 
occurring.''
    Will you insist that as a condition of repealing the collective 
bargaining agreement prohibition that any collective bargaining 
agreement empower the Administrator of the TSA to have the authority to 
transfer and reassign personnel in response to security threats for the 
duration of the threat without first getting the approval of their 
union?
    Answer. As stated, I am awaiting the confirmation of a nominee to 
head the Transportation Security Administration (TSA). It is my 
expectation that any future nominee will conduct a thorough review of 
all matters concerning collective bargaining at TSA prior to making 
recommendations to me. I will ensure that any decision that is made 
takes full account of security concerns, and enables TSA to continue to 
maintain and improve transportation security on a daily basis.

    Question 3. Madam Secretary, for several years your department has 
been trying to address ways to better coordinate or harmonize 
credentialing and background check processes. Today, for example, we 
know that truck drivers can undergo up to four separate costly 
background checks<SUP>*</SUP> through agencies within your department 
to perform their job duties. Are you aware of this issue? If so, please 
tell us what DHS is doing to coordinate or consolidate these multiple 
screening and credentialing processes.
---------------------------------------------------------------------------
    \*\ DHS Background checks: Hazardous Materials Endorsement (HME), 
Transportation Worker Identification Credential (TWIC), Free and Secure 
Trade (FAST) program and Air Cargo Security Threat Assessment.
---------------------------------------------------------------------------
    Answer. It is DHS's goal, in partnership with the private sector 
and state/local agencies, to reduce redundant activities and leverage 
investments wherever possible. To this end, DHS led a government-wide 
effort, in partnership with the private sector, to build an 
interoperable framework for credentialing across the spectrum. This 
framework allows for credentials to be reused--by establishing common 
rules for levels of trust and uses associated with each type of 
credential, interoperability across populations, common processes for 
physical and logical access control systems. This effort is directly in 
line with the policy established through the DHS Credentialing 
Framework Initiative (CFI). The CFI established several guiding 
principles--including ``enroll once, use many'' for information reuse 
for individuals applying for multiple DHS privileges and associated 
credentials and vetting, associated with like uses and like risks, 
should be the same. The CFI provides a cohesive framework, with 
consideration for privacy, security risks, mission requirements, 
information sharing and other capabilities incorporated to ensure 
common strategies and objectives across DHS programs.
    DHS has begun efforts on a number of initiatives to implement this 
streamlined process and reuse of vetting results:

  <bullet> Reusing Assessments Conducted. TSA is working hard to align 
        the programs' security threat assessments (STAs) by 
        establishing similar eligibility requirements; offering a 
        standard waiver and appeal process; and leveraging the same 
        fingerprint-based criminal history records check to reduce 
        redundancy and costs for workers. There are several examples of 
        where this is apparent today:

    <ctr-circle> The Transportation Worker Identification Credential 
            (TWIC) program is able to offer TWIC applicants a reduced 
            cost, from $132.50 to $105.25, when the applicant already 
            is receiving a comparable security threat assessment, such 
            as one for:

                --Hazardous Materials Endorsement (HME).

                --Merchant Mariner Credential/Document administered by 
                the United States Coast Guard.

                --Free and Secure Trade (FAST) card administered by 
                United States Customs and Border Protection.

    <ctr-circle> Another example is that the Air Cargo worker 
            requirements for a security threat assessment accepts as 
            comparable a valid Commercial Drivers License (CDL) with 
            HME, TWIC, and FAST, as well background checks associated 
            with Security Identification Display Area (SIDA) badges.

  <bullet> Establishing ability to electronically verify person's 
        license, status, or privilege. In order to issue fewer 
        documents and reuse existing cards, the various organizations 
        interacting with these populations must be able to 
        electronically authenticate the credential presented and that 
        the person is authorized access.

    <ctr-circle> For example, in order for DHS to stop issuing separate 
            HME endorsements to the holder of a TWIC, law enforcement 
            must have the ability to electronically validate that TWIC, 
            an ability they do not currently have.

  <bullet> TSA TTAC Modernization. The TSA modernization effort, an 
        initiative to enhance TSA vetting and credentialing programs 
        that affect the security of all critical transportation 
        sectors, will play a critical role in achieving these goals. 
        TSA is modernizing its business processes and systems to 
        improve and maintain the effectiveness and efficiency of 
        transportation security threat assessments.

    Question 4. As I'm sure you are aware, my amendment requiring the 
completion of 700 miles of reinforced double-layer fencing along the 
U.S. Southern border by the end of next year was stripped from the 
Department of Homeland Security Appropriations bill just a few weeks 
ago. How do you propose we move forward and solve the border security 
problems our Nation is currently facing without completing this fence 
and giving the law we passed a chance to work?
    Answer. First and foremost, all efforts aimed at addressing threats 
to U.S. border security must occur within an institutionalized concept 
of operations that consistently leverages the proper, integrated mix of 
Department of Homeland Security (DHS), other Federal, State, tribal and 
local resources to gain effective control, or situational awareness, 
where applicable, in prioritized areas of greatest threat, 
vulnerability and risk. As a stakeholder, CBP Office of Border Patrol 
continues to implement the following:

  <bullet> Focusing on the capability to rapidly deploy personnel/
        resources to areas deemed highest risk through intelligence and 
        predictive analyses along the Southern and Northern borders.

    <ctr-circle> For example, state-of-the-art enforcement technology, 
            such as Mobile Surveillance System vehicle(s).

  <bullet> Expanding partnerships with other Federal, state, tribal and 
        local agencies to develop, refine and institutionalize a 
        nationwide collaborative, cooperative enforcement approach such 
        as the Alliance to Combat Transnational Threats (ACTT).

    <ctr-circle> Combines capabilities and resources of Federal, state, 
            tribal and local law enforcement agencies to deny, degrade, 
            disrupt and dismantle criminal organizations.

    <ctr-circle> Leveraging participation in fusion centers to 
            institutionalize intelligence-driven operations.

    Question 5. Related to border security, one of the greatest threats 
currently facing our Nation and our Southern border in particular is 
the presence of violence and illegal drug trafficking taking place 
between the U.S. and Mexico. Back in March, you announced a 
``Comprehensive Response'' border security policy that:
    Invested $700 million this year under the Merida initiative to work 
with Mexico on law enforcement and judicial capacity,
    Increased DOJ, DHS, and Treasury personnel and efforts directed at 
the Southwest border, and
    Renewed the U.S.' commitment to stemming the demand for illegal 
drugs here at home.
    Now that we are approaching the end of the year, can you provide 
for us a brief update on the implementation of this plan, and describe 
what impact this money and these efforts have had on the present 
situation along the southern border?
    Answer. The Department of State (DOS) is the overall U.S. 
Government (USG) lead for Merida Initiative activities including the 
acquisition of all technology equipment and software, such as Non-
Intrusive Inspections Equipment (NIIE). DOS also coordinates and 
obtains all licenses or permits associated with the acquisition, 
transportation, delivery and or shipment of equipment and software to 
be donated to the receiving governments. CBP has established an inter-
office Merida Committee to coordinate with DOS, DHS and others and to 
steer CBP implementation actions.

  <bullet> CBP and DOS established an Inter-Agency Agreement (IAA) to 
        fund a CBP Advisor to the Narcotics Affairs Section (NAS) of 
        the State Department at the U.S. Embassy in Mexico responsible 
        for providing technical assistance and expertise related to 
        purchases under the Merida Initiative in Mexico. The advisor is 
        now working in this capacity.

  <bullet> CBP developed an IAA with DOS to provide training and 
        technical support for Merida Initiative activities. This IAA 
        was awarded on September 30, 2009. Specifically, this IAA 
        provides for the training of 44 dogs for Mexico Customs, 
        scheduled to occur in 2010. The training consists of 3 classes, 
        each 11 weeks long. The program includes the curriculum for 
        train-the-trainer as well. The first class will begin January 
        18, 2010. The IAA also provides for the training of 50 SSP 
        Officers on five ZVB X-ray vans (vans already purchased by NAS) 
        which will occur via five, ten-student classes held in or 
        around Mexico City. CBP will continue to work with Mexico 
        Customs on their curriculum to assist in moving from a revenue-
        based to a law enforcement-based agency. Additionally, CBP 
        conducted an assessment of Mexico Customs basic academy 
        training. The resulting gap analysis will be a road map to 
        guide Mexico Customs in changing their curriculum from revenue-
        based to law-enforcement based.

    CBP will continue discussions of the way forward on geographical 
expansion of the Operation Against Smugglers Initiative on Safety and 
Security (OASISS) program. OASISS is a binational prosecutorial program 
focused on combating human smuggling across the Southwest Border by 
identifying and prosecuting Mexican nationals arrested for alien 
smuggling in the U.S. A memorandum of understanding for information 
sharing with Mexico is being reviewed by the Office of Border Patrol.
    CBP, in coordination with DHS, has partnered with Department of 
Defense (DoD) Joint Task Force North, and other border security 
entities in the U.S. and Mexico to develop a plan to gain greater 
control over the Arizona Border. The plan is called the Operational 
Alliance to Combat Transnational Threats (ACTT), though originally 
designated the Arizona Operational Plan (AOP). A key component of the 
plan is to operate collaboratively with the Mexican SSP Federal Police 
to obtain greater operational control of the Arizona/Sonora border. A 
Declaration of Cooperation with the SSP has been drafted for the 
purpose of illiciting a sustained commitment of resources from the 
Government of Mexico to control the Arizona/Sonora border. The 
Declaration institutionalizes lessons learned from the ACTT bilateral 
cooperation efforts and expands these collaborative efforts along the 
entire Southwest border, closing smuggling corridors that impact upon 
both countries' national security.

    Question 6. As part of any collective bargaining agreement, will 
you require that the agreement allow any TSOs to withhold the portion 
of their union dues that finances lobbying and political activity?
    Answer. Unlike the private sector, employees in the Federal 
Government are not required to pay union dues or agency fees, even when 
there is a collective bargaining agreement in effect. Accordingly, 
there would be no reason to include such a provision in a collective 
bargaining agreement at the Transportation Security Administration 
(TSA).
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                         Hon. Janet Napolitano
    Question 1. I understand the Department has unmanned aerial system 
(UAS) assets through Customs and Border Protection (CBP). Opportunities 
for use of these systems could expand in the future to other components 
of DHS and assist the Department in carrying out its significant 
mission. The Air Force has acknowledged the difficulty of coordinating 
with the Federal Aviation Administration (FAA) regarding the operation 
of DOD-related UAS assets in domestic airspace. It is important that we 
ensure a strong partnership between your Department and the FAA on 
similar efforts. Please explain the process between DHS and FAA to 
utilize domestic airspace for the UAS activities.
    Answer. Currently, CBP Office of Air and Marine submits, through an 
online process, an application for a Certificate of Authorization 
(COA). COAs are required due to current Federal Aviation Regulations 
(FARs) written only for manned aircraft and that no UAS standards have 
been developed and codified through rulemaking.
    The COA application is very in-depth and contains detailed 
information concerning the UAS aircraft operating location and 
altitudes; supporting equipment and systems. The application also 
solicits information on personnel and pilot qualifications. Last, the 
application requires aircraft airworthiness information; potential 
impact to other airborne aircraft; people and property on the ground; 
communication requirements; and emergency aircraft procedures. Risk 
mitigation is a paramount factor.
    If the COA application is approved allowing the CBP UAS to operate 
in the National Airspace System (NAS), it is disseminated to CBP and to 
the FAA facilities whose airspace the UAS will operate within. FAA 
facility air traffic controllers are trained on the operational 
capabilities and limitations of the UAS as well as the restrictions and 
operational parameters within which the UAS must operate. Continuing 
coordination and collaboration exists to amend, if necessary, a 
provision contained within the COA. COAs are currently issued by the 
FAA from a one-time authorization to standing authorizations, but not 
to exceed one calendar year. Standing authorizations can be renewed 
after undergoing the same scrutiny as an original application. Though 
there are various sizes of UASs in use, CBP operates the second largest 
UAS in service today--the MQ-9 Predator B. At 10,000 lbs and with a 
wingspan of 66 feet, it is the size of a large general aviation 
aircraft and is flown by CBP and USCG personnel, all with FAA pilot 
licenses. The pilots of the UAS communicate with and receive air 
traffic control instructions from FAA controllers exactly as any 
aircraft would be controlled and operate within the NAS.

    Question 2. Must DHS work with any other Federal entities to fully 
utilize the Departments UAS assets?
    Answer. Yes, first and foremost with the Federal Aviation 
Administration (FAA) for permission to fly in the National Air Space 
through the Certificate of Authorization process. Though CBP operates 
the MQ-9 Predator B, it is a DHS and national asset. CBP is 
continuously partnering within DHS and other government agencies in an 
attempt to demonstrate the capabilities this asset provides for law 
enforcement, incident management, search and rescue, DoD support, etc. 
No manned aircraft in the U.S. Government inventory provides the 
persistent and sustained surveillance that the Predator is capable of.

    Question 3. How can the relationship between DHS and FAA regarding 
the use of UAS in domestic airspace improve?
    Answer. Language in Section 1036 of the Duncan Hunter National 
Defense Authorization Act for Fiscal Year 2009 (Public Law 110-417) 
called for a more cooperative relationship between DoD and the FAA in 
obtaining access to the NAS with UASs and as such the establishment of 
a joint Executive Committee (EXCOM) to resolve conflicts and disputes. 
Recognizing that DHS has a major role and requirement in obtaining 
access to the NAS, DHS was invited to participate in the EXCOM. DHS, 
DoD, NASA, and FAA are currently cooperating and collaborating on a 
process to safely, efficiently, and timely gain increased and routine 
access to the NAS.

    Question 4. Are you aware of any instances where the Department was 
delayed in utilizing UAS assets as a result of interagency 
coordination?
    Answer. Ad-hoc, non-routine access to the NAS by CBP UASs have been 
processed by the FAA in an expeditious manner and ultimately never 
denied. CBP operates under one of four types of COAs; mission 
(operational), training (pilots), emergency, and disaster (FEMA or 
Federal or State support).
    Through the EXCOM, shortfalls have already been identified within 
the COA application process. Corrective actions have been recommended 
by a COA interagency working group which address FAA resource issues, 
reduced COA processing timelines, standardized application information, 
etc. If implemented, perceived delays should be minimized and COA 
processing burdens on the FAA and proponents will be greatly reduced.

    Question 5. Congress recently passed the Consolidated 
Appropriations Act of 2010, which was subsequently signed into law by 
the President on December 16, 2009. The law includes a mandate that 
Amtrak consult with the Transportation Security Administration (TSA) on 
developing and implementing guidance and procedures to provide for 
checked firearms on Amtrak routes that permit checked baggage. The law 
also requires for consultation with TSA in reporting to Congress on 
these efforts within 180 days of enactment.
    Amtrak's consultation with the TSA is not only mandated, but it is 
vital to the successful implementation of this important program. What 
steps will you pursue to ensure timely and effective consultation with 
Amtrak on these directives?
    Answer. In accordance with section 159 of the Consolidated 
Appropriations Act, 2010 (Pub. L. 111-117), the Transportation Security 
Administration (TSA) has initiated consultation with Amtrak to develop 
and implement guidance and procedures to provide for checked firearms 
on Amtrak routes that permit checked baggage. Consistent with the 
statutory mandate, Amtrak and TSA will continue to consult thoroughly 
on security matters implicated by the requirement to develop and 
implement a program for transport of firearms and ammunition in checked 
baggage. Amtrak and TSA have agreed to form a joint working group for 
this purpose.

    Question 6. The President's budget request for Fiscal Year 2010 
included $856 million for Explosives Detection Systems (EDS), which is 
a needed increase from the previous enacted level in Fiscal Year 2009 
of $294 million. Even with the increase for EDS that was recently 
passed by Congress, the need of airports across the country to 
recapitalize checked baggage screening equipment and accelerate the 
deployment of in-line systems remains of the upmost importance. Without 
continued funding it will be impossible to provide the latest, cutting-
edge technology necessary to keep the aviation sector secure from the 
threats of terrorism.
    As you know, many of these checked baggage screening systems that 
were deployed immediately after September 11, 2001 have reached the end 
of their life cycles and the costs to keep these older technology 
systems functioning with minimal down time is becoming prohibitive.
    Will you support maintaining the Fiscal Year 2010 EDS procurement 
and installation funding levels at our Nation's airports in Fiscal Year 
2011 necessary to maintain the Electronic Baggage Screening Program 
(EBSP)? With the threat of new explosives evolving rapidly how do you 
see this factoring into the replacement of older equipment such as 
Explosive Trace Detection (ETD) with newer equipment that is equipped 
to change with these continued new threats?
    Answer. The funding level for Fiscal Year 2011 will be released in 
the President's budget in February. The threat of new explosives and 
new threats to aviation security continues to evolve. The 
Transportation Security Administration (TSA) has developed a Strategic 
Plan for the Electronic Baggage Screening Program, which includes a 
central goal of replacing Explosive Trace Detection (ETD) equipment 
used for primary screening with Explosives Detection Systems (EDS) 
machines at airports. There is currently an on-going effort to replace 
primary-screening ETD machines with Reduced-Size Explosive Detection 
System (RSEDS) at Category X-III airports. In Fiscal Year 2010, from 
January to September, TSA plans to deploy on average 20-25 RSEDS units 
per month to airports nationwide. RSEDS provides a less intensive 
manpower approach, plus the increased screening capabilities of EDS 
relative to ETD equipment for primary screening. Please note that ETD 
equipment will continue to play a critical role in assisting 
Transportation Security Officers in resolving suspect baggage that have 
alarmed the EDS equipment (referred to as secondary screening).
    Among the actions being taken to address evolving new threats, TSA 
is taking steps to pursue a full and open competitive procurement for 
reduced-size, medium-speed, and high-speed EDS technologies. This 
procurement will segment the technologies into distinct system types, 
provide for increased competition, enhance detection and operational 
capabilities, and provide for a reduced total cost of ownership.

    Question 7. Continued efforts by the Transportation Security 
Administration to enhance security at our Nation's airports remain 
vital to our Nation's security. The Administration's focus on the top 
20 to 25 airports to enhance security for 95 percent of passengers in 
the United States is not reflective of the true situation since a 
significant majority of passengers begin their trips at medium and 
small airports. According to figures from the Department of 
Transportation's Bureau of Transportation Statistics, 54 percent of the 
passengers begin their trips at the Nation's top 25 airports, while 46 
percent of the passengers begin their air travel at the next 225 
airports. Since checked baggage is screened at originating airports, 
medium and small airports cannot be neglected if aviation security is 
truly to be enhanced. In knowing that two of the highjackers on 9/11 
began their flight at a small airport in Bangor, Maine, what steps are 
you taking to ensure that the need for medium and small airports to 
receive the latest explosives detection systems is as important as the 
Category X airports?
    Answer. The needs of small and medium airports are taken into 
consideration by the Transportation Security Administration (TSA) to 
enhance security at our Nation's airports. The Fiscal Year (FY) 2009 
budget included $87 million for medium- and small-sized airports for 
the procurement and deployment of certified Explosive Detection 
Systems. The FY 2010 budget includes an additional $218 million for the 
needs of medium- and small-sized airports. In addition, up to $50 
million of the Aviation Security Capital Fund is used to make 
discretionary grants, including Other Transaction Agreements for 
airport security improvement projects with priority given to small and 
non-hub airports.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Johnny Isakson to 
                         Hon. Janet Napolitano
    Question. Will the Department of Homeland Security plan to launch 
the US-VISIT Exit program, and if so, will DHS plan to check departures 
on the Canadian and Mexican borders, as well as in seaports?
    Answer. It should be noted that the Department of Homeland Security 
(DHS) currently has biographic exit information; however, the 
Department is currently weighing several options for adding biometrics 
based on pilots conducted over the past 6 years. The infrastructure at 
land borders does not easily lend itself to any consistent form of exit 
based on current technology.
Air/Sea
    DHS has performed significant planning and testing over the past 3 
years to examine possible solutions for integrating US-VISIT biometric 
exit requirements into the international air departure process. For 
more than 2 years, US-VISIT ran biometric exit pilots at 12 airports 
and two seaports. These pilots evaluated the use of both automated 
kiosks and mobile devices in port terminals. When the pilots ended in 
May 2007, an evaluation determined that the technology worked 
effectively but traveler compliance was low. DHS determined that 
biometric air exit needs to be integrated into the existing 
international traveler departure process.
    On April 24, 2008, DHS published a notice of proposed rulemaking 
(NPRM) proposing that commercial air carriers and vessel carriers 
collect and transmit the biometric information of aliens to DHS within 
24 hours of their departure from the United States. In the Consolidated 
Security, Disaster Assistance, and Continuing Appropriations Act of 
2009 (Public Law 110-329), Congress required DHS to test additional 
biometric collection before finalizing the Air-Sea Exit NPRM to ensure 
that the best available procedures are implemented.
    From May 28 to July 2, 2009, US-VISIT tested biometric air exit 
procedures at two airports: Detroit Metropolitan Wayne County Airport 
and Hartsfield-Jackson Atlanta International Airport. In Detroit, DHS 
tested the collection of alien passengers' biometrics at the boarding 
gate by U.S. Customs and Border Protection officers. In Atlanta, DHS 
tested the collection of alien passengers' biometrics at Transportation 
Security Administration checkpoints. Consistent with Public Law 110-
329, the Department has submitted an evaluation report of these pilots 
to the House and Senate Committees on Appropriations, as well as to the 
Government Accountability Office. The results of the pilot evaluation, 
combined with the review of public comments submitted in response to 
the NPRM, will inform the decision on the option to be selected for 
publication in the final rule.
Land
    Biometrically recording the departures of aliens at U.S. land 
border ports of entry poses significantly greater challenges. Each 
year, our land border ports of entry see more than 300 million 
crossings at 170 port locations, including seasonal and other ports 
that are not open year round. Due to variations in infrastructure, 
environment, and traffic volume from port to port, a one-size-fits-all 
solution to acquiring biometrics from aliens crossing the border will 
be difficult. The Department is examining options for the land border 
environment that will not negatively impact the economy, the 
environment, or traveler safety.
Canadian and Mexican Borders
    Seeking to maximize biometric information-sharing efforts in 
support of its exit program, US-VISIT took the lead in forming a 
Technical Working Group on Biometric Identity Management with the 
Canada Border Services Agency.
    The working group has established joint biometric principles and is 
working on a framework to share biometric information related to third-
country nationals entering Canada to establish exit from the United 
States. This work will progress over the next few years as Canada 
implements biometric capture capabilities for visa and port-of-entry 
operations. Canada plans to complete implementation of its biometric 
program by 2013.
    Since Mexico is in the initial stages of developing its biometric 
capabilities for border and immigration control, there has not yet been 
an opportunity to share biometrics for exit purposes. US-VISIT 
continues to provide technical assistance in support of Mexico's 
efforts to incorporate biometrics into its immigration process under 
the Merida Initiative.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                         Hon. Janet Napolitano
    Question 1. Please provide information on actions the Department is 
taking to ensure that ports that handle primarily oil and gas, not 
cargo, will remain secure.
    Answer. The Coast Guard has a multi-tiered approach to ensuring the 
safety and security of ports which handle oil and gas.
    The Coast Guard's Operation Neptune Shield identifies the Maritime 
Security and Response Operations (MSRO) activities which the Coast 
Guard Sectors will conduct and establishes their performance standards. 
The MSRO activities identified in this self-imposed operation are 
intended to deter, detect, prevent, protect against, interdict, and/or 
aid the recovery from attacks and include but are not limited to: 
waterborne, aerial, and shoreside patrols; security boardings; moving 
security zone enforcement (vessel escorts); and fixed security zone 
enforcement.
    As mandated by the Maritime Transportation Security Act (MTSA), all 
oil and gas facilities and vessels calling upon them are required to 
maintain and implement approved security plans to ensure appropriate 
measure are taken to deter, prevent and respond to security threats and 
incidents. The Coast Guard verifies the adequacy of these security 
plans by conducting periodic plan review, compliance examinations and 
unannounced spot checks. As part of the mandated Area Maritime Security 
Committee (AMSC) process, strong partnerships have been formed with key 
stakeholders from state and local agencies and the maritime industry. 
These partnerships have facilitated information sharing and a risk 
based approach to address maritime security.
    The Coast Guard's International Port Security (IPS) Program, also 
required by the MTSA, assesses the effectiveness of anti-terrorism 
measures in foreign ports including those which primarily handle oil 
and gas. The IPS Program conducts visits to those ports to verify the 
adequacy of the security measures using the International Ship and Port 
Facility Security Code as the primary basis to determine if a country 
has effective anti-terrorism measures. The Coast Guard has visited the 
ports in approximately 150 countries which trade with the U.S. For 
those ports with inadequate security, the Coast Guard imposes 
``Conditions of Entry'' on vessels arriving to the U.S. from them. 
These conditions of entry require these vessels to take additional 
security measures overseas or upon arrival to the U.S. to reduce the 
risk to U.S. ports.
    The Coast Guard's Maritime Security Risk Analysis Model (MSRAM) is 
a terrorism risk analysis tool used to perform detailed risk analysis 
of the maritime transportation system and port critical infrastructure, 
including oil and gas facilities. MSRAM provides a means to use 
security assessments, consequence models, and threat information to 
numerically quantify risk across all ports and industry sectors. MSRAM 
identifies and prioritizes infrastructure based on defined terrorist 
attack scenarios, and informs the Coast Guard Captains of the Port 
(COTPs) and their Area Maritime Security Committees (AMSCs) on the 
highest risk critical infrastructure within their ports. Based upon 
this information, the COTPs and AMSCs have modified their Area Maritime 
Security Plans and prioritized Coast Guard and other law enforcement 
resources to protect the highest risk critical infrastructure in their 
ports.

    Question 2. Many from Louisiana's maritime industries have voiced 
concerns about bureaucratic delays when their employees obtain TWIC 
cards. What is DHS doing to alleviate unnecessary delays while 
maintaining and improving security measures?
    Answer. Since the national implementation of the Transportation 
Worker Identification Credential (TWIC) program, the Transportation 
Security Administration (TSA) has enrolled over 1.4 million workers 
associated with our Nation's maritime ports and vessels and issued 
credentials to those individuals who have been found eligible to 
receive a TWIC. With the rollout of any program of this size and 
complexity, there are always challenges to meet and process 
improvements to make. TSA is continually reviewing its enrollment, 
adjudication and credentialing issuance processes and procedures to 
improve efficiencies wherever possible and expedite the issuance of 
these credentials. An example of these efforts is our continual 
communications with stakeholders via the TWIC Stakeholder Communication 
Committee used to provide program updates and receive stakeholder 
input. Also, we have added new personnel and resources to facilitate 
the redress process for those individuals who have been deemed 
ineligible to hold a TWIC as a result of the security threat 
assessment. If there are any specific Louisiana Maritime Industry 
concerns, TSA would be more than happy to address them.

    Question 3. While protecting vital American jobs, the Jones Act 
also serves to enhance maritime security. Please provide a status 
update regarding deliberations by CBP and DHS, underway since July, 
about whether to modify or withdraw several letter rulings concerning 
the transportation by foreign vessels of cargo to offshore energy 
sites.
    Answer. Based on several substantive comments CBP received, both 
supporting and opposing the proposed action, and CBP's further research 
on the issue, CBP determined that the proposed modification and 
revocation of ruling letters relating to the Jones Act published in the 
Customs Bulletin on July 17, 2009, should be reconsidered. To that end, 
the proposal was withdrawn by a notice dated September 15, 2009, and 
published in the Custom Bulletin of October 1, 2009. Deliberations are 
still underway on this matter.

    Question 4. My understanding is that CBP has been presented with at 
least two complaints of Jones Act violations occurring offshore in 
recent months. Please provide the Committee with an update on the 
status of those investigations. Also, please provide a full report at 
such time as any action is taken in those cases.
    Answer. This case alleges that on two separate occasions certain 
merchandise was transported between Louisiana ports and locations on 
the Outer Continental Shelf by non-coastwise-qualified vessels.
    In consideration of the potential penalty assessment in these 
allegations (at least $2 million for each case), it has been our 
recommendation that no penalty action be pursued until the specific 
facts of these alleged violations can be verified.

                                  <all>

</pre></body></html>
